Semiannual Report to Congress
     U.S. Department of Housing and Urban Development
    Office of Inspector General




    Semiannual Report to Congress
        October 1, 2004 through March 31, 2005

  Office of Inspector General
Profile of Performance
                                               Profile of Performance
                               For the Period, October 1, 2004, through March 31, 2005

            Audit and Investigation Results                Audit          Investigation       Hotline       Combined

  Recommendations That Funds Be Put to Better Use         $940,871,236                        $1,824,881    $942,696,117
  Management Decisions on Audits with Recommendations    $1,207,899,773                                    $1,207,899,773
  That Funds Be Put to Better Use
  Questioned Costs                                         $89,988,861                                       $89,988,861
  Management Decisions on Audits with Questioned Costs    $119,366,523                                      $119,366,523
  Indictments/Informations                                                           888                             888
  Convictions/Pleas/Pretrial Diversions                                              455                             455
  Civil Actions                                                                       32                               32
  Recoveries/Receivables                                                    $498,294,949                    $498,294,949
  Funds Put to Better Use                                                    $40,844,193       $117,226      $40,961,419
  Collections from Audits                                    $7,761,521                                        $7,761,521
  Administrative Sanctions                                           8             1,142                            1,150
  Personnel Actions                                                                   34                               34
  Arrests                                                                          1,786                            1,786
  Search Warrants                                                                     35                               35
  Weapons Seized                                                                          5                            5
  Subpoenas Issued                                                  27               379                             406
Inspector General
          General’ss Message
                                  On behalf of the U.S. Department of Housing and Urban
                              Development’s Office of the Inspector General, I hereby
                              proudly present the Semiannual Report on our activities for
                              the half fiscal year beginning on October 1, 2004.

                                Before highlighting HUD OIG’s recent activities, I note
                           first that it is my continuing honor to serve with the many
                           talented auditors, investigators and support personnel who
                           strive unceasingly to further HUD OIG’s mission. Their efforts
                           have helped ensure that HUD programs are administered
                           properly, that HUD personnel continue to fulfill their
                           legislatively-directed objectives, and that sums of wasted or
                           stolen program funds are recovered for the benefit of HUD’s




                                                                                              Inspector General’s Message
target constituents. During the last six months, HUD OIG’s audits and investigations
have achieved a return on investment of 28 to 1, a remarkable achievement and a proper
service to the American taxpayer. HUD OIG shall set the bar ever higher in the months
ahead.

    HUD OIG has also established vital relationships with professional organizations
working on housing issues, a practice essential both to industry oversight specifically
and more generally to our mission to deter fraud, waste, and abuse involving HUD
programs. These organizations include the Public Housing Authorities Directors
Association, the National Association of Housing and Redevelopment Officials, and the
Mortgage Bankers Association. We continue to work closely with these organizations
on areas of mutual interest.

     I note lastly and with great satisfaction that HUD OIG’s peers within the federal
Inspector General community have recognized our accomplishments, and look to us for
leadership. To this end, I was appointed recently to serve as Chairman of the
Investigations Committee for the President’s Council on Integrity and Efficiency (PCIE).
This committee establishes policies and procedures for the federal Inspector General
community. Since I assumed the Chairmanship, the committee has undertaken several
significant steps, including codification and implementation of a “best practices” program,
an increased focus on excellence in training, and better outreach to state authorities,
fellow Inspectors General and international organizations. I look forward to the many
challenges ahead, and to the myriad opportunities my leadership may present to serve
HUD OIG’s mission.

     Here are several of the key areas discussed herein.

     We are continuing our efforts on problems plaguing single-family housing. During
the six-month reporting period, audit reports related to the single Family Housing Program
area questioned millions of dollars in costs and made recommendations as to how millions
of dollars in funds could be put to better use.


Inspector General’s Message                                                                   iii
                                    Similarly, we have had outstanding results investigating single-family mortgage
                                fraud, tailoring our forensic audit and investigative activities to complement this need,
                                support HUD management, and provide deterrence to potential criminal activity.

                                     The rental housing program has been enhanced by the collaboration of the
                                Department with OIG and State and local law enforcement to locate and stop Section 8
                                rental subsidy fraud. Our investigative and audit focus is concentrating on fraudulent
                                practices and the lack of compliance with Section 8 program requirements. We are
                                conducting 20 external audits of the Section 8 Housing Choice Voucher program during
                                this fiscal year.

                                     OIG auditors continue to monitor the Disaster Recovery Assistance funds provided
                                to the City of New York in the wake of the 9-11 attacks. Specifically, we audited the
                                Lower Manhattan Development Corporation and found that it has generally disbursed
                                the Disaster Recovery Assistance funds as directed by the Congress.
Inspector General’s Message




                                    In closing, I have already stated how proud I am of the men and women of
                                HUD-OIG and their excellent work. I also want to commend those OIG personnel who
                                are activated reservists, serving our country in the armed forces in Afghanistan,
                                Iraq, the Middle East, and elsewhere. They are our strength and our future. I am
                                extremely grateful that America has such fine individuals dedicated to the service of
                                our citizenry.

                                     Thank you,




                                     Kenneth M. Donohue, Sr.
                                     Inspector General




                       Inspector General’s Message                                                                     iv
Information About the HUD Office of Inspector General

     B      eginning with fiscal year (FY) 2004, the Office of Inspector General
             (OIG) instituted a return-on-investment (ROI) computation as one method
to measure its contribution to the Department’s mission. This measure takes the total
dollars of recommended “funds to be put to better use1” and “questioned costs,2”
together with “receivables and recoveries 3” from Investigations and Hotline, and divides
that total by OIG’s operating costs, including salaries, for the period. The resulting ratio
represents the potential amounts that could be realized or better used per dollar of OIG
expenditures either during current or future periods. Many factors affect when and
how much is actually returned so OIG uses recommended amounts in our ROI calculation,
rather than management decisions, to better relate results to the work that was actually
done during the period. Much of this period’s ROI results from the annual financial
audit finding regarding the need to deobligate $708 million in HUD funds. The majority
of contributing factors to the ROI are the results from reviews of external parties who
administer or benefit from U.S. Department of Housing and Urban Development
(HUD)-funded programs. HUD refers many matters such as these to OIG for audit or
investigation, as appropriate.

     Our target ROI ratio for FY 2005 is set at 8-to-1. This means that for every dollar
Congress appropriated to OIG, we should uncover $8 that should be returned or put to




                                                                                                                         Information About Us
better use. The budget for FY 2005 is $103,168,000. The ROI in dollars computed on an
8-to-1 ratio would be approximately $825 million. We are pleased to report that for the
period of October 1, 2004, to March 31, 2005, our ROI is 28 to 1 – far exceeding a goal of
8-to-1.


1
  “Funds to be put to better use” is an item required by Congress and is defined in the Inspector General Act as “
a recommendation by the Office that funds could be used more efficiently if management of an
establishment took actions to implement and complete the recommendation, including (1) reductions in outlays;
(2) deobligations of funds from programs or operations; (3) withdrawal of interest subsidy costs on loans or loan
guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements related to the
operations of the establishment, a contractor, or grantee; (5) avoidance of unnecessary expenditures noted in
preaward reviews of contractor grant agreements; or (6) any other savings which are specifically identified.”

2
  “Questioned costs” are “a cost that is questioned by the Office because of (1) an alleged violation or provision of
law, regulation, contract, grant, or cooperative agreement, or other agreement or document governing the
expenditure of funds; (2) a finding that at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable.”

3
 “Receivables and recoveries” are based on the total dollar value of (1) criminal cases—the amount of restitution,
criminal fines, and/or special assessments based on a criminal judgment or established through a pretrial diversion
agreement; (2) civil cases—the amount of damages, penalties, and/or forfeitures resulting from judgments issued
by any court (Federal, State, local, military, or foreign government) in favor of the U.S. Government or the amount of
funds to be repaid to the U.S. Government based on any negotiated settlements by a prosecuting authority or the
amount of any assessments and/or penalties imposed, based on actions brought under the Program Fraud Civil
Remedies Act, civil money penalties, or other agency-specific civil litigation authority, or settlement agreements
negotiated by the agency while proceeding under any of these authorities; (3) voluntary repayments—the amount of
funds repaid on a voluntary basis or funds repaid based on an agency’s administrative processes by a subject of an
OIG investigation or the value of official property recovered by an OIG during an investigation before prosecutive
action is taken, any of which result from a case in which an OIG has an active investigative role; and (4) “
administrative receivables and recoveries” based on Hotline referrals to HUD program staff.



Information About the HUD Office of Inspector General                                                                     v
                                   OIG Cost of Operations for the Period
                                    October 1, 2004, to March 31, 2005
                     Centrally Managed/                       Administration & Operations
                       Funded Services                             $3,347,692 = 6%
                      $15,900,767 = 29%




                                                                   Personnel Services
                                                                   $36,135,086 = 65%




                                              OIG Results FY 2004
                                              $1.57 Billion Captured

                     Receivables/Recoveries                 Questioned Costs
                       $500,119,830 = 32%                   $89,988,861 = 6%




                                                                 Funds Put to Better Use
                                                                   $981,832,655 = 62%
OIG Charts




        OIG Charts                                                                          vi
                                 Audit Reports Issued by Program
                      Community
                       Planning &                                  Other
                      Development                                  15%
                           6%


                                                                           Single Family
                                                                                29%


               Public & Indian
                  Housing
                     34%

                                                                   Multifamily
                                                                      16%



                              Monetary Benefits Identified by Program

                          Single Family                       Multifamily
                               4%                                 3%


                                                                      Public & Indian
                                                                         Housing
                                                                            23%


                      Other
                      70%
                                                             Community Planning
                                                               & Development
                                                                    0%




                                                                                           Audit Charts
                        Monetary Benefits Identified in Millions of Dollars


               800
                                                                           $708.0
               700
               600
               500
               400
               300                            $241.1
               200
               100      $40.8       $34.3
                                                            $2.1
                  0
                       Single       Multi-      PIH         CPD             Other
                       Family       family




Audit Charts                                                                               vii
                                               Investigation Cases Opened by Program (Total: 638)
                                                                         Multifamily
                                                                            12%        Community Planning
                                                                            (78)         & Development
                                    Public & Indian                                           4%
                                       Housing                                                (25)
                                          61%
                                         (389)                                            Other/GNMA
                                                                                               2%
                                                                                               (13)


                                                                                           Single Family
                                                                                                21%
                                                                                               (133)




                                            Investigation Recoveries by Program (Total: $498,294,949)
                                                                        Multifamily
                                        Community Planning                                Public & Indian
                                                                             0%
                                          & Development                                      Housing
                                                                        ($2,439,543)
                                                 1%                                             16%
                                            ($7,137,802)                                   ($79,673,692)


                                                                                            Other/GNMA
                                                                                                 0%
                                                                                              ($185,618)
Investigation Charts




                                          Single Family
                                               83%
                                          ($408,807,294)



                                            Investigation Funds Put to Better Use (Total: $40,844,193)
                                                  Community Planning & Development
                                                           3% ($1,309,036)
                                                                                           Other/GNMA
                                                                                                 0%
                                           Multifamily                                          ($0)
                                                6%
                                           ($2,293,596)




                                                                                             Single Family
                                                                                                  41%
                                         Public & Indian
                                                                                              ($16,562,279)
                                            Housing
                                               50%
                                          ($20,679,282)




                 Investigation Charts                                                                         viii
Acronyms List
     ASAC       Assistant Special Agent in Charge
     BCI        Bureau of Criminal Investigation
     CDBG       Community Development Block Grant
     CID        Criminal Investigation Division
     CJIS       Criminal Justice Information Services Division
     CPD        Office of Community Planning and Development
     DOC        Department of Commerce
     ED         Executive Director
     FBI        Federal Bureau of Investigation
     FFMIA      Federal Financial Management Improvement Act of 1996
     FHA        Federal Housing Administration
     FHASL      Federal Housing Administration Subsidiary Ledger
     FHEO       Office of Fair Housing and Equal Opportunity
     FISMA      Federal Information Security Management Act of 2002
     FY         fiscal year
     GAO        Government Accountability Office
     GNMA       Government National Mortgage Association (aka Ginnie Mae)
     HAP        housing assistance payment
     HHS        Department of Health and Human Services
     HOME       Home Investment Partnership
     HQS        housing quality standards
     HUD        U.S. Department of Housing and Urban Development
     IG         Inspector General



                                                                              Acronym List
     IRS        Internal Revenue Service
     LLG        Liability for Loan Guarantee
     LLR        Loan Loss Reserve
     NAHRO      National Association of Housing and Redevelopment Officials
     NIST       National Institute of Standards and Technology
     NOFA       notice of funding availability
     OGC        Office of General Counsel
     OIG        Office of Inspector General
     OMB        Office of Management and Budget
     OND        Officer Next Door
     OPM        Office of Personnel Management


Acronym List                                                                  ix
                         PFCRA    Program Fraud Civil Remedies Act
                         PHA      public housing authority
                         PIC      Public and Indian Housing Information Center
                         PID      Program Integrity Division
                         PIH      Office of Public and Indian Housing
                         PMA      President’s Management Agenda
                         PRWORA   Personal Responsibility and Work Opportunity Reconciliation
                                  Act of 1996
                         REAC     Real Estate Assessment Center
                         REAP     Resource Estimation and Allocation Process
                         REO      real estate owned
                         RESPA    Real Estate Settlement and Procedures Act
                         RHIIP    Rental Housing Integrity Improvement Project
                         RIGA     Regional Inspector General for Audit
                         SA       Special Agent
                         SAC      Special Agent In Charge
                         SBA      Small Business Administration
                         SID      Special Investigations Division
                         SEMAP    Section 8 Management Assistance Program
                         SSA      Social Security Administration
                         SSN      Social Security number
                         TEAM     Total Estimation and Allocation Mechanism
                         TND      Teacher Next Door
                         UDAG     Urban Development Action Grant
                         UIV      Upfront Income Verification
Acronym List




                         USDA     U.S. Department of Agriculture
                         USPS     U.S. Postal Service




          Acronym List                                                                          x
Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges                          1
The HUD Office of Inspector General                                              2
Major Issues Facing HUD                                                          2
Chapter 2 - HUD’s Single Family Housing Programs                                 9
Audits                                                                          10
Investigations                                                                  21
Chapter 3 - HUD’s Public and Indian Housing Programs                            43
Audits                                                                          44
Investigations                                                                  55
Fugitive Felon Initiative                                                       68
Chapter 4 - HUD’s Multifamily Housing Programs                                  71
Audits                                                                          72
Investigations                                                                  76
Chapter 5 - HUD’s Community Planning and Development Programs                   83
Audits                                                                          84
Investigations                                                                  86
Chapter 6 - Other Significant Audits and Investigations/OIG Hotline             95
Audits                                                                          96
Investigations                                                                 101
OIG Hotline                                                                    104
Chapter 7 - Outreach Efforts                                                   107




                                                                                     Table of Contents
Chapter 8 - Review of Policy Directives                                        115
Proposed Rules                                                                 116
Mortgagee Letter                                                               120
Chapter 9 - Audit Resolution                                                   123
Delayed Actions                                                                124
Significant Revised Management Actions                                         125
Significant Management Decisions with Which OIG Disagrees                      128
Federal Financial Management Improvement Act of 1996                           130
Appendix 1 - Audit Reports Issued                                              131
Appendix 2 - Tables                                                            137
Table A - Audit Reports Issued Prior to Start Period with No Management
Decision at 03/31/2005                                                         138
Table B - Significant Audit Reports Described in Previous Semiannual Reports
Where Final Action Had Not Been Completed as of 03/31/2005                     139
Table C - Inspector General Issued Reports with Questioned and Unsupported
Costs at 03/31/2005                                                            149
Table D - Inspector General Issued Reports with Recommendations that Funds
Be Put to Better Use at 03/31/2005                                             150


Table of Contents                                                                    xi
                            Reporting Requirements
                               The specific reporting requirements as prescribed by the Inspector General Act of
                                  1978, as amended by the Inspector General Act of 1988, are listed below:
                            Source/Requirement                                                                    Pages
                            Section 4(a)(2)-review of existing and proposed legislation and regulations.         115-122
                            Section 5(a)(1)-description of significant problems, abuses, and               1-105, 123-130
                            deficiencies relating to the administration of programs and operations
                            of the Department.
                            Section 5(a)(2)-description of recommendations for corrective action with              9-105
                            respect to significant problems, abuses, and deficiencies.
                            Section 5(a)(3)-identification of each significant recommendation  Appendix 2, Table B
                            described in previous semiannual report on which corrective action
                            has not been completed.
                            Section 5(a)(4)-summary of matters referred to prosecutive authorities                 9-105
                            and the prosecutions and convictions that have resulted.
                            Section 5(a)(5)-summary of reports made on instances where information          No Instances
                            or assistance was unreasonably refused or not provided, as required by
                            Section 6(b)(2) of the Act.
Reporting Requirements




                            Section 5(a)(6)-listing of each audit report completed during the                Appendix 1
                            reporting period, and for each report, where applicable, the total
                            dollar value of questioned and unsupported costs and the dollar value of
                            recommendations that funds be put to better use.
                            Section 5(a)(7)-summary of each particularly significant report.                       9-105
                            reports and the total dollar value of questioned and unsupported
                            costs.
                            Section 5(a)(8)-statistical tables showing the total number of          Appendix 2, Table C
                            audit reports and the total dollar value of questioned and
                            unsupported costs.
                            Section 5(a)(9)-statistical tables showing the total number of audit Appendix 2, Table D
                            reports and the dollar value of recommendations that funds be put
                            to better use by management.
                            Section 5(a)(10)-summary of each audit report issued before the Appendix 2, Table A
                            commencement of the reporting period for which no management
                            decision had been made by the end of the period.
                            Section 5(a)(11)-a description and explanation of the reasons for                    125-128
                            any significant revised management decisions made during the
                            reporting period.
                            Section 5(a)(12)-information concerning any significant management                   128-130
                            decision with which the Inspector General is in disagreement.
                            Section 5(a)(13)-the information described under section 05(b) of the                    130
                            Federal Financial Management Improvement Act of 1996.


                   Reporting Requirements                                                                              xii
        Chapter 1




    HUD’s Management
and Performance Challenges
                                       The HUD Office of                               Major Issues Facing HUD
                                       Inspector General                                    The Department’s primary mission is


                                            T
                                                                                       to expand housing opportunities for
                                                    he U.S. Department of
                                                                                       American families seeking to better their
                                                    Housing and Urban Develop-
                                                                                       quality of life. HUD seeks to accomplish this
                                       ment (HUD) Inspector General is one of
                                                                                       through a wide variety of housing and
                                       the original 12 Inspectors General
                                                                                       community development grant, subsidy,
                                       authorized under the Inspector General
Management & Performance Challenges


                                                                                       and loan programs. HUD’s budget
                                       Act of 1978. Over the years, we have forged
                                                                                       approximates $31 billion annually.
                                       a strong alliance with HUD personnel
                                                                                       Additionally, HUD assists families in
                                       in recommending ways to improve
                                                                                       obtaining housing by providing Federal
                                       departmental operations and in
                                                                                       Housing Administration (FHA) mortgage
                                       prosecuting program abuses. We strive
                                                                                       insurance for single-family and
                                       to make a difference in HUD’s performance
                                                                                       multifamily properties. At the end of fiscal
                                       and accountability. We are committed to our
                                                                                       year (FY) 2004, FHA’s outstanding
                                       statutory mission of detecting and
                                                                                       mortgage insurance portfolio was about
                                       preventing fraud, waste, and abuse and
                                                                                       $469 billion. Ginnie Mae, through its
                                       promoting the effectiveness and efficiency
                                                                                       mortgage-backed securities program, gives
                                       of government operations. While
                                                                                       issuers access to capital markets through
                                       organizationally we are located within the
                                                                                       the pooling of federally insured loans.
                                       Department, we operate independently with
                                       separate budgetary authority. This
                                                                                            With about 9,100 staff nationwide,
                                       independence allows for clear and
                                                                                       HUD relies upon numerous partners for the
                                       objective reporting to the Secretary and the
                                                                                       performance and integrity of a large
                                       Congress. Our activities seek to
                                                                                       number of diverse programs. Among these
                                                                                       partners are hundreds of cities that
                                             Promote efficiency and effectiveness in
                                                                                       manage HUD’s Community Development
                                             programs and operations;
                                                                                       Block Grant (CDBG) funds, hundreds of
                                                                                       public housing authorities that manage
                                             Detect and deter fraud and abuse;
                                                                                       assisted housing funds, thousands of HUD-
                                                                                       approved lenders that originate and
                                             Investigate allegations of misconduct
                                                                                       service FHA-insured loans, and hundreds
                                             by HUD employees; and
                                                                                       of Ginnie Mae mortgage-backed securities
                                                                                       issuers that provide mortgage capital.
                                             Review and make recommendations
                                             regarding existing and proposed legis-
                                                                                            Achieving HUD’s mission continues to
                                             lation and regulations affecting HUD.
                                                                                       be an ambitious challenge for its limited
                                           The Executive Office and the Offices        staff, given the agency’s many distinct
                                       of Audit, Investigation, Counsel, and           programs. HUD’s management problems
                                       Management and Policy are located in            have for years kept it on the Government
                                       Headquarters. Also, the Offices of Audit        Accountability Office’s (GAO) list of
                                       and Investigation have staff located in eight   agencies with high-risk programs. HUD’s
                                       regions and numerous field offices.             management team, GAO, and the Office
                                                                                       of Inspector General (OIG) share the view



                               HUD’s Management and Performance Challnges                                                          2
that improvements in human capital,             attain green progress scores for all eight
acquisitions, and information systems are       initiatives, and improve goal scores for
essential in removing HUD from its              seven of the eight initiatives.
high-risk designation. More specifically,
HUD must focus these improvements on                 Each year in accordance with the
rental housing assistance programs and          Reports Consolidation Act of 2000, HUD-
single-family housing mortgage insurance        OIG is required to submit a statement to
programs, two areas where financial and         the Secretary with a summary assessment
programmatic exposure is the greatest.          of the most serious challenges facing the




                                                                                               Management & Performance Challenges
That HUD’s reported management                  Department. We submitted our latest
challenges are included as part of the          assessment on October 19, 2004. These
President’s Management Agenda (PMA)             reported challenges are the continued focus
is indicative of HUD’s important role in        of our audit and investigative effort. HUD
the Federal sector. HUD’s current               is working to address these challenges and
Administration places a high priority on        in some instances, has made progress in
correcting those weaknesses that put two        correcting them. The Department’s
HUD program areas on GAO’s high-risk            management challenges and current efforts
list.                                           to address these challenges are as follows.

      As of the end of the second quarter of        Departmentwide Organizational
2005, HUD’s PMA scoring status showed           Changes. For more than a decade, the
that the eight initiatives applicable to HUD    Department has struggled with
remained unchanged with a total of three        organizational and management changes
“yellow” and five “red” baseline goal           in an effort to streamline its operations.
scores. Based upon a comprehensive set of       These changes were necessary as HUD tried
standards, an agency is “green” if it meets     to manage more programs and larger
all of the standards for success, “yellow”      budgets with fewer staff. The former HUD
if it has achieved some but not all of the      Administration realigned the Department
criteria, and “red” if it has even one of the   along functional lines, separating outreach
number of serious flaws. The five red           from program administration. Also, it
baseline scores reported are Competitive        placed greater reliance on automated tools,
Sourcing, Improved Financial Performance,       processing centers, contracted services, and
E-Government, Budget and Performance            HUD partners to administer its programs.
Integration, and HUD Management and             As HUD implemented these realignments,
Performance. HUD’s baseline score for           many employees were assigned new
Improved Financial Performance remains          duties and responsibilities, and many new
at red because of material weaknesses and       employees were hired. The disruptions
a disclaimer of opinion received on HUD’s       caused by these sweeping changes
FY 2004 consolidated financial statements.      compounded problems in effectively
                                                managing HUD operations.
    Although HUD’s baseline scores
remained unchanged for the second                   The current Administration has made
quarter, actions completed during the           several changes to reduce organizational
quarter resulted in improved progress           layers and improve operations. The
scores. HUD’s third quarter 2005 goal is to     Departmental Enforcement Center was
complete all planned quarterly actions,         placed under the direction of the General



HUD’s Management and Performance Challnges                                                       3
                                       Counsel to consolidate legal resources in           Financial Management Systems.
                                       support of a strong program enforcement        HUD’s inventory of automated systems lists
                                       effort. The Real Estate Assessment Center      45 information systems as “official
                                       (REAC) was placed under the direction of       financial systems.” Another 44 information
                                       the Assistant Secretary for Public and         systems are listed as “other systems
                                       Indian Housing to improve REAC’s               performing financial functions.” These
                                       working relationships with program staff       systems, some of which are very old, are
                                       and program partners. In addition, the         not all operated on the same platform. Since
                                       return to the former regional and field        FY 1991, we have annually reported that
Management & Performance Challenges


                                       office structure was implemented to give       the lack of an integrated financial system
                                       HUD’s field operations greater operational     in compliance with all Federal Financial
                                       control over the administrative budget         Management System (FFMS) requirements
                                       resources they need to pursue their            is a material weakness in internal controls.
                                       operating and program goals and to             While some progress has been made, a
                                       strengthen the local focus on workload         number of long-standing deficiencies
                                       management to meet national performance        remain.
                                       goals.
                                                                                           For the past several years, our
                                            Improving the efficiency and              financial audits also reported weaknesses
                                       effectiveness of HUD’s programs through        in internal controls and security over
                                       reorganization efforts requires the            HUD’s general data processing operations
                                       Department, in part, to sustain operational    and specific applications. The effect of these
                                       consistency in completed reforms. To           weaknesses is that HUD cannot be
                                       better ensure operational consistency, it is   reasonably assured that system information
                                       essential that HUD execute its Strategic       will remain confidential, protected from
                                       Five-Year Human Capital Management             loss, and available to those who need it
                                       Plan. The first goal in HUD’s Plan,            without interruption.
                                       developed in 2003, is to make HUD a
                                       mission-focused agency. Getting the right          The weaknesses noted in our FY 2004
                                       number of employees in the right location      Consolidated Financial Audit relate to the
                                       with the right skill mix will improve the      need to
                                       quality of HUD programs and services by
                                       addressing management challenges,                   Comply with FFMS requirements,
                                       reducing program risks, and improving               including the need to enhance FHA’s
                                       program performance. The relationship               information technology systems to
                                       between       office     functions      and         more effectively support its business
                                       departmentwide goals is also reinforced             and budget processes;
                                       through the Plan’s implementation. HUD’s
                                       Plan recognizes that human resources                Strengthen controls over HUD’s
                                       activities must be aligned with agency goals        computing environment;
                                       to clearly, efficiently, and effectively
                                       support and enable HUD to achieve its               Improve personnel security practices
                                       mission.                                            for access to the Department’s
                                                                                           critical financial systems; and




                               HUD’s Management and Performance Challnges                                                          4
      Improve the systems and processes          by HUD’s resource management
      for reviewing obligation balances to       shortcomings. Accordingly, we consider it
      ensure that unneeded amounts are           critical for the Department to address these
      deobligated in a timely manner.            shortcomings through the successful
                                                 completion of ongoing plans. To operate
    HUD’s most significant system                effectively and hold individuals responsible
deficiencies have existed in FHA, which          for performance, HUD needs to know that
continues to conduct some day-to-day             it has the right number of staff with the
business operations with legacy-based            proper skills in the right positions.




                                                                                                Management & Performance Challenges
systems, limiting its ability to integrate its
financial processing environment. During             To address its human capital needs
FY 2003, FHA implemented the Federal             and respond to the PMA, HUD developed
Housing Administration Subsidiary Ledger         a comprehensive Five-Year Strategic
(FHASL) financial system. This system            Human Capital Management Plan that
automated many previously manual                 identifies three strategic goals for human
processes used to (1) consolidate the            capital:
accounting data received from the various
FHA operational legacy systems and (2)                Mission-focused agency to align
prepare summary entries for posting to                employees and work to support
the FHASL. FHA continues to make                      HUD’s mission;
progress in its overall compliance with
FFMS requirements. In FY 2004, FHA                    High quality workforce which
completed the implementation of its core              recruits, develops, manages, and
financial system implementation with the              retains a diverse workforce; and
addition of cash management, funds
control, and contract modules. By FY 2007,            Effective succession planning to
FHA plans to fully integrate program                  ensure retirees over the next 5 years
operations with its core financial system,            are succeeded by qualified employees
eliminating some legacy systems and
reengineering others to implement                    The human capital management
budgetary controls at the source, further        plan is the Department’s primary tool
reducing the need for manual processing,         for advancing its human capital
and improving financial operations.              transformation. The plan is reviewed
                                                 annually, and updates or revisions
    Human Capital Management. For                are issued as needed to support
many years, one of the Department’s              implementation activities. In line with its
major challenges has been to effectively         strategic plan, HUD has increased its
manage its limited staff resources to            focus on human capital management
accomplish its primary mission. In recent        through a variety of initiatives.
years, the Department has contracted out
numerous functions essential to the                 To address staffing imbalances and
accomplishment of its overall mission, in        other human capital challenges, the
part due to staffing issues. Many of the         Department uses the Resource Estimation
weaknesses facing HUD, particularly              and Allocation Process (REAP) and the
those concerning HUD’s oversight of              Total Estimation and Allocation
program recipients, are exacerbated              Mechanism (TEAM). REAP and TEAM are



HUD’s Management and Performance Challnges                                                        5
                                       HUD’s resource management tools by             represents a continuing challenge for
                                       which the Department identifies, justifies,    the Department. The PMA has
                                       analyzes, and makes a recommendation           committed HUD to tackling long-standing
                                       regarding the optimal level of resources       management problems that expose FHA
                                       necessary for effective and efficient          homebuyers to fraudulent practices. While
                                       program administration and management.         GAO and the Inspector General have
                                       REAP obtains crucial time and workload         reported improved monitoring of lender un-
                                       data necessary for viable budget estimation    derwriting, default tracking, and
                                       and execution and to meet the                  expanded loss mitigation to help reduce
Management & Performance Challenges


                                       Department’s Government Performance            mortgage foreclosures, HUD needs to
                                       and Results Act requirements.                  further strengthen lender accountability
                                                                                      through policy revisions and take strong
                                            In June 2003, HUD awarded a               enforcement actions against program abus-
                                       contract to conduct a workforce analysis       ers that victimize first-time and
                                       for the Department. The purposes of the        minority homebuyers.
                                       workforce analysis studies was to establish
                                       future workforce needs, compare them               In support of HUD and the PMA,
                                       with current capabilities, determine skill     OIG’s Strategic Plan for FY 2005 gives
                                       gaps, and develop human capital                priority to detecting and preventing fraud
                                       strategies and actions to close the gaps. In   in FHA mortgage lending through targeted
                                       September 2004, the contractor completed       audits and investigations. Our audits
                                       the analysis of HUD’s workforce and            target lenders with high default rates. Our
                                       provided HUD a consolidated report with        detailed testing focuses on mortgage loans
                                       5-year work force projections for planning     that have defaulted and resulted in FHA
                                       purposes. The contractor’s analysis and        insurance losses. Results from these audits
                                       report focused on the Department’s core        have noted significant lender underwriting
                                       business functions, beginning with the         deficiencies, prohibited late endorsed
                                       Office of Public and Indian Housing (PIH),     loans, inadequate quality control, and
                                       and then the Office of Community               other operational irregularities. Our
                                       Planning and Development (CPD), the            recommendations have sought monetary
                                       Office of Housing, and the Office of Fair      recoveries through loan indemnifications
                                       Housing and Equal Opportunity (FHEO).          exceeding $38 million, loss reimbursements
                                                                                      of $2.4 million, and appropriate civil
                                            HUD is currently in the process of        remedies. During the current semi annual
                                       integrating REAP and workforce analysis        reporting period, we completed 19
                                       so that they complement one another and        external audits of FHA-approved mortgage
                                       provide strategic workforce planning           lenders as well as one internal audit of
                                       direction with the objective of comparing      single-family program activities. We also
                                       priority needs and making workforce            started 31 additional audits of FHA
                                       management decisions that best serve the       lenders during the period. Additionally, our
                                       Department’s mission.                          investigative workload in single-family
                                                                                      fraud prevention continues to grow
                                          FHA Single-Family Origination. HUD          dramatically. During the current
                                       manages about $400 billion in single-          semiannual period, OIG opened 133
                                       family insured mortgages. Effective            investigation cases and closed 208 cases in
                                       management of this high-risk portfolio         the single-family housing program area,



                               HUD’s Management and Performance Challnges                                                        6
resulting in 214 indictments, 213 arrests,          Material weaknesses in the
and 108 convictions/pleas/pretrial             monitoring of housing agencies and
diversions. The audit of FHA’s FY 2004         assisted multifamily projects continue to
financial statements also reported a need      present obstacles in achieving the intended
to place more emphasis on monitoring           statutory purposes. These weaknesses have
lender underwriting and continuing to          been reported for a number of years in our
improve single-family early warning and        annual audits of HUD’s financial
loss prevention. OIG has tailored its          statements.
audit and investigation techniques to




                                                                                             Management & Performance Challenges
complement this need, support HUD                   A material weakness reported in FY
management improvements, and provide           2004 concerns a long-standing concern
an added deterrence to mortgage fraud.         about the calculation of housing assistance
We developed a comprehensive training          to families. A 2000 HUD study concluded
course on auditing single-family lenders       that 60 percent of all rent and subsidy
and conducting single-family fraud             calculations performed by intermediaries
investigations. To date, 127 auditors have     contained overpayment or underpayment
completed the single-family lender             errors totaling more than $3.2 billion. In
training course.                               2003, an update to this study estimated a
                                               gross error payment of $1.6 billion.
     Public and Assisted Housing Program       Although still a large amount, this
Administration. HUD provides housing           represents a 50-percent reduction from the
assistance funds under various grant and       error estimate completed in 2000. The
subsidy programs to public housing             reduction is attributed to enhanced
agencies and multifamily project owners.       program guidance, training, oversight, and
These intermediaries, in turn, provide         enforcement, as well as improved income
housing assistance to benefit primarily low-   verification efforts, voluntary compliance
income households. PIH and the Office of       by tenants due to promotion of the issue,
Housing monitor these intermediaries’          an improved computer matching process,
administration of the assisted housing         and an improved methodology for
programs.                                      reviewing income discrepancies. HUD is
                                               also validating tenant-reported income
     Accurate and timely information           against other Federal sources and
about households participating in HUD          considering program simplification options.
housing programs is necessary to allow         In addition to these efforts, HUD needs
HUD to monitor the effectiveness of the        to enforce the requirement that
program, assess agency compliance with         intermediaries report data elements in the
regulations, and analyze the impacts of        management information system.
proposed program changes. The level of         Sanctions need to be applied if
reporting by agencies is a criterion in both   intermediaries do not comply with this
the Public Housing Assessment System and       requirement.
the Section 8 Management Assistance
Program (SEMAP) assessment systems for              Paralleling HUD efforts, our
housing agencies. HUD’s goal is to obtain      investigative and audit focus is
100 percent reporting of tenant data into      concentrating on fraudulent practices and
the system.                                    the lack of compliance with the Section 8




HUD’s Management and Performance Challnges                                                     7
                                       program statute and requirements. To           agencies are correctly calculating subsidy
                                       comply with the request from Congress,         amounts, correctly determining family
                                       OIG plans to conduct 20 external audits of     income, complying with housing quality
                                       the Section 8 Housing Choice Voucher           standards, fully using authorized vouchers,
                                       program during FY 2005 and has hired an        and implementing controls to prevent
                                       additional appraiser to assist in evaluating   duplicative and fraudulent housing
                                       housing quality. In total, these external      assistance payments.
                                       audits will address whether the housing
Management & Performance Challenges




                               HUD’s Management and Performance Challnges                                                       8
    Chapter 2




HUD’s Single-Family
 Housing Programs
                                              T       he Federal Housing
                                                   Administration’s (FHA)
                                      single-family programs provide mortgage
                                                                                              Mortgagees and Loan
                                                                                              Correspondents
                                      insurance to mortgage lenders that, in turn,
                                      provide financing to enable individuals                      The U.S. Department of Housing and
                                      and families to purchase new or existing                Urban Development (HUD)-OIG audited
                                      homes or to rehabilitate existing homes.                RBC Mortgage Company, also known as
                                                                                              Prism Mortgage, Houston, TX, a mortgagee
                                                                                              approved to originate, underwrite, and
                                     Audits                                                   submit insurance endorsement requests
                                                                                              through HUD’s single-family direct
                                          During this reporting period, the                   endorsement process. We selected RBC for
                                      Office of Inspector General (OIG) issued 20             audit because of its high late endorsement
                                      reports, 1 internal audit and 19 external               rate. Our audit objective was to
Single-Family Housing Programs



                                      audits, in the single-family housing                    determine whether RBC complied with
                                      program area. These reports disclosed                   HUD’s regulations, procedures, and
                                      more than $2.8 million in questioned                    instructions in the submission of insurance
                                      costs and about $37.9 million in                        endorsement requests.
                                      recommendations that funds be put to
                                      better use. We reviewed 18 FHA single-                        RBC and its contractor submitted 170
                                      family mortgage lenders.                                late requests for insurance endorsement out
                                                                                              of 5,123 loans tested. The loans were either
                                              Chart 2.1: Single Family Housing                delinquent or otherwise did not meet
                                                      Reports Issued                          HUD’s timely payment requirements. RBC
                                                                                              and/or its contractor also incorrectly
                                                                  1
                                                                                              certified that mortgage and escrow
                                                                                              accounts were current. RBC lacked
                                                                                              adequate procedures and controls to ensure
                                                                                              that it and the contractor’s employees
                                                                                              followed HUD’s requirements regarding
                                                           19
                                                                                              late requests for insurance endorsement.
                                               Internal Reports   External Reports
                                                                                              The improperly submitted loans increased
                                                                                              the risk to the FHA insurance fund.
                                       Chart 2.2: Single Family Housing Dollars
                                                                                                  We recommended that RBC indemnify
                                 40,000,000                                                   HUD for any future losses on 138 loans with
                                 30,000,000                                                   a total value of more than $16.2 million.
                                 20,000,000                                                   We also recommended that RBC reimburse
                                 10,000,000
                                                                                              HUD approximately $26,000 for the actual
                                                      0                                       loss on a case in which the associated
                                         0
                                               Internal Reports   External Reports
                                                                                              property was already sold and reimburse
                                              Questioned Costs    Funds Put to Better Use
                                                                                              HUD for any future losses from a claim of
                                                                                              more than $24,000 paid on one insured

                                      The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                      this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                      reports with management decisions reached during this semiannual period. Because there is a time lag
                                      between report issuance and management decisions, the two totals will not agree.


                          HUD’s Single-Family Housing Programs                                                                                  10
loan with a total mortgage value of            deficiencies resulted from American’s
approximately $229,000 once the                failure to follow HUD’s requirements, its
associated property is sold. We                failure to implement an adequate quality
recommended that RBC establish and             control plan, and its lack of supervision
implement an adequate quality control          over its loan officers. These deficiencies
plan. Further, we recommended that HUD         contributed to the high default rate, putting
take appropriate administrative action         at risk 34 loans totaling more than $3.3
against the employees, contractors, and        million in insured loans.
principals of RBC, including remedies
under the Program Fraud Civil Remedies             We recommended that Synergy
Act (PFCRA). (Audit Report: 2005-CH-           Mortgage, Inc., American’s sponsor on the
1007)                                          loans, indemnify/reimburse HUD against
                                               losses on the 34 loans valued at more than
     We audited American Property              $3.3 million and reduce 20 mortgage




                                                                                               Single-Family Housing Programs
Financial (American), a loan correspondent     balances approximately $165,000 for
approved to originate FHA mortgage loans       incentives to buy disguised as gift funds.
through HUD’s single-family direct             Additionally, we recommended that
endorsement process in San Antonio, TX.        American establish controls to ensure that
American originated 83 FHA loans               personnel are knowledgeable of HUD
between February 1, 2002, and January 31,      procedures and supervision is adequate to
2004. As of February 23, 2004, 14 of the 83    maintain an effective operation and that
loans were in default status. The 14 loans     appropriate administrative action is taken.
were all underwritten by Synergy               (Audit Report: 2005-FW-1004)
Mortgage, a loan sponsor for American.
Our audit objectives were to determine              We completed an audit of First United
whether American (1) complied with             Mortgage Company, Inc., a mortgagee
HUD’s regulations, procedures, and             located in Cranford, NJ. The objectives of
instructions in the origination of mortgages   the audit were to determine whether First
and (2) implemented a quality control plan     United (1) originated and underwrote
according to HUD’s requirements.               FHA-insured loans in accordance with
                                               HUD’s requirements and (2) designed and
     American failed to originate loans in     implemented a quality control plan. The
accordance with HUD requirements.              review generally covered the period
American used gift funds to pay delinquent     between February 1, 2002, and January 31,
debts, rolled delinquent debts into            2004, and involved a review of 25 loans
mortgage loans, and submitted loans for        with mortgage amounts totaling more than
unqualified applicants. American used          $3 million.
inflated appraisals to increase the sales
price to accommodate incentives to                  We found 23 of the 25 loans had at
purchase. All 39 loans reviewed involved       least one underwriting deficiency, and First
the same underwriter, and 35 of the 39         United charged borrowers ineligible
involved the same loan officer. American       and/or unsupported fees in 24 cases.
received more than $185,000 from               In addition, we concluded that First
originating the 39 loans. As of February 23,   United had not implemented its quality
2004, 14 of the loans totaling almost $1.4     control plan in accordance with HUD
million were in default status. The            requirements.



HUD’s Single-Family Housing Programs                                                           11
                                       We recommended that HUD request          originate FHA single-family mortgage
                                  First United to (1) indemnify 20 of the 25    loans, because it had a high default rate.
                                  loans valued at more than $2.4 million with   Our objectives were to determine whether
                                  significant underwriting deficiencies, (2)    Peoples complied with HUD’s regulations,
                                  reimburse borrowers for ineligible and        procedures, and instructions in the
                                  unsupported fees totaling more than           origination of FHA loans and whether
                                  $6,000, and (3) provide HUD a corrective      Peoples’ quality control plan met HUD
                                  action plan containing assurances that all    requirements.
                                  guidelines pertaining to underwriting and
                                  quality controls will be followed. (Audit           Peoples’ did not originate all FHA
                                  Report: 2005-NY-1002)                         loans in accordance with HUD’s loan
                                                                                origination requirements. Of the 26 loans
                                       We completed a limited review of         we selected for review, Peoples did not fully
                                  Wachovia Mortgage Corporation                 comply with FHA requirements for 14 of
Single-Family Housing Programs



                                  (Wachovia), a direct endorsement              the loans valued at more than $2.4 million.
                                  mortgagee. The review was performed on        Peoples did not exercise due diligence in
                                  one of the mortgagee’s branch offices in      the review of assets and gifts or resolve
                                  Scottsdale, AZ. We selected this branch       signature, Social Security number (SSN),
                                  office for review based on the results of a   and employment inconsistencies. These
                                  previous OIG audit that identified the use    deficiencies were caused by a lack of
                                  of false credit and employment documents      management oversight and contributed to
                                                                                an increased risk to the FHA insurance
                                  by a loan correspondent of Wachovia. The
                                                                                fund. Further, Peoples’ quality control plan
                                  review objective was to determine whether
                                                                                and the corresponding contract for quality
                                  there were fraud indicators in a sample of
                                                                                control reviews did not contain
                                  27 mortgage loan files underwritten by
                                                                                requirements to identify patterns of early
                                  Wachovia and if so, whether these             defaults or to perform onsite reviews at
                                  indicators were identified and resolved       branch locations. After these matters were
                                  during Wachovia’s underwriting process.       brought to its attention, Peoples corrected
                                                                                its loan origination process and its quality
                                      We found Wachovia failed to identify      assurance plan.
                                  and/or follow up on indicators of false
                                  credit and/or employment documents                We recommended that Peoples take
                                  during the underwriting process for all 27    immediate action to correct operational
                                  loans totaling approximately $2.9 million.    deficiencies and indemnify HUD for 14
                                  As a result, loans were approved based on     FHA loans valued at more than $2.4
                                  false information, causing the FHA            million. (Audit Report: 2005-PH-1006)
                                  insurance fund to assume unnecessary
                                  risks. The report recommends that                  We audited Wells Fargo Bank NA’s
                                  Wachovia indemnify/reimburse HUD for          Fife Branch Office, Fife, WA, because of
                                  any past or future losses on 25 of the 27     the high rate of claims on defaulting
                                  loans valued at more than $2.4 million.       FHA-insured single-family loans approved
                                  (Audit Report: 2005-LA-1803)                  by this branch. Our audit objective was to
                                                                                determine whether Wells Fargo-Fife acted
                                     In Towson, MD, we audited the              in a prudent manner and complied with
                                  Towson branch of Peoples Mortgage             HUD regulations, procedures, and
                                  Corporation, a branch approved to             instructions in its approval of the


                          HUD’s Single-Family Housing Programs                                                            12
FHA-insured single-family mortgages            American did not establish and implement
selected for review and whether the            adequate controls to ensure its employees
mortgagee’s quality control plan met HUD       followed HUD requirements when
requirements.                                  processing and underwriting loans. In
                                               addition, Pan American did not implement
     Wells Fargo-Fife did not always           procedures or controls to ensure all
process and approve the defaulting             FHA-insured loans that default within 6
FHA-insured loans in accordance with           months of closing undergo a loan
HUD regulations and guidance. Of the 20        origination quality control review. We
loans reviewed, Wells Fargo-Fife approved      attribute this deficiency to Pan American’s
13 loans totaling more than $1.7 million,      disregard of HUD requirements and
which did not meet HUD underwriting            instructions. The deficiencies contributed
requirements. The underwriting                 to Pan American’s high default rate and
deficiencies included approving loans with     increased the risk to the FHA insurance




                                                                                               Single-Family Housing Programs
unsupported income, unsupported assets,        fund. HUD has no assurance of the
underreported liabilities, unexplained         accuracy, validity, and completeness of Pan
derogatory credit information, inadequate      American’s loan origination operations.
qualifying ratios, and unclear and/or
inadequate documentation of important               We recommended that HUD require
file discrepancies. We determined that         Pan American to indemnify almost $1.4
Wells Fargo-Fife’s quality control plan        million against future losses on nine loans
complied with HUD requirements.                and pay down the mortgages of the several
                                               overinsured loans by almost $210,000. We
    We recommended that HUD take               further recommended that HUD take
appropriate administrative action up to        appropriate monitoring measures to ensure
and including recovery of losses on more       Pan American establishes and implements
than $667,000 in paid claims and               appropriate controls so that its employees
indemnification against future losses on       follow HUD requirements when processing
loans totaling more than $882,000. (Audit      and underwriting loans. Finally, HUD
Report: 2005-SE-1004)                          should require Pan American to take the
                                               needed action to ensure the required quality
     We audited Pan American Financial         control plan reviews are conducted. (Audit
Corporation, a direct endorsement lender,      Report: 2005-AT-1005)
in Guaynabo, PR. We selected Pan
American because of its high default rate.          In Miami, FL, we audited Interstate
Pan American did not follow HUD                Financial Mortgage Group Corporation.
requirements when originating and              Interstate is a direct endorsement lender
approving 17 FHA-insured loans totaling        approved by HUD to originate and approve
more than $2.7 million. In 10 loans, Pan       FHA-insured mortgages. We selected
American did not exercise the care             Interstate for review because of risk factors
expected of a prudent lender in the analysis   associated with defaulted loans. Our audit
of the borrower’s assets, earnings, and        objectives were to determine whether
debts. Pan American also approved seven        Interstate (1) complied with HUD
loans that did not comply with HUD’s           regulations, procedures, and instructions
self-sufficiency requirements and were         in the origination and underwriting of
overinsured by almost $210,000. The            FHA-insured single-family mortgages and
deficiencies occurred because Pan              (2) implemented its quality control plan as


HUD’s Single-Family Housing Programs                                                           13
                                  required. We reviewed a sample of 18 loans     to stop using independent loan officers to
                                  to accomplish our objectives.                  originate FHA loans and maintain
                                                                                 documentation to justify interest rates, loan
                                       Interstate did not follow HUD             discount points, or other fees charged.
                                  requirements when originating and              Further, we recommended that HUD take
                                  approving 15 loans totaling more than          appropriate measures to ensure Interstate
                                  $1.5 million. All 15 loans contained           conducts required quality control reviews,
                                  underwriting deficiencies that, taken as       corrective action is taken and documented
                                  a whole, should have led a prudent             for all reported deficiencies, and the written
                                  person to not approve the loans.               quality control plan complies with HUD
                                  Interstate approved the loans based on         requirements. Finally, we recommended
                                  inaccurate employment income and gift          that HUD take administrative action as
                                  documentation and other deficiencies. This     appropriate, up to and including civil
                                  occurred because Interstate did not exercise   monetary penalties. (Audit Report: 2005-
Single-Family Housing Programs



                                  due care in originating and underwriting       AT-1007)
                                  loans, primarily by not clarifying
                                  inconsistencies in the loan files or                OIG audited Trust America Mortgage,
                                  adequately following up to verify borrower     Inc., in Cape Coral, FL. Trust America is
                                  income and employment histories.               a direct endorsement lender approved
                                  Interstate also improperly allowed             by HUD to originate and approve
                                  independent loan officers to originate         FHA-insured single-family mortgages.
                                  loans and maintained no supporting             We selected Trust America for review
                                  documentation to ensure HUD that               because of risk factors associated with
                                  interest rates, loan discount points, and      defaulted loans.
                                  other fees were appropriately charged.
                                  Further, Interstate did not fully implement        The audit objectives were to determine
                                  its quality control plan, and the quality      whether Trust America (1) complied with
                                  control plan was incomplete. We attribute      HUD regulations, procedures, and
                                  all these deficiencies to Interstate’s         instructions in the origination and
                                  disregard of HUD requirements and              underwriting of FHA-insured single-family
                                  instructions. As a result, HUD has no          mortgages and (2) implemented its quality
                                  assurance of the accuracy, validity, and       control plan as required. We reviewed a
                                  completeness of Interstate’s loan              sample of 17 FHA-insured loans.
                                  origination and underwriting operations,
                                  and there is increased risk to the FHA              Trust America did not follow HUD
                                  insurance fund.                                requirements when originating and
                                                                                 approving 16 loans totaling more than $1.9
                                       We recommended that Interstate (1)        million. All 16 loans had underwriting
                                  indemnify HUD against future losses on         deficiencies that, taken as a whole, should
                                  10 loans totaling more than $1 million, (2)    have led a prudent lender to not approve
                                  reimburse HUD for a loss already incurred      the loan. Trust America approved the loans
                                  of almost $37,000 on one property, and (3)     based on inadequate asset and debt
                                  reimburse HUD for a loss, if applicable, on    verification and other deficiencies. The
                                  another property for which HUD paid a          deficiencies occurred because Trust
                                  claim of more than $110,000. We also           America failed to exercise due care in
                                  recommended that HUD require Interstate        originating and underwriting loans,



                          HUD’s Single-Family Housing Programs                                                              14
primarily by not clarifying inconsistencies    determine whether it properly developed
in the loan files. These deficiencies          and implemented a quality control plan.
increased the risk to the FHA insurance
fund.                                               Leader Mortgage did not follow HUD
                                               requirements when processing and
     Trust America did not fully implement     submitting loans for FHA insurance
its quality control plan. It did not           endorsement. It improperly originated
conduct the required number of quality         seven of the 23 loans reviewed and charged
control reviews, including reviews of          unallowable costs. These seven loans
early-defaulted loans and rejected loan        contained deficiencies that affected the
applications. Also, Trust America’s quality    insurability of the loans, including
control plan was incomplete. We attribute      unsupported assets, underreported
these deficiencies to Trust America’s          liabilities, unsupported income, and
disregard of HUD requirements and              derogatory credit. As a result, the insurance




                                                                                               Single-Family Housing Programs
instructions and reliance on an                fund was placed at risk for more than
independent contractor to fulfill its          $911,000. Further, Leader Mortgage’s
responsibilities. As a result, HUD has         quality control plan lacked many required
limited assurance of the accuracy, validity,   elements, and Leader did not ensure that
and completeness of Trust America’s loan       it obtained quality control reviews that met
origination and underwriting operations.       HUD requirements. Leader Mortgage also
                                               did not take prompt corrective action
     We recommended that Trust America         when quality control reports identified
(1) indemnify HUD against future losses        material deficiencies. As a result, HUD
on eight loans totaling more than $977,000,    lacks assurance that Leader Mortgage is
(2) reimburse HUD for a loss already           able to ensure the accuracy, validity, and
incurred of approximately $17,000 on one       completeness of its loan origination
property, and (3) reimburse HUD for a          operations.
loss, if applicable, on another property for
which HUD paid a claim of $113,000. We              We recommended that appropriate
further recommended that HUD take              administrative action be taken against
appropriate measures to ensure Trust           Leader Mortgage based on the information
America conducts required quality control      contained in our report. This action should,
reviews and the written quality control        at a minimum, include indemnification for
plan complies with HUD requirements.           the seven actively insured loans valued at
Finally, we recommended that HUD take          more than $911,000, reimbursement of
administrative action as appropriate, up to    appropriate parties for unallowable costs
and including civil monetary penalties.        charged to borrowers totaling more than
(Audit Report: 2005-AT-1008)                   $3,000, and verification that Leader
                                               implements controls to ensure it follows
    OIG reviewed Leader Mortgage               HUD’s quality control requirements. (Audit
Company, a direct endorsement lender           Report: 2005-KC-1003)
located in Lenexa, KS, because its default
rate has been significantly higher than            In Philadelphia, PA, we audited the
HUD’s Kansas City average over the past        Philadelphia branch of Fleet National
3 years. Our audit objectives were to          Bank, a direct endorsement lender
determine whether Leader Mortgage              approved to originate FHA single-family
properly originated FHA loans and to           mortgage loans. We selected Fleet for audit


HUD’s Single-Family Housing Programs                                                           15
                                  because it had a high default rate. Our             OIG audited Washington Mutual
                                  objectives were to determine whether Fleet     Bank, a direct endorsement mortgagee in
                                  complied with HUD regulations,                 Downers Grove, IL. The audit was
                                  procedures, and instructions in the            conducted because we identified a high
                                  origination of FHA loans and whether           number of loans with overinsured FHA
                                  Fleet’s quality control plan met HUD           loan amounts and invalid borrowers’ SSNs.
                                  requirements.                                  The audit objectives were to determine
                                                                                 whether Washington Mutual (1) exercised
                                        Fleet’s Philadelphia branch office did   due diligence in resolving or following up
                                  not originate all FHA loans in accordance      on warnings regarding borrowers’ SSNs
                                  with HUD’s loan origination requirements.      and (2) funded FHA-insured loans without
                                  Of 20 loans we selected for review, the        exceeding HUD’s maximum insurable
                                  branch office violated HUD requirements        limits.
                                  for five loans valued at more than $224,000.
Single-Family Housing Programs



                                  Fleet did not exercise due diligence in the         Washington Mutual Bank did not
                                  review of assets and income, did not verify    identify and follow up on or resolve
                                  rental history, and approved loans with        warnings on borrowers’ SSNs for four of
                                  excessive debt to income ratios. Fleet also    the 22 loans reviewed. We reviewed 22
                                  submitted loans for late endorsement when      of the 94 FHA-insured loans that
                                  the payment histories of the buyer were not    Washington Mutual underwrote from
                                  current. We found that seven loans totaling    October 2000 through September 2003. We
                                  more than $434,000 were from borrowers         also found that Washington Mutual funded
                                  who had delinquent mortgage payments.          79 of the 94 loans above HUD’s maximum
                                  In addition, Fleet’s Philadelphia branch       insurable limits. As a result, HUD’s FHA
                                  office, contrary to HUD requirements, did      insurance fund incurred a loss of more than
                                  not provide an accessible business             $62,000 on four loans, and the FHA
                                  environment for its clients during normal      insurance fund remains at risk by more
                                  business hours and did not employ a            than $393,000 for another 32 loans.
                                  branch manager to supervise operations.
                                  Finally, the quality control plan provided         We recommended that Washington
                                  by Fleet did not meet all the requirements     Mutual reimburse HUD almost $44,000 for
                                  of HUD.                                        the actual loss on one terminated loan in
                                                                                 which the borrower had more than one
                                       We recommended that HUD take              SSN as shown on the borrower’s credit
                                  appropriate administrative action, request     report, indemnify HUD more than
                                  indemnification from Fleet on loans valued     $337,000 against future losses from a
                                  at more than $619,000 that were issued         foreclosed property associated with one
                                  contrary to HUD’s loan origination             loan and two defaulted loans in which the
                                  procedures, and require Fleet to repay more    borrowers had invalid SSNs or an SSN
                                  than $39,000 on one loan that went into        belonging to a deceased person, buy down
                                  default, causing HUD to pay a claim.           more than $56,000 for the excessive FHA
                                  Further, since the Philadelphia branch         insurance amounts for the 31 active loans
                                  office has been closed, we recommended         and one loan with a claim paid, reimburse
                                  that HUD ensure the branch is removed          HUD approximately $19,000 for the losses
                                  from its systems as an approved direct         incurred on four loans with overinsured
                                  endorsement lender. (Audit Report: 2005-       FHA loan amounts that were already sold
                                  PH-1005)


                          HUD’s Single-Family Housing Programs                                                           16
by HUD, and implement procedures and           functions for compliance with HUD
controls to follow HUD’s requirements          requirements. (Audit Report: 2005-AT-
and/or prudent lending practices               1003)
regarding warnings about borrowers’ SSNs
and maximum insurable limits.                       As a result of a complaint, we
                                               reviewed Prime Mortgage, a nonsupervised
     We also recommended that HUD seek         loan correspondent in St. Charles, MO, to
civil monetary penalties against               determine whether it provided funds to an
Washington Mutual for the deficiencies         FHA borrower to assist with closing costs.
cited in this report. (Audit Report: 2005-     We found the owner of Prime Mortgage
CH-1002)                                       inappropriately provided funds to two
                                               borrowers just before closing their loans.
     We audited American Mortgage              For a third loan, Prime Mortgage did not
Express Corporation, doing business as         obtain adequate documentation of the




                                                                                             Single-Family Housing Programs
American Residential Mortgage                  transfer of gift funds. As a result, HUD
Corporation, Mt. Laurel, NJ, to determine      insured three loans that would not have
whether it followed acceptable loan            met the minimum requirements to qualify
origination procedures. We found               for an FHA loan, placing HUD at risk for
significant underwriting deficiencies in       loans totaling more than $376,000.
four of seven loans. American Mortgage
Express underwriters did not properly               We recommended that HUD take
evaluate the borrower liabilities, income,     appropriate administrative action against
and credit worthiness. The underwriting        Prime Mortgage for its improper actions
deficiencies occurred because American         and against the sponsors of the three loans
Mortgage Express did not provide               valued at more than $376,000 with
adequate control and supervision over the      origination deficiencies. We also
staff, nor did it have adequate internal       recommended that HUD take appropriate
procedures in place to prevent the deficient   action against Prime Mortgage for
underwriting from occurring. As a result,      providing funds to FHA borrowers while
American Mortgage Express approved             making it appear that the funds came from
loans for borrowers who were not qualified     allowable sources and for providing loans
for FHA-insured mortgages. By approving        to borrowers to use as funds to close.
these loans, American Mortgage Express         Additionally, if HUD allows Prime
increased HUD’s insurance risk, as three       Mortgage to maintain its FHA approval
loans with a total unpaid balance of more      status, we recommended that HUD verify
than $307,000 defaulted and the fourth         that it implements controls that ensure it
loan foreclosed with an insurance claim of     follows HUD’s quality control review
almost $104,000.                               requirements. (Audit Report: 2005-KC-
                                               1001)
    We recommended that HUD require
American Mortgage Express to indemnify             OIG reviewed Flagstar Bank FSB, Troy,
three loans totaling more than $307,000        MI, a lender approved to originate FHA
and reimburse HUD almost $104,000 in           mortgage loans through HUD’s single-family
claims paid for another loan. In addition,     direct endorsement process. We selected
HUD should require American Mortgage           Flagstar for audit because of its high late
Express to monitor all loan underwriting       endorsement rate in fiscal years 2002 and



HUD’s Single-Family Housing Programs                                                         17
                                  2003. Our review objectives were to           through HUD’s single-family direct
                                  determine whether Flagstar complied with      endorsement process. We selected Prestige
                                  HUD’s regulations, procedures, and            for audit because of its high loan default
                                  instructions in the submission of insurance   rate. Our audit objectives were to determine
                                  endorsement requests and payment of           whether Prestige (1) complied with HUD’s
                                  upfront mortgage insurance premiums to        regulations, procedures, and instructions
                                  HUD.                                          in the origination of FHA-insured single-
                                                                                family mortgages and (2) implemented a
                                       Flagstar implemented improved            quality control plan according to HUD’s
                                  procedures and controls in January 2004       requirements.
                                  to fully comply with HUD’s requirements
                                  regarding late requests for endorsement            Prestige did not adequately originate
                                  and upfront mortgage insurance                FHA-insured loans in accordance with
                                  premiums. However, before the controls        HUD’s requirements. Prestige failed to
Single-Family Housing Programs



                                  were strengthened, Flagstar improperly        exercise due diligence to verify or support
                                  submitted two loans for late endorsement.     borrowers’ income, sources of funds, and
                                  These two loans increased the risk to the     credit information. In addition, Prestige did
                                  FHA insurance fund by more than               not always ensure that unbiased appraisals
                                  $251,000. Flagstar’s employees incorrectly    were provided, cash investment
                                  certified that one of the two loans’ escrow   requirements were met, information on
                                  accounts for taxes, hazard insurance, and     inconsistencies contained in loan
                                  mortgage premiums were current when           documents were explained or resolved,
                                  they were not. Flagstar’s staff was not       and interested third parties were not
                                  adequately trained or was not aware of the    handling key documentation. Further,
                                  late endorsement processing requirements,     Prestige charged borrowers for fees that
                                  and procedures and controls were              were unjustified. Additionally, Prestige
                                  insufficient to ensure timely payment of      failed to adequately implement its quality
                                  upfront mortgage insurance premiums.          control process. It did not always review
                                                                                early payment defaults, perform quality
                                       We recommended that Flagstar             control reviews on loans in a timely
                                  indemnify HUD for any future losses on        manner, formally and consistently
                                  the two loans with a total mortgage value     document the actions taken to resolve the
                                  of more than $251,000. Also, we               deficiencies found during its reviews, and
                                  recommended that HUD pursue                   perform reviews of its branch office. The
                                  appropriate remedies under the Program        deficiencies stemmed from Prestige’s
                                  Fraud Civil Remedies Act against Flagstar     unfamiliarity with HUD’s requirements, its
                                  and/or its principals for incorrectly         failure to adequately implement its quality
                                  certifying the escrow accounts for taxes,     control plan, and its senior management’s
                                  hazard insurance, and mortgage                lack of supervision over its employees.
                                  premiums were current for one loan            These deficiencies contributed to an
                                  submitted for FHA insurance endorsement       increased risk to the FHA insurance fund.
                                  when the escrow accounts were not
                                  current. (Audit Report: 2005-CH-1006)              We recommended that Prestige’s
                                                                                sponsors indemnify HUD for any future
                                      We audited Prestige Mortgage Group,       losses on 25 loans with a total value of more
                                  Inc. (Prestige), a loan correspondent         than $1.8 million. We also recommended
                                  approved to originate FHA mortgage loans      that Prestige repay the overcharges for loan


                          HUD’s Single-Family Housing Programs                                                            18
discount points totaling more than $13,000      quality control plan has contributed to
and establish controls to ensure personnel      higher default and claim rates and,
are knowledgeable of HUD procedures             therefore, unnecessarily high risk to the
and supervision is adequate to maintain an      FHA insurance fund.
effective operation. (Audit Report: 2005-
CH-1001)                                            We recommended that HUD take
                                                appropriate administrative actions against
     We audited First Source Financial          First Source based on the information
USA’s (First Source) Midvale, UT, branch        contained in this report. (Audit Report:
office. We determined an audit was              2005-DE-1001)
warranted based on deficiencies identified
in the areas of loan origination and quality    Single Family Property
control during a prior audit.
                                                Disposition Program




                                                                                               Single-Family Housing Programs
     Our objectives were to determine
whether the mortgagee complied with                 In response to a congressional and
HUD regulations, procedures, and                departmental request, we audited the
instructions in the origination of insured      Town of Clifton, VA’s participation in
loans and whether the mortgagee’s quality       HUD’s Single Family Property Disposition
control plan met HUD’s requirements.            Program. Our objective was to determine
                                                whether the Town complied with HUD’s
     First Source’s Midvale branch office       rules and regulations in administering the
did not comply with HUD regulations,            sales program. Specifically, we wanted to
procedures, and instructions in the             determine      whether       the    Town
origination of 24 of the 25 loans reviewed.     appropriately participated under the sales
We found employment information that            program using the competitive sales
was invalid or questionable and/or passed       method and properly resold rehabilitated
through the hands of an interested third        properties.
party, the selling agent for the transaction.
In addition, contrary to HUD’s                      The Town of Clifton did not fully
requirements, loans were originated by          comply with HUD’s rules and regulations
nonemployees or independent contractors.        in administering its sales program. The
HUD suffered a loss of more than $227,000       Town could not adequately support
on the sale of four of the properties and       property rehabilitation costs claimed on the
paid insurance claims of more than              properties it sold under the program. As a
$183,000 on two of the properties. As of        result, some properties were sold at sales
June 30, 2004, the remaining 18 loans have      prices above the amount allowed by HUD.
a total unpaid insured mortgage balance         However, we did find the Town was eligible
of $2.2 million, which represents a             to participate under the program using the
continuing or imminent insurance risk.          competitive sales process and it did meet
First Source has a quality control plan that    the requirements in selling the homes to
complies with HUD requirements.                 income-qualified buyers.
However, the quality control plan was not
implemented, and related quality control            Onsite physical home inspections of 10
reviews were not performed at the Midvale       properties with the highest dollar repair
office. The lack of implementation of a         costs out of 89 properties purchased and



HUD’s Single-Family Housing Programs                                                           19
                                  sold by the Town of Clifton confirmed that          We determined HUD’s interests are
                                  some of the work itemized on the home          not adequately protected. HUD intended
                                  inspection repair invoices had not been        that the sales program be used to benefit
                                  performed. In total, we identified more        low- to moderate-income individuals. Our
                                  than $9,000 in charges for repairs that        audit of the Town of Clifton found the local
                                  were not made to seven homes and thus          government participated in the sales
                                  were ineligible. Since we found the process    program primarily as a means to raise
                                  used to identify and pay for repair costs      revenue for the Town. The Town used its
                                  was neither accurate nor reliable, we also     government status to purchase homes and
                                  question more than $205,000 in repair costs    then contracted a for-profit entity to
                                  for the 10 homes we inspected.                 manage its program. The Town did not
                                                                                 violate HUD requirements by participating
                                       We recommended that HUD require           in this manner; however, HUD never
                                  the Town of Clifton to schedule an             intended the sales program to be used for
Single-Family Housing Programs



                                  independent inspection of the 79               this purpose.
                                  remaining homes it has processed under
                                  the discount sales program to verify that          We recommended that HUD
                                  all work was satisfactorily completed. If      strengthen the established criteria
                                  work has not been done, the Town should        governing local government entities’
                                  pay down the homeowners’ mortgage by           participation under the sales program by
                                  the appropriate amount. Additionally,          implementing criteria similar to those
                                  HUD should review the deficiencies noted       under which its nonprofits operate.
                                  in this report and determine whether the       (Audit Report: 2005-PH-0001)
                                  Town should be reinstated to participate
                                  in the program. Before reinstatement,
                                  HUD should require the Town to set up
                                  controls and procedures that fully
                                  document and verify the claimed net
                                  development costs. (Audit Report: 2005-
                                  PH-1003)

                                       We issued a second report, “Criteria
                                  Governing Local Government Participation
                                  in HUD’s Single Family Property
                                  Disposition Program,” to address internal
                                  control concerns with HUD’s Single
                                  Family Property Disposition Program. Our
                                  report (2005-PH-1003) of the Town of
                                  Clifton, a participant in the sales program,
                                  disclosed that requirements for
                                  government entities may not protect HUD.
                                  The objective of this review was to
                                  determine whether HUD’s criteria
                                  governing a local government entity’s
                                  participation in the sales program
                                  adequately protect HUD’s interests.



                          HUD’s Single-Family Housing Programs                                                            20
  Investigations                                 Loan Origination/Property-
                                                 Flipping Schemes
      During this reporting period, OIG
  opened 133 investigation cases and closed          In New York, NY, in the U.S. Eastern
  208 cases in the single-family housing         District of New York, defendant Michael
  program area. Judicial action taken on         Fox, a former loan officer of Mortgage
  these cases during the period included         Lending of America, a private mortgage
  $408,807,294 in investigative recoveries,      lending institution in Long Island, NY, was
  $16,562,279 in funds put to better use,        sentenced to 1 year and 1 day of
  214 indictments/informations, 108              incarceration, 60 months of supervised
  convictions/pleas/pretrial diversions, 162     release, a $100 assessment, and restitution
  administrative actions, 23 civil actions,      in the amount of $45,794,260. From
  1 personnel action, and 213 arrests.           September 1997 to November 1999,




                                                                                               Single-Family Housing Programs
                                                 Michael Fox, while working at Mortgage
       Some of the investigations discussed      Lending of America, fraudulently
  in this report were conducted jointly with     originated more than 250 FHA-insured
  Federal, State, and local law enforcement      loans under the HUD 203(K) program to
  agencies. The results of our more              several not-for-profits, including but not
  significant investigations are described       limited to Family Preservation Center,
  below.                                         Helpline Soul Rescue Ministries, St.
                                                 Stephens Baptist Church, St. Stephens
      Chart 2.3: Single Family Recoveries        Community Development Corp., St.
                       Other                     Stephens Bible College, Word of Life
                                      Loan
False Statements        1%                       Ministries, Word of Life Community
                                   Origination
       46%                                       Development Corp., Advance Local
                                      25%
                                                 Development Corp., and Federation of
                                                 Puerto Rican Organizations. These HUD
                                                 203(k) loans were originated from
                                  Flipping
                                                 Mortgage Lending of America, a defunct
                                    28%          mortgage company that was previously
Total Recoveries: $408,807,294                   based in Long Island, NY.

         Chart 2.4: Single Family Funds              Also in this Federal court case,
              Put to Better Use                  defendant Howard Finger, owner of real
                                                 estate companies called Hazmats Realty
                       Other          Loan
 Property                                        Corp., No Exit Place Realty, and One Exit
                       13%         Origination
Disposition                                      Place Realty, was sentenced to 5 years
                                      43%
   28%                                           probation, $19,730,315 in restitution, and
                                                 a $100 special assessment. All three
                                                 companies flipped properties to Advance
                                                 Local Development Corp., a not-for-profit
                                                 based in New York City. These HUD 203(k)
                            Flipping
Total: $16,562,279            16%                loans were originated from Mortgage
                                                 Lending of America.




  HUD’s Single-Family Housing Programs                                                         21
                                       In Los Angeles, CA, in Federal Court,     mortgage loans and resulted in losses to
                                  Central District of California, defendant      HUD of more than $5 million.
                                  Christina Antolin, a loan processor for
                                  Edgardo and Danilo Guinto, was                      In Kansas City, MO, defendants Brent
                                  sentenced to imprisonment for 4 months         Barber, Robert Beckley, and Roderick Criss
                                  and placed on probation for 3 years for        were indicted by a Federal grand jury in
                                  violation of two counts of making false        the Western District of Missouri on 67
                                  statements and aiding and abetting.            counts, including conspiracy, interstate
                                  Antolin’s conviction stemmed from her          transportation of stolen property, money
                                  participation in a single-family “flipping”    laundering, and asset forfeiture. The
                                  and loan origination scheme by assisting       indictment alleges that the defendants
                                  in the preparation of mortgage applications    participated in a property-flipping scheme
                                  in the names of fictitious purchasers. The     that caused 84 victim real estate investors
                                  loan applications contained false              to purchase 223 properties totaling $15.6
Single-Family Housing Programs



                                  employment documents, verifications that       million. The indictment seeks the forfeiture
                                  the downpayment was from either the            of $4 million from Barber. The defendants
                                  buyer’s personal funds or a gift, and          purchased inexpensive single-family
                                  inflated real estate appraisals. The loans     properties in inner city Kansas City,
                                  were funded using FHA-insured mortgage         obtained fraudulent property appraisals
                                  loans and resulted in losses to HUD in the     inflated by tens of thousands of dollars, and
                                  amount of $5,691,556. The sentence was         sold them to victim investors. Investors
                                  handed down after Antolin was arrested         believed they were buying the properties
                                  while trying to reenter the country after      at true market value, that they were buying
                                  fleeing to avoid prosecution.                  the properties for no money down, and that
                                                                                 renters, including those receiving Section
                                       In the same case, defendant Elizabeth     8 rental assistance, occupied the properties.
                                  Candella Guinto, a loan processor for          In fact, the properties were often unrented,
                                  Edgardo and Danilo Guinto, was                 uninhabitable, and purchased based on
                                  sentenced in Federal Court, Central            downpayments provided by the
                                  District of California, to 5 months of home    defendants without the buyers’ knowledge.
                                  detention, placed on probation for 3 years,    Additionally, the defendants falsified
                                  and ordered to pay restitution of $5,863,715   numerous loan application documents,
                                  (jointly and severally with Dan and Ed         enabling investors to unknowingly
                                  Guinto) for violation of two counts of         purchase properties for which they would
                                  making false statements and aiding and         otherwise not qualify. The scheme resulted
                                  abetting. Guinto’s conviction stemmed          in significant property foreclosures and
                                  from her participation in a single-family      financial losses to investors and lending
                                  “flipping” and loan origination scheme by      institutions.
                                  assisting in the preparation of mortgage
                                  applications in the names of fictitious             Also, defendant Peggy J. Ries, formerly
                                  purchasers. The loan applications              doing business as Appraisals by Peggy,
                                  contained false employment documents,          Raytown, MO, pled guilty in Federal
                                  verifications that the downpayment was         Court, Western District of Missouri, to
                                  from either the buyer’s personal funds or      felony charges that she conspired with
                                  a gift, and inflated real estate appraisals.   others to commit interstate transportation
                                  The loans were funded using FHA-insured        of stolen property related to her role in a



                          HUD’s Single-Family Housing Programs                                                             22
property-flipping scheme. Ries and others      million scheme that used crack cocaine
caused victim real estate investors to         profits to buy abandoned and dilapidated
purchase 75 properties totaling $4.3           residential properties in Camden. Jenkins
million. Ries’ coconspirators purchased        arranged cosmetic repairs on the properties
inexpensive single-family properties in        by paying his contractor in crack cocaine.
inner city Kansas City for which Ries          Jenkins then “flipped” the properties at an
created fraudulent property appraisals         inflated price by securing fraudulent
inflated by tens of thousands of dollars.      HUD-insured loans for unsophisticated
                                               and unqualified borrowers. Jenkins, along
     A Federal grand jury in Las Vegas,        with Sabena Ingalls, a licensed real estate
NV, indicted defendant Mark Young,             agent, targeted naïve and illiterate
former branch manager/owner for                individuals to purchase properties. Jenkins
Nevada First Residential Mortgage              and his coconspirators created false and
Company, in a superseding indictment to        fraudulent paperwork, such as Internal




                                                                                               Single-Family Housing Programs
64 counts charging him with submitting         Revenue Service (IRS) W-2 forms, pay
false information to HUD, mail fraud,          stubs, IRS tax forms, and credit
conspiracy, obstruction of an official         verifications. Several borrowers testified in
proceeding, witness tampering, and aiding      court that the homes were in poor condition
and abetting. Two forfeiture allegations       and that they were forced to move out
were added to the indictment totaling          within weeks or months due to faulty
$2,912,465. From May 2000 to June 2002,        plumbing, electrical hazards, water
Young directed loan officers and processors    damage, holes in the roof, and wood rot.
in the origination of 233 fraudulent FHA       Jenkins and his coconspirators reaped large
loans valued at more than $25 million. He      profits from the sales of 26 properties,
conspired with other mortgage company          including 18 which involved a
employees and employees of General Realty      HUD-insured loan. Fifteen of the 18
to manufacture and submit false                HUD-insured borrowers defaulted on their
employment and income documentation            loans. As a result of his conviction, Jenkins
for borrowers. Most of the buyers were         conceded to a forfeiture of $1,692,785.
illegal immigrants from Mexico. To date,       Jenkins, along with Thomas Harper, Sebena
58 loans have gone into default with a total   Ingalls, Walter Jenkins, Ronald Rogers, and
value more than $6.2 million and a loss to     Delores Lewis Jones, was indicted on
HUD of more than $1.9 million. Nevada          October 29, 2003, as part of a 37-count
First Residential Mortgage Company is no       indictment and arrested on October 30,
longer in business.                            2003. The above five coconspirators of
                                               Jenkins had previously pled guilty and
     In Camden, NJ, a Federal jury in U.S.     testified against him. Sentencing is
District Court, District of New Jersey,        scheduled.
found defendant Kenneth Jenkins guilty on
1 count of conspiracy to commit mail               In Greenbelt, MD, property
fraud, 10 counts of conspiracy to commit       speculator, John Bryant, and his wife,
wire fraud, 1 count of conspiracy to possess   Monica Silver, a real estate agent with
and/or distribute a controlled substance,      Re/Max Professionals, were sentenced in
1 count of money laundering, and 9 counts      Federal Court, District of Maryland, for
of conspiracy to commit money laundering.      their admitted role in an FHA fraud
Jenkins, a major Camden, NJ, drug              scheme. Bryant was sentenced to 15
wholesaler, organized and operated a $1        months incarceration, to be followed by 36


HUD’s Single-Family Housing Programs                                                           23
                                  months supervised release. Silver was           indictments against several defendants for
                                  sentenced to 6 months home detention, to        their participation in a single-family loan
                                  be followed by 60 months supervised             origination scheme involving 40 properties
                                  release. In addition, they were ordered to      insured through the FHA 203(b) insurance
                                  pay restitution totaling $1.3 million to HUD    program totaling $6,723,937. The actual
                                  and various other lenders. The                  loss to date is $309,732, and restitution will
                                  investigation revealed that the defendants,     be recommended in the amount of
                                  along with six others who were previously       $388,205. The Government has also
                                  convicted and sentenced, participated in        requested that the defendants pay $174,009
                                  a scheme whereby Bryant would purchase          in disgorgement from the profits made
                                  distressed homes and then flip them at          when the properties were sold.
                                  inflated prices to unqualified buyers, who
                                  were made eligible for FHA-insured                   Defendants Linda Carnagie, a loan
                                  mortgages through the use of false income,      officer working for Highland Mortgage,
Single-Family Housing Programs



                                  employment, and credit information. In all,     and Nina Cameron, a loan officer working
                                  Bryant purchased a total of 41 homes for        for Acclaim Mortgage/Affiliated Mortgage,
                                  speculative and investment purposes, and        each had an agreement to kick back a
                                  many of the homes that were flipped with        percentage of each home sale to Roderick
                                  FHA mortgages later went into foreclosure.      Wesson, who for a price from $500 and
                                  Silver used her real estate contacts to         $1,000, would provide false SSNs and false
                                  identify homes that Bryant would                income information in the form of IRS W-2
                                  purchase, and in many cases, she earned         forms and pay stubs. Wesson would also
                                  a fee as the realtor of record on the flipped   verbally verify income if needed. Defendant
                                  transactions.                                   Carnagie was charged with 1 count of
                                                                                  conspiracy, 15 counts of wire fraud, 13
                                       In the District of New Jersey, Trenton,    counts of making false statements, and 12
                                  NJ, defendant Allen J. Meyer, a closing         counts of misuse of an SSN. Defendant
                                  attorney for the defunct Mortgage               Cameron was charged with one count of
                                  Acceptance Corporation, was sentenced to        conspiracy and one count of mail fraud.
                                  1 year of confinement and ordered to pay
                                  $566,338 in restitution. Meyer previously           Defendant James Galloway, a real
                                  pled guilty to one count of conspiracy to       estate agent for Colorado Classic
                                  commit offense or to defraud the United         Properties, and Warren Williams entered
                                  States. As part of a loan origination and       into an agreement requiring Galloway to
                                  land-flipping scheme, Meyer falsified           provide Williams a kickback on loans that
                                  mortgage loan applications and related          closed using false information provided by
                                  documents to obtain FHA-insured loans           Williams. Galloway was charged with one
                                  for unqualified borrowers. Meyers’              count of conspiracy, six counts of wire
                                  sentencing was based on 11 loans with a         fraud, five counts of misuse of an SSN, and
                                  loss to HUD of $566,338. Meyer committed        four counts of making false statements.
                                  these acts during the period of March 27,
                                  1997, through September 2, 1998. Total               Defendant Antonio Del Valle, a loan
                                  losses to HUD from this case are $1,190,579     officer for Yes Capital Funding and VMP
                                  for 25 FHA loans.                               Funding, worked for a time with Warren
                                                                                  Williams, who was also a loan officer. Del
                                      In Denver, CO, a Federal grand jury         Valle and Williams worked together to
                                  for the District of Colorado returned           determine the amount of money the


                          HUD’s Single-Family Housing Programs                                                               24
borrower needed to earn to qualify for the       verification documents from known
FHA-insured loan. Defendant Del Valle            forgers who fabricated or inflated the
and Williams produced the false income           incomes of the buyers. The false forms were
information using false SSNs provided by         used to make it appear as though the
Williams. Defendant Del Valle was charged        buyers qualified for FHA-insured home
with one count of conspiracy, one count          mortgage loans. As a result of Montenegro’s
of wire fraud, and one count of misuse of        involvement in the scheme, HUD approved
an SSN. Defendant Albertico Galindo, a           approximately $1,081,850 in fraudulent
former FHA-insured homebuyer, was                home mortgage loans that resulted in an
arrested as a result of his earlier indictment   approximate loss of $325,000.
by the Federal grand jury for the District
of Colorado for making false statements on            In the U.S. District Court, District of
a loan application, which enabled him to         Colorado, Denver, CO, defendant Warren
obtain an FHA-insured home using false           Williams, an organizer/loan officer




                                                                                                  Single-Family Housing Programs
income information.                              involved in a fraudulent real estate
                                                 scheme that used falsified documents to
     In Spokane, WA, in Federal District         assist homebuyers in qualifying for
Court, Eastern District of Washington,           FHA 203(b)-insured mortgages, was
defendant John Hansen, a real estate             sentenced to 18 months confinement and
appraiser doing business as John Hansen          3 years probation and was ordered to pay
Appraisals, was sentenced as a result of a       $142,337 in restitution and a $100 special
felony conviction for his role in a scheme       assessment fee. Williams previously entered
to defraud lenders and flip numerous             into a plea agreement with the U.S.
homes at inflated prices. Hansen was             Government and pled guilty to conspiracy
sentenced to 18 months of incarceration,         for his involvement in the loan origination
to be followed by 36 months of supervised        scheme. Williams charged loan officers and
release and restitution of $287,797. Four        real estate agents a fee that ranged from
other defendants in the case were                $500 to $1,000 per transaction to provide
previously sentenced. Hansen provided            homebuyers with false SSNs as well as false
inflated appraisals of properties for his part   IRS W2 forms and pay stubs. Williams was
of an elaborate scheme to defraud                paid this fee/kickback once the loans were
vulnerable borrowers and their lenders.          closed. The closed loans totaled $3,817,760,
                                                 and the actual loss to date is $188,832.
     In Los Angeles, CA, in Federal              Restitution of $250,900 from the sales of
District Court, Central District of              the properties is being sought.
California, defendant Virginia Montenegro
was sentenced to 6 months of incarceration,           In Los Angeles, CA, in Federal District
to be followed by 36 months supervised           Court, Central District of California,
release, and ordered to pay restitution of       defendant Sergio Fernandez, real estate
$229,376 and a fine of $100 for wire fraud.      agent, was sentenced to 12 months and 1 day
The investigation found that Montenegro          of incarceration, to be followed by 36 months
was a coconspirator in a loan origination        supervised release, and ordered to pay
scheme in which she recruited unqualified        restitution of $250,097 and a fine of $100 for
buyers to purchase homes with FHA-               mail fraud. Fernandez was a coconspirator
insured loans, thus defrauding the HUD           in a fraudulent loan origination scheme in
single-family program. Montenegro                which he obtained false employment and
purchased false employment and income            income verification forms that fabricated


HUD’s Single-Family Housing Programs                                                              25
                                  or inflated the income of straw buyers. The    Sammartano were associated with
                                  false forms were used to make it appear as     approximately 18 fraudulent FHA
                                  though the straw buyers qualified for FHA-     mortgages and 13 U.S. Department of
                                  insured home mortgage loans. As a result       Agriculture loans with a value of
                                  of Fernandez’ involvement in the scheme,       $2,473,744.
                                  HUD approved approximately $981,853 in
                                  fraudulent home mortgage loans, which               In Jacksonville, FL, in U.S. District
                                  resulted in an approximate loss of             Court, Middle District of Florida,
                                  $300,348.                                      defendants Patrick Singletary, Robert
                                                                                 Singletary, Peter Russo, and Clifford Shaw
                                       In Trenton, NJ, in the U.S. District      were indicted on 22 charges involving
                                  Court, District of New Jersey, defendant       conspiracy, making false statements to
                                  Frank Pepe, Jr., a HUD-certified appraiser     HUD, wire/bank fraud, and money
                                  and owner of The Home Consultants and          laundering. Also named in the indictment
Single-Family Housing Programs



                                  SSP Investments, pled guilty to an             were the business entities CAL
                                  information charging him with three            Investments of North Florida, Eagle
                                  counts of conspiracy to commit false           Investments of North Florida, Sunshine
                                  statements. Pepe purchased various             Management of North Florida, Sunshine
                                  properties under the names of his              Mortgage Services of North Florida,
                                  companies. He did not disclose his             Universal Title Services of North Florida,
                                  ownership in these companies, and the          Dack Properties of Jacksonville, Tropical
                                  properties were flipped to mortgagors. Pepe    Mortgage of North Florida, Extreme
                                  also appraised these properties. Pepe          Investments of North Florida, Global
                                  conspired with codefendant, Kim                Investments of North Florida, and Shaw
                                  Sammartano, branch manager/loan                Properties of Jacksonville. The scheme
                                  officer, American Home loans, to create        involved investor property flipping of HUD
                                  and submit fraudulent documentation,           real estate owned (REO) properties, FHA
                                  which assisted borrowers in obtaining          loan origination fraud, and bank fraud.
                                  FHA mortgages.                                 FHA insured approximately $100 million
                                                                                 in loans generated by the subjects and their
                                      Defendant Kim Sammartano,                  businesses. HUD’s current loss on defaulted
                                  Manahawkin, NJ, was sentenced in U.S.          loans is approximately $9 million. Patrick
                                  District Court, District of New Jersey, to 5   Singletary is a former professional football
                                  years probation, 6 months home                 player for the Philadelphia Eagles.
                                  confinement, restitution of $109,000, and
                                  a $100 special assessment fee. Sammartano           In Newark, NJ, defendant Brian Lyles,
                                  pled guilty to conspiracy to commit false      a real estate investor, surrendered to the
                                  statements. Sammartano created and             U.S. Marshal’s Service and appeared in
                                  submitted fraudulent documentation,            U.S. District Court, District of New Jersey.
                                  which assisted borrowers in obtaining          Lyles pled guilty to one count of conspiracy
                                  FHA mortgages. Sammartano and Pepe             to commit mail fraud and making false
                                  created and submitted fraudulent IRS W-        statements. A sentencing date of May 5,
                                  2 forms, pay stubs, false verifications of     2005, was set, and Lyles was released on a
                                  employment, false verifications of             $100,000 personal recognizance bond. The
                                  rent, false gift letters, and other            investigation, which concerns mortgage
                                  qualifying documents in the borrower’s         fraud, began with Lyles’ purchase of
                                  FHA-mortgage application. Pepe and             residential homes, which he then flipped


                          HUD’s Single-Family Housing Programs                                                            26
at falsely inflated prices. Unqualified        transactions. The investigation revealed
buyers were recruited to purchase these        that defendant Dronet, individually and
homes. Fraudulent mortgage applications        through various corporate entities under
were completed, along with fraudulent          his control, would purchase distressed
bank statements, false appraisals, false       properties in Anne Arundel County, MD,
employment documents, false employment         at bargain rates. He would then flip the
verifications, and false gift letters. This    properties at inflated prices to innocent,
activity resulted in fraudulent loans valued   first-time homebuyers, whom he qualified
at $3,977,224, which to date, have resulted    for FHA mortgages through the use of false
in a loss to HUD in the amount of $881,292.    employment documents, false gift letters
                                               and gift checks, and false credit
     In Los Angeles, CA, in Federal Court,     information. Defendant Aconti prepared
Central District of California, defendant      and submitted the loan packages to Capital
Sandra Ruiz, a loan officer, was convicted,    Mortgage knowing that they contained the




                                                                                             Single-Family Housing Programs
following a jury trial, of one count of        false information. Most if not all of the
conspiracy and two counts of making            mortgagors eventually defaulted on their
false statements to HUD. This investigation    payments. Approximately 40 properties
began after OIG received a referral from       are involved with an estimated loss of at
North American Mortgage Corporation            least $650,000 to the FHA insurance fund.
(NAMC) of Montebello, CA. The
defendant was a loan officer at NAMC               In the Eastern District Court of
from 1995-1999. An NAMC internal               Missouri, St. Louis, MO, defendant Robert
investigation revealed discrepancies in        Wright pled guilty to one count of bank
some of the defendant’s FHA-insured            fraud. Wright and his sister, Kim Crowder,
home loan applications, including the          who owned KRW Capital Corporation, a
presence of false income, employment, and      mortgage brokerage company, flipped
credit-related information. Following an       properties to unsuspecting and unqualified
OIG investigation and a week-long trial in     buyers. Wright and Crowder were
which borrowers and cooperating                responsible for more than $2.2 million in
defendants/coconspirators testified            fraudulent loans, resulting in more than
against her, Ruiz was convicted of             $475,000 in losses. Crowder was previously
forwarding loans for unqualified               indicted for bank fraud, wire fraud, tax
borrowers to HUD for FHA insurance. She        evasion, and money laundering.
fraudulently originated more than 20 FHA-
insured loans, causing more than $800,000           In the Northern District of Illinois,
in losses to HUD. Three other real estate      Rockford, IL, defendant Jae Horn-Gerber,
professionals have already pled guilty as a    also known as Jae Rank, pled guilty to one
result of this investigation, and additional   count of making false statements to HUD,
suspects are being pursued.                    a misdemeanor. As part of her plea
                                               agreement, Rank accepted responsibility
    In Federal Court in Baltimore, MD,         for losses to HUD totaling $337,195.
defendants Michael K. Dronet, a
speculator, and Bart Aconti, a loan officer         Horn-Gerber was a licensed real estate
for Capital Mortgage, were indicted for        agent and employed by codefendant
participating in a scheme to furnish false     Gordon Nelson as the Vice President and
statements to Capital Mortgage on              Director of Marketing for his companies.
numerous FHA-insured mortgage                  It was Horn-Gerber’s primary duty to show


HUD’s Single-Family Housing Programs                                                         27
                                  homes for sale on behalf of Nelson’s           conventional loans and $165,000 in
                                  companies to prospective homebuyers and        FHA-insured loans.
                                  then help initiate the mortgage loan
                                  application process. Rank, as part of her          Also, defendant Darron Banks, owner
                                  plea, admitted to her participation in a       of New Land Title, was charged in a
                                  scheme, in which gift letters were created     28-count indictment alleging bank fraud,
                                  for buyers to make it appear that the funds    wire fraud, conspiracy, and money
                                  came from a friend or a relative when, as      laundering. Darron Banks was a
                                  Horn-Gerber knew, the buyer had received       participant in an illegal land-flipping
                                  the money from Nelson or one of his            scheme involving FHA and conventional
                                  companies. Other codefendants in this          loans devised to defraud the United States.
                                  case, Marcos Reyes and Lynn Martz, have
                                  pled guilty, while Nelson has yet to plead.         Defendant Galen Wade, a real estate
                                                                                 appraisal apprentice, has been charged in
Single-Family Housing Programs



                                       In Federal Court, in Dallas, TX,          a 28-count indictment alleging bank fraud,
                                  defendant Alan Banks, co-owner, New            wire fraud, conspiracy, and money
                                  Land Title, was charged in a 28-count          laundering. Galen Wade was a participant
                                  indictment alleging bank fraud, wire fraud,    in an illegal land-flipping scheme involving
                                  conspiracy, and money laundering. Alan         FHA and conventional loans devised to
                                  Banks was a participant in an illegal          defraud the United States. Wade was an
                                  land-flipping scheme involving FHA and         apprentice for a legitimate real estate
                                  conventional loans devised to defraud the      appraiser. He used the appraiser’s license
                                  United States. Banks and his associates        number without his knowledge and
                                  recruited straw borrowers and straw            prepared false appraisals for a fee to assist
                                  purchasers and paid them a fee to use their    his associates in carrying out a fraudulent
                                  credit for the purchase of residential         land-flipping scheme. Wade was paid
                                  property. The straw borrowers and straw        $300-$65,000 for his role in the scheme.
                                  purchasers were told that they were            Eventually, Wade became involved in
                                  “investors” and that property would            recruiting straw borrowers and straw
                                  remain in their name for approximately         purchasers who were paid a fee to use their
                                  12-18 months, during which time the            credit for the purchase of residential
                                  property would be leased out. The              property.
                                  “investors” were unaware that the
                                  property was being sold to them at a               Defendant Katrina Crenshaw,
                                  significantly inflated amount and that         Closing Agent, Texas Title Company, was
                                  Banks and his associates were walking          charged in a 28-count indictment alleging
                                  away from the transaction with thousands       bank fraud, wire fraud, conspiracy, and
                                  of dollars. The lender was also unaware of     money laundering. Crenshaw was one of
                                  monies that were being distributed to          the participants in an illegal land-flipping
                                  Banks from the loan proceeds. The              scheme involving FHA and conventional
                                  mortgage payments were not made,               loans devised to defraud the United States.
                                  resulting in the foreclosure of the            Crenshaw received a $3,000 payment for
                                  properties. Banks was able to carry out the    closing an illegal loan transaction. She
                                  scheme due to his ownership and position       worked at a title company as a settlement
                                  as a settlement agent for the title company.   agent, enabling her to flip the properties.
                                  To date, the loss is $4.5 million in           The scheme involved the recruiting of straw



                          HUD’s Single-Family Housing Programs                                                             28
borrowers and straw purchasers who were         brokerage company, and Absolute
told that they were “investors.”                Abstract and Title Company, a title
                                                company, both located in Little Rock, AR.
     Defendant Mark Dean, also known as         Michael Dorsey was Comptroller of
Mark Banks, the step-son of New Land            Freedom and managed Absolute. Casey
Title owner Darron Banks, was charged in        Miller and Katrina Bowen Soukkaseum
a 28-count indictment alleging bank fraud,      were Freedom team managers who each
wire fraud, conspiracy, and money               managed a group of loan officers at
laundering. Dean was a participant in an        separate Freedom branches.
illegal land-flipping scheme involving FHA
and conventional loans devised to defraud            From January 2000 to March 2002, the
the United States. Dean and his associates      above defendants allegedly conspired with
recruited straw borrowers and straw             one another to commit loan origination
purchasers and paid them a fee to use their     fraud and Real Estate Settlement and




                                                                                                 Single-Family Housing Programs
credit for the purchase of residential          Procedures Act (RESPA) violations relating
property.                                       to at least 84 loans valued at more than
                                                $3.5 million, containing undisclosed
      In U.S. District Court, District of New   inflated fees and materially false and
Jersey, Newark, NJ, defendant Sholom            misleading information. Freedom and
Moskowitz appeared before Honorable             Absolute employees under the direction of
William Bassler and pled guilty to a            Nelson Miller allegedly altered and
five-count information, charging him with       otherwise falsified loan origination and title
tax evasion in connection with his U.S.         history documents on mortgage loan
Individual Income Tax Return (Form 1040)        originations. Freedom employees also
for calendar year 2000, bank fraud, and         allegedly conspired to commit RESPA
making a false statement to a financial         violations by charging borrowers
institution (concerning FHA-insured             exorbitant document preparation fees
mortgages). This investigation concerns         payable to Jefferson Doc Prep, a shell
mortgage loan origination fraud.                company created by Nelson Miller, without
Fraudulent mortgage applications, false         disclosing to the borrowers the relationship
appraisals, false employment documents,         between Freedom and Jefferson Doc Prep;
false employment verifications, and false       by charging borrowers exorbitant loan
gift letters were completed in order for        origination fees while also receiving large
unqualified buyers to purchase homes. This      yield spread premiums from funding
activity resulted in fraudulent loans valued    lenders; and by failing to disclose to
at $1,249,921, which to date, have resulted     borrowers and funding lenders the closely
in a loss to HUD in the amount of $109,668.     held relationships among Freedom,
                                                Absolute, and Jefferson Doc Prep.
    Defendants Nelson Miller, Michael
Dorsey, Bertram Case “Casey” Miller, and
Katrina Bowen Soukkaseum were indicted
                                                Equity Skimming
by a Federal grand jury in the Eastern
District of Arkansas, Little Rock, AR, on           In District Court, Western District of
1 count of conspiracy and 15 counts of wire     New York, Rochester, NY, defendant
fraud. Nelson Miller was the owner and          Edwin “Andy” Kane pled guilty to one
Chief Executive Officer of Freedom              count of equity skimming. Kane devised a
Financial Mortgage Company, a mortgage          scheme in which he purchased numerous


HUD’s Single-Family Housing Programs                                                             29
                                  FHA-insured properties throughout the          pled guilty to a Federal information
                                  city of Rochester, NY. At the time of          charging him with conspiracy to commit
                                  purchase, all of the properties were rented    wire fraud, money laundering, income tax
                                  to tenants. Kane continued to collect the      evasion, and filing false entries in
                                  rents on the properties but failed to pay      statements to HUD. Grubba conspired with
                                  the FHA mortgages, causing the                 Michael J. Fanghella and PinnFund Chief
                                  properties to go into foreclosure. To date,    Financial Officer John Garitta to deceive
                                  more than 30 properties have been              investors and perpetuate a “ponzi” scheme
                                  foreclosed upon, resulting in a loss of        by preparing and disseminating false
                                  approximately $1,140,000 to HUD due to         financial statements. Grubba failed to
                                  Kane’s actions. Kane could be sentenced        declare his full income on Federal income
                                  to up to 5 years imprisonment, a fine of       tax returns for 1997 through 2000, with
                                  $250,000, or both and a term of supervised     total taxes due of approximately $2.5
                                  release of 2 to 3 years.                       million.
Single-Family Housing Programs



                                  Officer Next Door Program                           PinnFund was a subprime lender and
                                                                                 a HUD-approved direct endorsement
                                                                                 lender. Michael Fanghella, founder and
                                       In the Federal Court, Central District    director of PinnFund, along with other
                                  of California, Los Angeles, CA, defendant      PinnFund officers, concealed from investors
                                  James Derrick Stewart was sentenced to         the fact that PinnFund lost $200 million
                                  pay $50,000 in restitution to HUD and a        from the mortgage business while soliciting
                                  $2,000 fine. Stewart was also sentenced to     new investor money. From 1997 through
                                  serve 3 years of probation, with the first     2000, Fanghella gave investors money
                                  4 months served on home detention with         contributed by new investors and falsely
                                  electronic monitoring. Stewart is also to      represented to them that these funds were
                                  serve 100 hours of community service.          earnings or returns on capital. Fanghella
                                  Stewart was a former correctional officer      was sentenced to 10 years in Federal prison
                                  with the California Youth Authority who        after he pled guilty to conspiracy to commit
                                  purchased a house in Rialto, CA, and           wire fraud, conspiracy to commit money
                                  received a 50-percent discount through the     laundering, tax evasion, and filing a false
                                  Officer Next Door (OND) program.               entry with HUD.
                                  Stewart never resided on the property and
                                  instead rented it out to tenants. This was         In Federal Court, Western District of
                                  in direct violation of HUD’s OND program       Pennsylvania, Pittsburgh, PA, defendants
                                  regulations which state that an officer must   Terry Boring and William McKee, formerly
                                  live on the property for 3 years.              doing business as Zintron Corporation,
                                                                                 pled guilty to charges that they conspired
                                  Conspiracy and False Statements                to defraud HUD and numerous
                                                                                 homeowners in connection with the Title I
                                      In Federal Court in San Diego, CA,         home improvement program. Boring was
                                  defendant Keith G. Grubba, former              sentenced to 27 months incarceration, to
                                  President of PinnFund U.S.A., Inc., was        be followed by 60 months of supervised
                                  sentenced to 63 months imprisonment, to        release, and McKee was sentenced to 23
                                  be followed by 60 months supervised            months incarceration, to be followed by 60
                                  release, and ordered to pay restitution of     months supervised release. The defendants
                                  $187,665,543. On January 30, 2003, Grubba      were also ordered to make restitution to


                          HUD’s Single-Family Housing Programs                                                            30
HUD and to homeowners in the amount            sentence. Graham pled guilty to conspiracy
of $1.3 million. McKee was also required       and making false statements. Graham
to forfeit three luxury classic automobiles.   helped AIMB by ensuring that questionable
The investigation disclosed that the           homebuyers located in the New York
defendants would market home                   metropolitan area would qualify for
improvements door to door to elderly and       FHA-insured loans.
low-income homeowners. They claimed
affiliation with HUD-FHA and convinced              In U.S. District Court in Chicago, IL,
many homeowners to order work that was         defendant Yinka Otabor, the Executive
excessive or not needed and then qualify       Director of Hope, a HUD-approved direct
them for home improvement loans by             sales nonprofit, was sentenced to 6 months
falsifying material information such as        home confinement, 4 years probation, and
their income and credit worthiness. A total    restitution in the amount of $94,627.
of 41 Title I loans defaulted, resulting in    Saundra Mayfield, an investor, was




                                                                                               Single-Family Housing Programs
claims to HUD in excess of $600,000, in        sentenced to 8 months in prison, 3 years
addition to many conventional home             probation, and restitution in the
improvement loans that defaulted.              amount of $185,431. Paul Crutchfield,
                                               the Executive Director of Omega, a
     In Federal Court in Lake Success, NY,     HUD-approved direct sales nonprofit, was
defendant Lenore Thomas, former Loan           sentenced to 12 months in prison, 3 years
Processor and Underwriter, American            probation, restitution totaling $376,190 (of
International Mortgage Bankers (AIMB),         which $143,772 had been paid prior to
Lake Success, NY, pled guilty to               sentencing), and a $5,000 fine.
conspiracy. She was sentenced to 36
months of supervisory probation. Several            Crutchfield and Mayfield pled guilty
employees from AIMB assisted in obtaining      for their role in an elaborate scheme to use
FHA-insured loans from questionable            HUD-REO properties, which were
homebuyers located in the New York             purchased under the direct sales program
metropolitan area, including Nassau and        with a 30-percent discount. Otabor,
Suffolk Counties. More than 90 percent of      Crutchfield, and Mayfield admitted to
the FHA-insured loans from AIMB                violating HUD’s direct sales program rules
contained one or a variety of altered          by fraudulently concealing the nature of
documents, including false pay stubs, bank     the transactions from HUD and making
statements, IRS W-2 forms, rent                material misrepresentations to HUD
verifications, verifications of employment,    relating to the purchase, ownership, and
verifications of deposit, credit worthiness    disposition of the homes. In particular, the
letters, gift letters and credit reports.      HUD-REO properties were used as
                                               investments for family members and
    In the same case, in Federal Court,        friends or Section 8 rental properties or
Eastern District of New York, defendant        were resold to unqualified buyers with FHA
Nicholas Graham, an outside contractor         insurance through the submission of false
working with AIMB in Lake Success, NY,         rehabilitation documents, phony gift
was sentenced to 41 months incarceration       letters, and fraudulent employment.
and 3 years probation and was required
to pay a court ordered restitution of              In U.S. District Court at Chicago, IL,
$878,235. He may also face the possibility     defendant Virgil Griffin pled guilty to one
of being deported after serving his            count of mail fraud. This plea also held that


HUD’s Single-Family Housing Programs                                                           31
                                  Griffin was responsible for restitution in      to 1 year and 1 day in prison and ordered
                                  the amount of $216,378. Griffin was part        to pay restitution of $230,481. Defendant
                                  of a scheme in which seven other                Smith’s brother, defendant Mario McGee,
                                  individuals, James Rucker, Gregory Jacobs,      was also sentenced to serve 6 months in
                                  Stephen Lawhorn, Tina Hoard, Patricia           prison and ordered to pay $140,508 in
                                  Mays, Carmen Perry, and William Scott,          restitution. Defendants Smith and McGee
                                  were also charged. Griffin admitted that,       previously pled guilty to making false
                                  as soon as he began working at                  statements to HUD and misuse of an SSN.
                                  Comprehensive Mortgage and continuing           Mardell Smith participated in a mortgage
                                  through his employment at Design                fraud scheme that involved submitting
                                  Mortgage Corporation, he created and            false information on loan applications for
                                  submitted false loan documents. These           the purchase of residential real estate,
                                  included IRS W-2 forms, pay stubs, rent         knowing that the loans would be offered
                                  payment checks, verification of deposits,       to HUD for insurance. The scheme
Single-Family Housing Programs



                                  verification of employment, and other false     involved using employer identification
                                  documents to be placed into loan files.         numbers as SSNs and the submission of
                                                                                  false income documents.
                                       In the same case, in Chicago, IL, U.S.
                                  District Court, defendant William Scott              In Greenbelt, MD, in Federal Court,
                                  pled guilty to one count of wire fraud. Also,   District of Maryland, defendant Lynn
                                  defendant Stephen Lawhorn pled guilty to        Kromminga, a settlement attorney, was
                                  one count of mail fraud. While Scott was        sentenced to 12 months incarceration, to
                                  responsible for restitution in the amount       be followed by 36 months supervised
                                  of $66,851, Lawhorn’s restitution was in        release, fined $3,000, and ordered to repay
                                  the amount of $177,000. As part of his plea,    $299,479 to HUD and other lenders.
                                  Scott accepted responsibility for his role in   Kromminga had previously pled guilty to
                                  initiating fraudulent loan packages and         conspiring with codefendant John Bryant,
                                  assisting in the setup of shell                 a speculator, to prepare false settlement
                                  companies, known as Pinnacle Investment         statements in 1998 and 1999 on FHA and
                                  Corporation of America, Wescorp                 conventional loans. The defendant also
                                  Financial, Inc., and Wescorp Realty Corp.,      admitted that he prepared fraudulent title
                                  while employed at Comprehensive                 insurance policies to facilitate settlements.
                                  Mortgage Corp. Lawhorn admitted to
                                  signing fraudulent loan applications,                In Los Angeles, CA, defendant Emma
                                  completing phony land contracts, and            Barrientes agreed to pay a penalty of
                                  creating fictitious IRS W-2 forms. The          $5,500 to HUD pursuant to a PFCRA
                                  purpose of these companies was to               settlement. Barrientes was previously
                                  purchase properties using false information     sentenced criminally in the Federal Court,
                                  on the loan application, forging other          Central District of California, to pay
                                  people’s names on verification forms, and       $125,772 in restitution to HUD and serve
                                  creating false documents for loan files such    4 months in jail. As a loan officer for Star
                                  as tax returns and bank checks.                 Funding, Inc., Barrientes assisted two
                                                                                  ineligible borrowers in obtaining
                                      In St. Louis, MO, in Federal Court,         HUD-insured mortgages. Barrientes
                                  Eastern District of Missouri, defendant         prepared false loan applications supported
                                  Mardell McGee Smith, owner of New               by false documentation concerning
                                  Alliance Enterprises, Inc., was sentenced       financial circumstances and eligibility for


                          HUD’s Single-Family Housing Programs                                                              32
mortgage insurance. The false information       Federal agency. Reynolds was also ordered
concerning financial documents included         to pay restitution in the amount of
IRS W-2 forms. Barrientes caused the            $100,310 to HUD.
borrowers to sign certifications stating that
the information was true and correct,                In Los Angeles, CA, defendant Raul
although she knew the information to be         Altamirano agreed to make a payment of
false. Barrientes submitted the false loan      $40,754 to HUD pursuant to a PFCRA
applications to her employer for approval       settlement. Altamirano worked as a real
and submission to HUD for insurance.            estate agent for Dynamic Brokers, Inc., in
Barrientes caused the lender to sign a          Montebello, CA. Altamirano purchased
certification that the information was true     false and fraudulent pay stubs and IRS W-
and accurate, although she knew it to be        2 forms from forgers in the names of
false.                                          unqualified borrowers to qualify them for
                                                FHA-insured loans. Altamirano was




                                                                                               Single-Family Housing Programs
     In Federal Court, Central District, in     indicted on June 10, 2002, sentenced on
Sun Valley, CA, defendant Antonio               January 13, 2003, to probation for 3 years,
Esquivel was sentenced to serve 15 months       and ordered to pay $47,527 in restitution
in prison. He was also ordered to pay           to HUD.
$108,580 in restitution to HUD. He
previously pled guilty to two counts of              Defendant Rogelio Gonzalez Jr. was
making false statements to HUD. In June         sentenced in Federal District Court, Central
1999, Esquivel submitted a fraudulent           District of California, Los Angeles, CA, to
FHA-insured home mortgage loan                  serve 1 year of probation and to pay
application for the purchase of a property.     $31,535 in restitution to HUD. Gonzalez
He was working as an independent real           was also ordered to pay a special assessment
estate agent assisting individuals in the       fee of $200. In March 2001, Gonzalez pled
processing of mortgage loan applications        guilty to submitting false statements to
for the purchase of residential properties.     HUD. Gonzalez, Jr., worked as a real estate
Esquivel was released to the Immigration        professional buying and selling properties
and Naturalization Service on January 23,       and was responsible for the submission of
2004, and was deported on February 2,           mortgage loan applications used to
2004. He was later arrested on October 29,      purchase FHA-insured properties.
2004, for illegally returning to the United     Gonzalez, Jr., caused two loans with
States and turned over to the Department        fraudulent income documents to be
of Homeland Security.                           submitted to HUD. Gonzalez, Jr.’s
                                                sentencing was part of a larger
    In Dallas, TX, pursuant to the Texas        investigation which revealed that the
Occupations Code, the Texas Real Estate         owners of April 8 Realty in La Puente, CA,
Commission revoked the real estate license      fabricated and sold thousands of false loan
of defendant Charles E. Reynolds.               supporting documents to numerous real
Reynolds was a South Dallas real estate         estate agents.
agent who was previously sentenced to 30
months in Federal prison following his              Also in this case in Orange County,
conviction on Federal housing fraud             CA, defendant Adriana Forero was
charges. Reynolds was previously                sentenced to pay a fine of $3,000 to the
convicted on Federal charges of making          United States as well as a special
false and fraudulent statements to a            assessment fee of $100. Forero was also


HUD’s Single-Family Housing Programs                                                           33
                                  placed on probation for 1 year. Forero, who     causing an act to be done, and conspiracy
                                  was originally identified as a target in the    and two counts of making false statements.
                                  “April 8 Realty” investigation, was charged     Bahamondes acted as a loan officer and real
                                  with one count of mail fraud, one count of      estate agent in transactions involving the
                                  making a false statement, and one count         sale of real property to unqualified buyers.
                                  of aiding and abetting on December 18,          He obtained money from real estate
                                  2003. This investigation resulted in 29         investors, including himself, and caused
                                  indictments against 38 targets in Southern      such money to be placed as downpayments
                                  California. Adriana Forero purchased            on behalf of unqualified buyers. He enlisted
                                  fraudulent documents from Ocampo, a             notaries public to fraudulently notarize
                                  forger who produced and sold fraudulent         necessary signatures of straw buyers and
                                  documents to individuals in the real estate     fictitious buyers. Bahamondes caused
                                  business.                                       mortgage applications for unqualified
                                                                                  buyers that contained false employment,
Single-Family Housing Programs



                                       In Los Angeles, CA, in U.S. District       income, and credit information to be
                                  Court, Central District of California, after    completed and submitted for funding and
                                  a 4-week jury trial, defendant Frank Acosta     approved by FHA.
                                  was convicted of a total of 25 counts related
                                  to an FHA loan fraud scheme. The jury               Bahamondes and other unindicted
                                  deliberated approximately 4 hours before        coconspirators caused the funding and
                                  rendering guilty verdicts on 13 counts of       insurance of approximately $7.5 million in
                                  false statements, 7 counts of wire fraud, 5     fraudulent FHA-insured home mortgage
                                  counts of money laundering, and 2 counts        loans on properties in Los Angeles, San
                                  of conspiracy. Defendant Acosta and his         Bernardino, and Riverside Counties.
                                  coconspirators were involved in a scheme        Approximately 44 of these properties went
                                  in which FHA loans were issued to both          into default and were resold at a loss to
                                  unqualified and straw buyers. Some of the       HUD in excess of $2.5 million.
                                  straw buyers included teenagers who
                                  played on a junior college baseball team            In the same case, in Los Angeles, CA,
                                  coached by one of Acosta’s coconspirators.      the U.S. Attorney’s Office in the Central
                                  Acosta’s wife, Elizabeth Madrigal, who          District of California issued an information
                                  was also involved in Acosta’s scheme, pled      charging defendant Bernadette Baldonado
                                  guilty in 2003 to one count each of wire        with two counts of wire fraud and aiding
                                  fraud, conspiracy, and money laundering,        and abetting. Baldonado worked as a loan
                                  and she is currently serving a 40-month         processor and also acted as a notary public
                                  Federal sentence. Two other cooperating         on sales of real property to unqualified
                                  coconspirators, Gerard Current and              buyers. Baldonado caused fraudulently
                                  Fernando Garcia, are scheduled to be            prepared employment, income, credit, and
                                  sentenced pursuant to their plea                identification documents to be submitted
                                  agreements. Sentencing for Frank Acosta         to FHA. Baldonado also solicited business
                                  is scheduled for June 13, 2005. The             owners to falsely certify that they employed
                                  estimated loss to HUD in this case is $1.5      the buyers, when she knew they did not.
                                  million.                                        Baldonado, aided and abetted by others,
                                                                                  caused the funding and insurance of
                                      In Los Angeles, CA, in Federal Court,       approximately $703,000 in fraudulent
                                  defendant George Bahamondes pled guilty         FHA-insured home mortgage loans in the
                                  to one count of aiding and abetting,            Los Angeles County area. All of these


                          HUD’s Single-Family Housing Programs                                                             34
properties went into default and were         fraudulent Social Security checks, as well
resold at a loss to HUD in excess of          as falsifying verifications of employment,
$889,686.                                     bank deposits, verifications of rent, letters
                                              of credit, IRS W-2 forms, pay stubs, and
     In Los Angeles, CA, in the Central       gift letters. In total, 13 of the 15 loans
District of California, defendants Paul and   charged were FHA-insured, and the
William Peterson’s indictment was             mortgages totaled $935,990. Of the 13
superseded. The Petersons were employed       FHA-insured loans, 6 are currently in the
at Peterson Land and Development, a           foreclosure process, and 2 have gone
company which developed and sold              through foreclosure.
residential properties, some of which were
sold pursuant to home mortgage loans               In addition, Motyka purportedly
insured by FHA. Paul and William              overstated income and provided
Peterson knowingly conspired and agreed       fraudulent pay stubs and IRS W-2 forms




                                                                                                 Single-Family Housing Programs
to make false, fictitious, and fraudulent     in support of seven mortgages obtained for
statements to HUD. Both Paul and William      his personal properties. The mortgages for
Peterson were charged with one count of       Motyka’s personal properties totaled
conspiracy, one count of making a false       $737,250.
statement, and two counts of aiding and
abetting. The approximate amount of loss           In U.S. District Court in Chicago, IL,
to HUD is $1,123,030.                         defendant Michael Fedynich, a broker/
                                              seller, was indicted on one count of making
     In Cleveland, OH, a Federal grand        false statements to HUD, a misdemeanor,
jury in the Northern District of Ohio         and two counts of mail fraud. The
indicted defendant Stanley Motyka, a          indictment alleged that from January 1996
licensed Ohio real estate agent, on nine      and continuing until December 1999,
felony counts. Motyka was charged with        Fedynich, the owner of Westgate Realty,
making false statements to HUD, making        or people under his direction provided
false statements on loan and credit           homebuyers with downpayment funds in
applications, mail fraud, and bank fraud      order for the perspective buyers to qualify for
in connection with FHA-insured loans          Fedynich-owned properties. According to the
obtained on behalf of borrowers as well as    indictment, Fedynich provided the
conventional loans obtained on behalf of      downpayment to a friend or a relative of the
himself.                                      homebuyer and instructed those persons to
                                              execute a “gift affidavit” in which they falsely
     According to the indictment, it was      stated that they had provided the
part of a scheme in which Motyka offered      downpayment to the homebuyer as a gift.
homes to unqualified buyers in the            The person executing the gift affidavit would
Cleveland, OH, area knowing that those        use the funds provided by Fedynich to
buyers had insufficient resources to          obtain a cashier’s check made payable to
legitimately qualify for mortgage loans.      the homebuyer. Following these
Through various fraudulent means,             transactions, Fedynich purportedly
Motyka was alleged to have aided the          provided false certification at closing,
prospective buyers in securing approval of    which indicated that he had not provided
mortgage loans, which ultimately resulted     funds to the borrower.
in the sale of the subject properties. The
indictment charged that Motyka created


HUD’s Single-Family Housing Programs                                                             35
                                      In summary, this investigation             four felony counts of use of a fraudulently
                                  involved 10 FHA-insured loans totaling         obtained SSN and one count of making a
                                  $716,000 in insurance and losses totaling      false statement. This investigation began
                                  $516,429.                                      after HUD-OIG received allegations that
                                                                                 Andrews was involved in a single-family
                                       In Los Angeles, CA, pursuant to an        loan fraud scheme in which the defendant
                                  information filed by the U.S. Attorney’s       would purchase homes using false
                                  Office, Central District of California,        names, SSNs, and employment/wage
                                  defendant Rene Ibarra, a real estate agent,    documentation. After purchase of the
                                  pled guilty to one count of conspiracy and     homes, the defendant would collect a
                                  three counts of making false statements.       substantial amount of rent on the homes
                                  Ibarra was a coconspirator in a fraudulent     and immediately default on the mortgages.
                                  loan origination scheme in which he            One of the three homes in this fraud scheme
                                  obtained false employment and income           had an FHA-insured mortgage. A claim on
Single-Family Housing Programs



                                  verification documents from forger Maggie      the FHA defaulted mortgage was made,
                                  Cuavas, who was convicted in a separate        and HUD was required to pay in excess of
                                  investigation. The documents obtained by       $188,000 due to the foreclosure.
                                  Ibarra fabricated and/or inflated the
                                  income of mortgagors and were used to               In Phoenix, AZ, a Federal grand jury
                                  give the false appearance of mortgagors        in U.S. District Court, District of Arizona,
                                  qualifying for FHA-insured home mortgage       indicted defendants Leonel Estrella and
                                  loans. In addition, Ibarra, as an investor,    Maria Carmen Garcia on one count of
                                  provided the downpayment funds for             conspiracy and six counts of submission of
                                  several mortgagors and misrepresented          false statements to HUD. The grand jury
                                  the fact on the applicable HUD-1               further indicted Estrella on three counts of
                                  settlement statement addendums. Ibarra’s       bank fraud. The investigation disclosed that
                                  involvement in the scheme resulted in a loss   Estrella, a licensed realtor, and Garcia, a
                                  to HUD of approximately $128,496.              loan officer, submitted falsified wage
                                                                                 documents and SSN information to HUD
                                       In Birmingham, AL, in Federal Court,      to obtain FHA-insured home loans for their
                                  Northern District of Alabama, defendant        mutual clients. The investigation further
                                  Taveres C. Williams, a loan officer, was       disclosed that Estrella created false wage
                                  indicted on Social Security fraud,             documents for other clients, which were
                                  submitting false statements, and theft of      used to obtain conventional home loans
                                  government property. Williams, who             from commercial lenders such as
                                  worked as a mortgage industry                  Washington Mutual Bank, FA. The
                                  professional, allegedly caused false           investigation has identified 14 FHA-insured
                                  documentation to be submitted to HUD           home loans involved in the scheme with
                                  concerning FHA-insured mortgages. The          insured mortgages totaling $1.58 million
                                  total amount of loans involved was more        and 14 conventional home loans with
                                  than $200,000 with a loss to HUD of more       mortgages totaling $1.74 million. Five
                                  than $112,000.                                 FHA-insured home loans have foreclosed,
                                                                                 resulting in a loss to HUD of $140,310. One
                                     In Seattle, WA, in Federal Court,           conventional home loan has foreclosed
                                  Western District of Washington, defendant      with a loss to Washington Mutual Bank,
                                  Mildreada Andrews was charged with             FA of $12,363.



                          HUD’s Single-Family Housing Programs                                                            36
      Mail, Wire, and Bank Fraud               an SSN, false statements to HUD, and
                                               identity theft. Arnold, who was a mortgage
                                               loan processor, began using a false
    In Federal Court in Los Angeles, CA,
                                               identity. Arnold, along with an unnamed
defendant Luis Angel Sanchez was
                                               coconspirator (who has not been formally
sentenced to 3 years probation on one
                                               charged at this time), rented a Palm Harbor
count of wire fraud, aiding and abetting,
                                               home, forged a deed to take title to it, then
and one count of false statements, aiding
                                               filed simultaneous applications to take out
and abetting. Sanchez was also ordered to
                                               three mortgage loans totaling nearly
pay restitution of $620,510 and a special
                                               $400,000. Arnold used a new name,
assessment of $200. Sanchez located
                                               “Teresa Blecker,” along with her son’s SSN
residential properties that were on the
                                               and another set of phony financial
market for sale. These properties were then
                                               credentials, to obtain an FHA-insured
purchased for the purpose of resale.
                                               mortgage loan in Hillsborough County.




                                                                                               Single-Family Housing Programs
Potential buyers were recruited for these
                                               The FHA loan was mortgaged for
properties who often did not qualify for
                                               approximately $150,000.
FHA-insured mortgage loans due to
inadequate income or insufficient assets for
                                                    In Los Angeles, CA, in Federal District
a downpayment. Recruiters received a
                                               Court, Central District of California,
commission for every purchaser they
                                               defendant Domingo Salaza was sentenced
located. The buyers were then assisted in
                                               after he pled guilty to an information of
finding cosigners for their loans. As a
                                               two counts of wire fraud. Salazar was
result, fraudulent mortgage applications
                                               sentenced to pay $228,000 in restitution to
were completed and submitted in the
                                               HUD. He was also ordered to pay a $200
names of buyers and cosigners that
                                               fine and serve 6 months of probation.
contained false employment documents,
                                               Salazar worked as a real estate agent at
false verifications that downpayments
                                               Dynamic Brokers and caused fraudulent
were from either the buyers’ personal funds
                                               information to be submitted to HUD.
or a gift, false explanation letters
                                               Salazar was originally identified as part of
concerning the relationships of the
                                               the “April 8 Realty” investigation.
cosigners to the buyers, and false
notarizations of the signature of buyers and
                                                   In Springfield, MA, a Federal District
cosigners. The total loss to HUD is
                                               Judge sentenced defendant Chester
approximately $23 million.
                                               J. Ardolino to 6 months house arrest,
                                               3 years probation, a $7,000 fine, and
     In Tampa, FL, in U.S. District Court,
                                               200 hours of community service.
Middle District of Florida, defendant
Alison Arnold was sentenced to 24 months
                                                   This sentencing is the result of the
incarceration and 24 months supervised
                                               December 17, 2004, guilty verdict on seven
release and ordered to pay $265,000 in
                                               counts returned by a Federal jury in
restitution and a special assessment fee of
                                               Springfield, MA, in connection with a
$100. Arnold was also sentenced to
                                               single-family fraud investigation.
prohibition from engaging in any
                                               Defendants Chester J. Ardolino, Police
employment relating to mortgage services
                                               Captain with the City of Springfield, MA,
or financial lending. Arnold pled guilty on
                                               Police Department, and Michael
September 30, 2004, to conspiracy to
                                               Hutchison, a former employee of the
commit bank fraud, false representation of
                                               Hampden County Employment and


HUD’s Single-Family Housing Programs                                                           37
                                                                                      committed wire fraud using the HCETC fax
                                                                                      machine to transmit the fraudulent loan
                                                                                      documents to the mortgage company. The
                                                                                      indictment also contained a forfeiture count
                                                                                      for the property valued at $83,000.

                                                                                           Also, defendants Paul Starnes, Marc
                                                                                      Brown, and David McCoy, all of
                                                                                      Springfield, MA, were indicted by a
                                                                                      Federal grand jury. The indictment charged
                                                                                      the defendants with conspiracy to launder
                                                                                      money and wire fraud in connection with
                                                                                      a multimillion dollar mortgage scheme. The
                                                                                      defendants were involved in a property-
Single-Family Housing Programs



                                                                                      flipping scheme, in which 10 other
                                                                                      individuals were previously indicted in
                                                                                      September 2004, that had included more
                                                                                      than 70 properties in the Springfield, MA,
                                                                                      area, including HUD-REO properties
                                                                                      purchased with FHA-insured mortgages
                                                                                      totaling more than $5,900,000. The scheme
                                                                                      by these three defendants duped lenders
                                                                                      and homebuyers out of $1.5 million. The
                                                                                      scheme included purchasing distressed
                                                                                      properties, paying off appraisers to inflate
                                                                                      their values, recruiting poor first-time
                                                                                      buyers, drafting phony financial
                                     Copyright, 2005. The Republican - Springfield,   documents to obtain mortgages, and
                                     MA. Reprinted with permission.                   collecting large profits.

                                  Training Consortium (HCETC), a City of                   Also in this case in Springfield, MA,
                                  Springfield agency funded with                      in U.S. District Court, defendant Elliott
                                  Community Planning and Development                  Beals, a real estate broker in the Springfield
                                  (Community Development Block Grant)                 area, entered a guilty plea on an
                                  funds, were both found guilty. The two              information filed by the U.S. Attorney’s
                                  were arrested in January 2004, following            Office. Beals agreed to plead to four counts
                                  the unsealing of a March 2003 indictment,           of failure to file income tax returns for tax
                                  which charged Ardolino and Hutchison                years 1998, 1999, 2000, and 2001 on
                                  with seven counts of wire fraud, mail               income generated from land flipping. Beals
                                  fraud, false impersonations, money                  was offered this plea agreement as a part
                                  laundering, and bank fraud. The                     of the overall agreement to testify. Beals
                                  indictment alleged that Hutchison and               was the main witness in the recent trial of
                                  Ardolino conspired to fraudulently obtain           former Springfield patrolman Chester
                                  the mortgage to purchase a property at an           Ardolino and former Greater Springfield
                                  inflated price using a straw buyer, which           Entrepreneurial Fund employee Michael
                                  in this case, was Hutchison’s sister. The           Hutchison, in which they were convicted
                                  indictment further alleged that Hutchison           of money laundering and wire/mail fraud


                          HUD’s Single-Family Housing Programs                                                                   38
Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.


involving the flipping of one of the                      through the help of Terry Hansen, the
properties. Beals was involved in                         former Chief of HUD’s Property




                                                                                                         Single-Family Housing Programs
numerous land flips, some involving                       Disposition Branch, for a fraction of their
HUD-REO properties, all of which                          true value and then obtain FHA 203(k)
occurred during the 1998-2001 period in                   loans to rehabilitate the homes. Brown and
the Springfield area. A sentencing date is                Doctor profited from the purchases and use
pending.                                                  of the 203(k) rehabilitation funds. Hansen,
                                                          his wife Judy, her two children, Chad and
Forgery, Theft, Embezzlement,                             Dawn Elve, and John and Emalee Birne,
                                                          former HUD contractors, have been
and Money Laundering                                      convicted and sentenced in this case.

    In U.S. District Court, Western District                   A Maricopa Country grand jury,
of Michigan, Grand Rapids, MI,                            Phoenix, AZ, indicted Edward Carrillo in
defendant Jack Brown, the president of                    Scottsdale, AZ, on three counts of
Great Lakes Housing Incorporated (GLHI),                  fraudulent schemes and artifices and one
a HUD-approved nonprofit, was sentenced                   count of theft. Carrillo was arrested, and
to $443,694 in restitution, 400 hours of                  search and seizure warrants were executed
community service, and 15 months                          at his home/office. During the execution
incarceration, while defendant Tim Doctor,                of the warrants, a Cadillac Escalade, a
an employee of GLHI, was sentenced to                     Chevrolet Corvette, and $21,281 in cash
$62,000 in restitution, a fine of $5,000, and             were seized. The seizure warrant also
12 months probation following their                       included a BMW, which has not yet been
September 2004 guilty pleas.                              located. Carrillo, doing business as Sahara
                                                          Investments, sold his fraudulent “
     Brown and Doctor were responsible                    pre-foreclosure” business to three investors
for engaging in fraudulent transactions                   for $400,000 in January 2004, 6 weeks after
involving HUD and FHA-insured                             HUD-OIG executed a Federal search
mortgages. Both admitted to misleading                    warrant at Carrillo’s home/office. The
HUD officials into believing GLHI was a                   Federal investigation was initiated after a
nonprofit entity when it operated for a                   mortgage company notified HUD-OIG
profit for their personal gain. Because of                that Carrillo had been purchasing
their misrepresentations, GLHI was able to                FHA-insured properties through HUD’s
purchase at least 105 HUD properties                      “pre-foreclosure” program, at substantial
within the Grand Rapids Office jurisdiction               discounts, often using fraudulent


HUD’s Single-Family Housing Programs                                                                     39
                                  appraisals. Carrillo then sold the homes the   as an investor who would be willing to
                                  same day he purchased them at market           assist them in stopping imminent
                                  value. HUD paid substantial claims for         foreclosure proceedings. He collected
                                  each property sold through the                 substantial funds from them, then
                                  “pre-foreclosure” program. The ongoing         manufactured counterfeit, worthless
                                  Federal investigation disclosed that           Treasury notes that he submitted to banks
                                  coconspirators at the title company, a         and mortgage companies toward payment
                                  mortgage company, and housing                  of the mortgages. Allegedly, Coley passed
                                  counseling agencies accepted large sums of     approximately $1.8 million in counterfeit
                                  money to approve and assist with over 100      Treasury notes. Many of the affected
                                  “pre-foreclosure” sales in the Phoenix area.   homeowners, in addition to losing the
                                  The grand jury indictment also alleged that    money they gave Coley, also ended up
                                  in June 2004, Carrillo sold two                losing their homes. Further, it is estimated
                                  FHA-insured properties to investors for        that almost $1 million in claims to the
Single-Family Housing Programs



                                  $85,000 and $115,000. The investors paid       mortgage insurance fund will be made on
                                  Carrillo cash for the properties with          FHA mortgages that were involved in this
                                  defaulted mortgages. Carrillo never paid off   scheme.
                                  the previous mortgages and refused to
                                  return the investors’ money.                        In East St. Louis, IL, defendant Phillip
                                                                                 Cohn, a real estate developer, pled guilty
                                      In Seattle, WA, in U.S. District Court,    in U.S. District Court, Southern Illinois, to
                                  Western District of Washington, defendant      mail fraud, money laundering, and
                                  Scott Anderson was sentenced to 24             violating the Environmental Clean Air Act.
                                  months imprisonment, 36 months of              Defendant Katrina Frede, Cohn’s wife,
                                  supervised release, and $108,511 in            also pled guilty to one count of bank fraud.
                                  restitution. Anderson previously pled          Phillip Cohn was previously indicted on
                                  guilty to interstate transmission of stolen    20 counts that included 3 counts of mail
                                  funds, count six of the second superseding     fraud, 11 counts of money laundering, 3
                                  indictment. Anderson was initially indicted    counts of bank fraud, 1 count of wire
                                  on eight counts of conspiracy to commit        fraud, and 2 counts of environmental
                                  wire fraud, money laundering, interstate       crimes. Cohn admitted creating false
                                  transmission of stolen funds, and              invoices and falsely endorsing checks to
                                  possession of cocaine. As the president/       obtain portions of $1 million placed in
                                  owner of Washington One Stop, an escrow        escrow for the environmental cleanup of
                                  company, Anderson absconded with funds         East St. Louis School property. Cohn also
                                  from the escrow trust account and failed       admitted obtaining more than $620,000 in
                                  to properly disburse escrow funds.             loans using the environmental escrow
                                  Anderson’s actions affected Section 8 of       funds as collateral. The lending bank was
                                  RESPA and Federal statutes.                    unaware that the escrow funds had to be
                                                                                 used for environmental cleanup, and the
                                       Defendant Gary T. Coley was charged       lending bank was also unaware that Cohn
                                  in Federal Court in Baltimore, MD, with        was creating false invoices to obtain the
                                  issuing fictitious obligations in connection   escrow funds for his own personal use. In
                                  with a scheme to defraud FHA mortgagors        addition, Cohn admitted the illegal
                                  who were facing foreclosure. The               removal of asbestos-containing materials
                                  investigation disclosed that Coley would       from the Spivey Building, a separate
                                  contact homeowners and represent himself       property he owned.


                          HUD’s Single-Family Housing Programs                                                             40
     In Dallas, TX, Assistant U.S. Attorney         Defendant Harold V. Fields, real estate
William McMurrey filed an information in       agent, Valley Home Experts, Glendale, AZ,
the Northern District Court of Texas on        pled guilty in the Maricopa County
defendant Frederico M. Garza, Jr., for         Superior Court, Phoenix, AZ, to one count
defrauding HUD. Garza owned and                of fraudulent schemes, one count of theft,
operated Garza Reality. He was in the          and one count of unlicensed real estate
business of buying and selling real estate     activity. Fields had previously been indicted
and representing individuals who wanted        by an Arizona State grand jury on 3 counts
to buy and sell real property. Garza           of fraudulent schemes, 1 count of
purchased HUD foreclosures in his parents’     unlicensed real estate activity, and 26
names, then contracted to sell the HUD-        counts of theft. Valley Home Experts had
acquired properties to homebuyers at           been the number one seller of HUD-REO
inflated markups. The HUD properties that      properties in Arizona for several years. The
Garza acquired were in poor condition          investigation disclosed that Fields recruited




                                                                                               Single-Family Housing Programs
and needed significant repairs to make         investors through advertisements in the
them habitable and FHA insurable for           newspaper and requested that each investor
financing. Garza contracted to sell the        give him $25,000 to $100,000 to buy HUD-
HUD homes to buyers with the                   REO properties. 26 investors lost $1,502,166
understanding that the properties would        in the scheme. Fields told each investor
be repaired. Garza arranged the financing      that these funds would be held in a trust
for the first-time unsophisticated             account to be used for downpayments and
homebuyers who trusted him. He caused          closing costs for up to 12 investment
loan documents to be submitted to lenders      properties. Often because of financing
for approval for the buyers without            issues, many of the loans did not close, and
informing the lenders the properties were      the properties were recycled back into the
in disrepair. On a number of occasions,        HUD inventory. Many of the investors
Garza contracted to sell the property before   began to demand that Fields return their
he actually owned it as well as providing      money after he failed to provide closing
fraudulent gift funds for the                  costs for several homes. These funds were
downpayments. There were 18 HUD-REO            never deposited into a trust account, and
properties involved, with an FHA-insured       the investigation disclosed that Fields wire
amount of $1,221, 053.                         transferred more than $500,000 to an
                                               offshore sports betting operation.




HUD’s Single-Family Housing Programs                                                           41
      Chapter 3




HUD’s Public and Indian
  Housing Programs
                                         T          he  U.S. Department of
                                                        Housing and Urban
                                    Development (HUD) provides grants and
                                                                                               Chart 3.1: Public and Indian Housing Program
                                                                                                              Reports Issued

                                    subsidies to approximately 4,200 public                                                        1
                                    housing authorities (PHAs) nationwide.
                                    About 3,200 PHAs manage public
                                    housing units, and another 1,000 with no
                                    public housing manage units under Section
                                    8 programs. Many PHAs administer both                                                     22
                                    public housing and Section 8 programs.                                Internal Reports         External Reports

                                    HUD also provides assistance directly to
Public & Indian Housing Programs


                                    PHAs’ resident organizations to encourage                        Chart 3.2: Public and Indian Housing
                                    increased resident management of public                                     Program Dollars
                                    housing developments and to promote the
                                                                                            200,000,000
                                    formation and development of resident
                                    management entities and resident skills                 150,000,000

                                    programs. Programs administered by PHAs                 100,000,000
                                    are designed to enable low-income                        50,000,000
                                    families, the elderly, and persons with                          0
                                                                                                           Internal Reports            External Reports
                                    disabilities to obtain and reside in housing
                                    that is safe, decent, sanitary, and in good                       Questioned Costs         Funds Put to Better Use
                                    repair.


                                    Audits                                                  Section 8 Voucher Program
                                                                                            Activities
                                         During this reporting period, the
                                    Office of Inspector General (OIG) issued                    We audited the Housing Authority of
                                    23 reports, 1 internal audit and 22                     the City of Houston, TX, Section 8
                                    external audits in the Public and Indian                Housing Choice Voucher program. This is
                                    Housing program area. These reports                     the second in a series of audits at the
                                    disclosed approximately $52.9 million                   Authority. Our audit objective was to
                                    in questioned costs and $188.2 million                  determine whether the Authority’s
                                    in recommendations that funds be put to                 contractor was performing inspections to
                                    better use. We reviewed the Section 8                   ensure assisted units were decent, safe, and
                                    Housing Choice Voucher program                          sanitary before tenants moved in and
                                    activities and public housing activities,               annually thereafter as HUD and
                                    including PHA activities with related                   Authority policies required.
                                    nonprofit entities, and PHA pension plan
                                    forfeiture policy. In addition, we conducted                In most cases, the Authority’s
                                    a corrective action verification review.                contractor performed annual and initial
                                                                                            inspections as required. However, since a
                                                                                            majority, 88 out of 118 units, failed our

                                    The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                    this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                    reports with management decisions reached during this semiannual period. Because there is a time lag
                                    between report issuance and management decisions, the two totals will not agree.



                            HUD’s Public and Indian Housing Programs                                                                                      44
housing quality standards (HQS)                   We designed the audit to determine
inspections, the contractor’s inspections         whether the Authority’s contractor
did not ensure the units were decent, safe,       correctly calculated housing assistance
and sanitary. The significant failure rate        payments and to determine the effect if the
occurred because the contractor appeared          contractor calculated the payments
to be more focused on performing a large          incorrectly.
quantity of inspections than on the quality
of those inspections.                                  The Authority’s contractor did not
                                                  correctly calculate or support its
     Projecting the results of the statistical    calculations of Section 8 housing assistance
sample to the population indicates at least       payments. Our projection of the results of




                                                                                                    Public & Indian Housing Programs
9,088 of the Authority’s 13,524 units do not      a statistical sample showed the Authority’s
meet standards. In addition, our                  contractor made errors in at least 7,168 of
inspections showed that 39 of the 88 units        its 13,732 housing choice voucher files over
had either uncorrected items from previous        a 13-month period. Due to the contractor’s
inspections or conditions that had existed        errors, the Authority overpaid at least $1.1
for more than a year. Thus, our results           million and underpaid at least $115,000 in
indicate the Authority expended $26.1             Section 8 assistance. The Authority did not
million on 3,503 units, which have failed         detect or prevent the errors because it did
items that have existed for a year or more.       not properly monitor its contractor and
Further, since the Authority’s contractor         relied on the contractor to police itself. The
did not ensure the units met standards, its       Authority terminated its contract with the
tenants lived in units that were not decent,      contractor in October 2004. However, if the
safe, or sanitary.                                Authority does not implement controls and
                                                  procedures to prevent similar errors, it will
    We recommended that the Houston               incur at least an additional $1 million in
Office of Public Housing require the              incorrectly calculated housing assistance
Authority to ensure all 88 failed units we        payments over the next 12 months.
identified meet standards. Further, the
Authority needs to inspect all of its                   We recommended that HUD require
remaining units within the next 12 months         the Authority to review all of its Section 8
to ensure those units also meet standards         housing choice voucher files and correct
since our results indicated at least 67           any errors that have occurred. HUD should
percent will not. If the units cannot be          require the Authority to repay the
made decent, safe, and sanitary, the              approximate $13,000 that we identified as
Authority should either abate the rent or         ineligible payments and pay the tenants
terminate the tenant’s voucher. If the            approximately $1,700 that we identified as
Authority corrects its inspection program,        underpaid assistance based on our sample
it will avoid paying an estimated $26.1           file reviews. Also, HUD should require the
million on units that are not decent, safe,       Authority, based on its file reviews, to either
and sanitary in the next year. (Audit             support more that $1.1 million that we
Report: 2005-FW-1007)                             identified as unsupported payments or
                                                  repay those Section 8 funds to HUD and
     We audited the Housing Authority of          support more than $113,000 that we
the City of Houston, TX, Section 8 Housing        identified as assistance underpayments or
Choice Voucher program. This is the third         pay those Section 8 funds to the tenants.
review in a series of audits at this Authority.   Finally, HUD should require the Authority


HUD’s Public and Indian Housing Programs                                                            45
                                    to implement controls to prevent future          development of its mixed finance projects
                                    housing assistance payment errors, which         and related property disposition activities.
                                    we project to be at least $1 million per year.   We found that even though the Authority
                                    (Audit Report: 2005-FW-1006)                     never obtained HUD approval of its two
                                                                                     projects, it went forward with them and
                                         We completed an audit of the Section        invested more than $7.2 million of its
                                    8 Housing Choice Voucher and low-rent            Federal dollars in the projects. The
                                    public housing programs of the Glens Falls       failure to follow HUD’s development
                                    Housing Authority of Glens Falls, NY.            requirements has put this $7.2 million
                                    Our review focused on tenant selection and       investment at risk. Additionally, because
                                    continued occupancy activities and               the Authority did not amend its annual
Public & Indian Housing Programs


                                    whether such activities are being carried        contributions contract to reflect the
                                    out in accordance with requirements and          changes resulting from the two projects, it
                                    regulations of HUD.                              has received more than $500,000 of
                                                                                     operating subsidy and capital grant funds
                                         Under the Section 8 Housing Choice          to which it is not legally entitled. The report
                                    Voucher program, the Authority’s rental          recommended that the Authority work
                                    assistance payments were not calculated          with HUD to ensure the project/units meet
                                    properly, and HQS violations were either         the legal and compliance requirements of
                                    not detected or detected but not reported        the mixed-finance development program,
                                    properly by inspectors of the Authority.         including contributions contract and
                                    Also, for both the Section 8 Housing Choice      declaration of trust amendments. If the
                                    Voucher and low-rent public housing              projects cannot be brought into compliance,
                                    programs, the Authority’s admission              the Authority should be required to refund
                                    policies are not consistent with HUD             the questioned costs to its low-income
                                    requirements, information on applications        public housing program using nonfederal
                                    and recertification forms was not properly       funds. (Audit Report: 2005-LA-1002)
                                    verified, and program participants’ annual
                                    income was not properly determined. As                At the request of HUD’s Hartford Field
                                    a result, HUD lacks assurance that more          Office, we completed an audit of selected
                                    than $700,000 was spent for units that were      programs of the Waterbury, CT, Housing
                                    decent, safe, and sanitary. We                   Authority. The programs included
                                    recommended that HUD require the                 Public      Housing       Capital    Fund
                                    Authority to implement procedures and            program; disposition of the South End
                                    controls to correct the deficiencies and         Project; Section 5(h) Public Housing
                                    weaknesses cited in the audit report. (Audit     Homeownership program; and multifamily
                                    Report: 2005-NY-1001)                            projects owned, managed, and
                                                                                     administered by the Authority. The
                                    Public Housing Authority Activities              primary purposes of our audit were to
                                                                                     determine whether the Authority
                                                                                     administered its selected programs
                                        We completed an audit of the Housing
                                                                                     efficiently, effectively, and economically
                                    Authority of Maricopa County’s (Phoenix,
                                                                                     and complied with the terms and
                                    AZ) mixed finance development activities.
                                                                                     conditions of its annual contributions
                                    The objective of our review was to
                                                                                     contract, applicable laws, directives, and
                                    determine whether the Authority followed
                                                                                     regulations. The Authority did not
                                    HUD regulations and requirements in the


                            HUD’s Public and Indian Housing Programs                                                             46
administer its programs in an efficient,       Also, the Authority had implemented
effective, and economical manner.              effective controls over the tenant eligibility,
                                               certification procedures, and tenant rent
    We concluded that the Authority’s          subsidy functions and had complete, well-
management controls were too weak to           maintained tenant files and rent subsidy
ensure that it complied with the terms and     documentation.
conditions of its annual contributions
contract, applicable laws, directives, and          We recommended repayment to the
regulations.                                   Authority’s program accounts for the
                                               ineligible costs and any of the unsupported
     We recommended that HUD assure            costs for which adequate supporting




                                                                                                 Public & Indian Housing Programs
the Authority reimburses the applicable        documentation could not be provided. We
program more than $676,000 from                also recommended changes to accounting
nonfederal funds for the inappropriate         controls and procedures to ensure
expenses cited in this report, provides        compliance with HUD’s requirements and
documentation to support more than             accounting principles. (Audit Report:
$850,000 for the unsupported funds cited       2005-DE-1002)
in this report or reimburses the applicable
program from nonfederal funds,                      We audited the activities of the
recaptures more than $2.3 million in           Stockton, CA, Housing Authority of the
program funds not used, and implements         County of San Joaquin to determine
procedures and controls to correct the         whether the Authority (1) used low-rent
weaknesses cited in the report. (Audit         housing program funds for non-low-rent
Report: 2005-BO-1001)                          housing program expenses and (2)
                                               followed Federal requirements and its own
     We audited Boulder, CO, County            procurement policies and procedures. In
Housing Authority. Our audit objectives        addition, we determined whether
were to determine the effectiveness of the     allegations received in two complaints were
controls over and accounting for the receipt   valid.
and use of HUD funds, evaluate the
effectiveness of the controls over HUD-             It was determined that the Authority
funded personnel functions, and determine      improperly awarded more than $3.3 million
the effectiveness of HUD-funded tenant         in contracts for goods and services. We
eligibility and certification procedures and   attribute this to the Authority’s
evaluate controls over tenant rent             decentralized procurement process, which
subsidies.                                     allowed department managers to procure
                                               goods and services without following
    The Authority did not properly use         Federal regulations and its own adopted
HUD funds, which resulted in at least          policies. The Authority misused more than
$433,000 in ineligible and $123,000 in         $5.5 million in low-rent housing program
unsupported costs. The internal controls       funds to pay for its non-low-rent housing
over and procedures for accounting             program expenses. We attribute the
functions were inadequate and used             Authority’s misuse of low-rent housing
inappropriate accounting practices. We         program funds to poor management
determined that the personnel functions        decisions, as well as the lack of adequate
performed by Authority staff were              controls in place to safeguard low-rent
effectively completed and documented.          housing funds. We validated the primary


HUD’s Public and Indian Housing Programs                                                         47
                                    allegations in two complaints and determined      accessible housing units. HUD’s construction
                                    that the Authority’s former Executive             analyst estimated that more than $5 million
                                    Director awarded consulting contracts to          in repairs and more than $192,000 for unit
                                    what appeared to be friends or colleagues.        renovations was needed to meet HUD’s
                                                                                      uniform physical condition standards and
                                         We recommended that HUD require the          Federal accessibility standards. The Housing
                                    Authority to terminate all current legal and      Commission allowed new tenants with
                                    security services contracts and issue new         criminal convictions to be housed and did
                                    requests for proposal, establish a centralized    not evict existing tenants with known
                                    procurement department, cease the practice        criminal convictions in violation of HUD’s
                                    of using low-rent housing funds to pay for        “one strike” policy. The Housing
Public & Indian Housing Programs


                                    non-low-rent housing purchases and                Commission also inappropriately paid more
                                    expenses, reimburse the low-rent housing          than $3,000 for travel expenses for its Board
                                    program more than $154,000 from                   attorney, and it approved approximately
                                    nonfederal funds in accrued interest for          $8,000 for a new project sign changing the
                                    misusing more than $5.5 million in low-rent       name of an existing project without HUD’s
                                    housing program funds, reimburse the low-         prior approval.
                                    rent housing program $518,559 from
                                    nonfederal funds for ineligible and                   We attributed these conditions to the
                                    unsupported costs incurred by its non-low-        Housing Commission’s Board of
                                    rent housing programs, and establish better       Commissioners not allowing its former
                                    controls to ensure that low-rent housing          Executive Director to hire, evaluate, and fire
                                    program funds are used only for that              maintenance and administrative staff and
                                    program’s related expenditures. (Audit            contractors in a timely manner without prior
                                    Report: 2005-LA-1001)                             Board approval. The Housing Commission’s
                                                                                      Board also disagreed with HUD’s
                                         We completed an audit of the Royal Oak       requirements regarding its role and
                                    Township Housing Commission’s Public              authority.
                                    Housing Program of Ferndale, MI. We
                                    selected the Housing Commission for audit              We recommended that HUD require the
                                    based on two citizen complaints. The              Housing Commission to (1) reimburse its
                                    complainants alleged that the Housing             public housing program from nonfederal
                                    Commission’s public housing units were in         funds for the inappropriately used monies
                                    poor physical condition, tenants were housed      and (2) implement procedures and controls
                                    contrary to HUD’s requirements, and public        to correct the weaknesses cited in this report.
                                    housing funds were misspent.                      We also recommended that HUD take strong
                                                                                      administrative action against the Housing
                                         The Housing Commission’s housing             Commission’s Board of Commissioners for its
                                    units were in poor physical condition. A HUD      improper oversight of the Housing
                                    construction analyst inspected 32 statistically   Commission. (Audit Report: 2005-CH-1003)
                                    selected housing units and identified 1,166
                                    deficiencies that did not meet HUD’s uniform          We completed an audit of the Los
                                    physical condition standards and Federal          Angeles, CA, Housing Authority of the City
                                    handicap accessibility requirements. The          of Los Angeles’ procurement actions and
                                    Housing Commission also did not meet the          contract management as they relate to
                                    uniform Federal accessibility standards for       activities of its resident management
                                    access and the required number of handicap-       corporations/resident advisory councils. We


                            HUD’s Public and Indian Housing Programs                                                              48
found significant problems with the               Commissioners to create internal controls to
Authority’s procurement and management            prevent, detect, and resolve the improper
of contracts it entered into with its             pledging of HUD assets and conflict of
resident management corporations and              interest situations. (Audit Report: 2005-PH-
consultant. The report recommended that the       1001)
Authority refund or provide documentation
to support $1.8 million in ineligible and
questioned costs and take actions to
strengthen its procurement and contract
management processes. (Audit Report: 2005-
LA-1805)




                                                                                                       Public & Indian Housing Programs
Public Housing Authority
Activities with Related
Nonprofit/Nonfederal Entities
     We performed an audit at the Lehigh
County Housing Authority of Emmaus, PA,
in response to a complaint. The complainants
alleged the Authority used HUD funds
improperly to benefit its affiliated nonfederal
entity known as Valley Housing
Development Corporation.

      We found that the Authority improperly
used HUD funds to develop and support its
affiliated nonfederal entities. Further, our
audit identified an apparent conflict of
interest regarding the Executive Director’s
relationship with the Authority’s affiliated
nonfederal entities.

     We recommended that HUD take
action, if appropriate, to declare the
Authority in substantial default of its
consolidated annual contributions contract
and direct the Authority to take immediate
action to remove its remaining encumbrances
of $130,000 in HUD assets. We also
recommended that HUD require the
Authority to recover approximately $13,000,
which it improperly provided its affiliated
entities, or repay the amount from nonfederal
funds. Lastly, we recommended that
HUD direct the Authority’s Board of               Copyright, 2004. The Morning Call - Allentown, PA.
                                                  Reprinted with permission.



HUD’s Public and Indian Housing Programs                                                               49
                                         We performed a second audit of the                 recommended that HUD require the
                                    Lehigh County Housing Authority in                      Authority to implement an equitable method
                                    response to a complaint in Emmaus, PA. Our              of allocating administrative expenses to its
                                    audit objectives were to determine whether              nonfederal entities and to reimburse more
                                    the Authority could adequately support its              than $726,000 to the public housing program
                                    use of HUD funds and whether it used HUD                for ineligible salaries and administrative costs
                                    funds to develop and support its affiliated             it provided to its nonfederal entities. The
                                    nonfederal entities.                                    Authority acknowledged that it could not
                                                                                            adequately support costs during the audit
                                          Contrary to its annual contributions              and did not have a certified costs allocation
                                    contract, the Authority could not always                plan. It also agreed to pass Board resolutions
Public & Indian Housing Programs


                                    support expenditures made with HUD funds                approving new procedures needed to ensure
                                    and used HUD funds to develop and support               it properly supports and allocates costs.
                                    its affiliated nonfederal entities. The Authority       (Audit Report: 2005-PH-1007)
                                    could not provide adequate documentation
                                    to support $4 million in expenditures it made                We reviewed the Durham, NC,
                                    from January 2001 to December 2003 using                Housing Authority’s financial operations and
                                    HUD public housing and Section 8 program                procurement procedures. Our audit
                                    funds. During the same period, the Authority            objectives were to determine whether the
                                    also used an estimated $726,000 in HUD                  Authority’s misuse of funds jeopardized its
                                    funds to pay salary and administrative costs            ability to operate its projects in a manner that
                                    of its affiliated nonfederal entities.                  promotes serviceability, economy, efficiency,
                                                                                            and stability and whether the Authority
                                         We recommended that HUD require                    followed HUD procurement regulations.
                                    the Authority to provide adequate
                                    documentation to fully support its                          The Authority jeopardized project
                                    disbursement of $4 million of HUD funds that            stability by misusing funds to subsidize
                                    it could not properly support or reimburse              operations of Development Ventures, Inc.
                                    HUD from nonfederal sources. We also                    (DVI), a nonprofit subsidiary. As of June 30,




                                                Copyright, 2004. The Herald Sun - Durham, NC. Reprinted with permission.



                            HUD’s Public and Indian Housing Programs                                                                     50
2004, DVI owed $4.1 million to the                 and future reserve funds of more than $102
Authority. At its current rate of spending,        million will be used prudently and
we estimated the Authority had enough              expediently to improve the condition of the
funds to continue operations for about 7           Authority’s more than 6,700 low-rent
months.                                            housing units and provide suitable housing
                                                   to nearly 3,000 households on its Section 8
     The Authority inappropriately procured        and low-rent waiting lists. (Audit Report:
about $6.9 million and cannot support              2005-PH-1008)
another $953,000 for goods and services. In
our opinion, the Authority can increase the             We reviewed the Housing Authority of
effectiveness of its procurement activities for    the City of Charleston, SC. We found the




                                                                                                      Public & Indian Housing Programs
the $2.2 million in capital funds by developing    Authority did not support its allocations of
and implementing improved procurement              more than $8.9 million and costs of more
procedures that comply with procurement            than $6.6 million in salaries, wages, and
regulations.                                       fringe benefits that were charged to the
                                                   Federal programs as required. Authority
     We recommended that HUD require the           officials believed their allocation method
Authority to (1) devise plans with multiple        complied with the requirements. However,
strategies for resolving both its short-term and   without support to substantiate the
long-term financial problems, (2) repay            allocations and costs of actual services
approximately $6.9 million to its programs         performed by personnel or some type of
from nonfederal funds, and (3) provide             quantifiable measures of employee effort, the
support for another $953,000 of questionable       Authority may not have accurately charged
expenditures. (Audit Report: 2005-AT-1004)         the Federal programs. In addition, the
                                                   Authority transferred $400,000 of its Section
     As result of our audit review of the          8 administrative fee reserves to its Housing
Housing Authority of the City of Pittsburgh,       Finance Agency. When the Authority
PA’s implementation of its Moving to Work          transferred the funds to its Housing Finance
demonstration program, we found the                Agency account, HUD lost visibility of the
Authority was not able to develop and              funds and could not monitor the funds to
implement an effective strategy to fully use       ensure they were properly spent.
the freedom and flexibility of the Moving to
Work program. Since entering the program                We recommended that HUD require the
in November 2000, the Authority has                Authority to provide documentation to
accumulated more than $81.4 million in             justify the more than $8.9 million in allocated
HUD funds and an additional $21.2 million          costs and $6.6 million in costs without
in the first and final year of its agreement.      supporting certifications and ensure the
However, the Authority lacked the capacity         Authority makes appropriate adjustments
to implement all components of its Moving          to the various programs. Also, we
to Work plan.                                      recommended that HUD require the
                                                   Authority to develop a reasonable method
    We recommended that HUD not extend             for allocating its future costs to include daily
the Authority’s current agreement after it         activity reports and semiannual
expires on December 31, 2005, and develop          certifications for services performed by its
and implement a workable strategy to               personnel. Further, we recommended that
transition the Authority out of the program.       HUD require the Authority to transfer the
This process will ensure that accumulated          $400,000 of Section 8 administrative fee


HUD’s Public and Indian Housing Programs                                                              51
                                    reserve funds back to the reserve account,            The Authority advanced more than
                                    along with the interest earned on the funds.     $316,000 to its private housing program, Little
                                    (Audit Report: 2005-AT-1002)                     River Management, without specific HUD
                                                                                     approval. The advances were made because
                                         We reviewed the Birmingham, AL,             the private housing program did not have
                                    Jefferson County Housing Authority’s             sufficient income to pay its obligations and
                                    administration of its housing development        reimburse the Authority. The Authority
                                    activities. Our primary objective was to         repaid the HUD program approximately
                                    determine whether the Authority had              $249,000, the amount owed at May 31, 2004;
                                    diverted or advanced resources subject to its    however, it continued to advance funds. As
                                    low-income housing annual contributions          of May 31, 2004, another $43,000 had been
Public & Indian Housing Programs


                                    contract or other low-income housing             advanced. The repayment included the
                                    agreements or regulations to the benefit of      cash payment and an adjustment of
                                    the other entities without specific HUD          approximately $121,000 that the Authority
                                    approval.                                        did not support. As a result, more than
                                                                                     $359,000 in ineligible advances reduced
                                         The Authority advanced more than            funds for its public housing program needed
                                    $771,000 and inappropriately used $396,000       to serve its low-income residents. In addition,
                                    to pay the expenses of its programs and          the Authority failed to realize approximately
                                    nonprofit entities, including affiliated         $15,000 in interest income because the funds
                                    nonprofit corporations, in excess of the funds   were not available for investment. The
                                    the programs or entities had on deposit. These   Authority did not support its allocation of
                                    actions occurred because the Authority did       administrative and maintenance salary costs
                                    not have adequate controls in place to           with activity reports or equivalent
                                    monitor the revolving fund account. For fiscal   documentation as required. The Authority
                                    years (FY) 2000 through 2003, the Authority      also executed five loan agreements for the
                                    did not support $3.3 million in salary costs     purchase of private property that put more
                                    allocated for Federal programs for employees     than $1.4 million of its HUD funds at risk.
                                    dividing their time among several programs.      The agreements included set-off provisions
                                                                                     that allowed the lender to withdraw the
                                         We recommended that HUD require the         HUD funds on deposit if the loan payments
                                    Authority to settle the more than $771,000       were not made.
                                    or current balance owed to the revolving fund
                                    account and repay the $396,000 balance. We            We recommended that HUD require the
                                    also recommended that HUD require the            Authority to repay more than $43,000 in
                                    Authority to provide documentation to            funds that were advanced and $15,000 in
                                    justify the $3.3 million in salary charged to    interest lost from nonfederal sources, ensure
                                    Federal programs from 2000 through 2003.         that no further advances are made without
                                    (Audit Report: 2005-AT-1006)                     prior HUD approval, and provide
                                                                                     documentation to support the adjustment of
                                         We reviewed the Carrollton, GA,             more than $120,000 or reimburse its public
                                    Housing Authority of the City of Carrollton’s    housing program. We also recommended
                                    administration of its housing development        that HUD require the Authority to take
                                    activities as part of our audit of HUD’s         immediate action to terminate the agreements
                                    oversight of PHA development activities with     that have put more than $1.4 million in HUD
                                    related nonprofit entities.                      funds at risk by either seeking a waiver of
                                                                                     the set-off provisions, closing its accounts with


                            HUD’s Public and Indian Housing Programs                                                               52
the local lender, or refinancing the loans with             We found the Authority cannot account
another lender. (Audit Report: 2005-AT-                for more than $5.1 million in Indian Housing
1001)                                                  Block Grant funds. The Authority’s financial
                                                       management system was unauditable
      In Huntington, WV, we performed an               because the financial statements, general
audit at the Huntington Housing Authority              ledger, and subsidiary ledgers for FY 1999
in response to a complaint. Our audit                  through 2001 are not complete and accurate
objective was to determine whether the                 as required. Further, the Authority did not
Authority properly used HUD funds to                   obtain the necessary financial statement
develop and support its affiliated nonfederal          audits for FY 2002 and 2003. As a result, the
entities. While the Authority was generally            Authority cannot provide reasonable




                                                                                                       Public & Indian Housing Programs
prudent and did not guarantee debt of its              assurance that its Indian Housing Block Grant
affiliated nonfederal entities, it sometimes           funds helped the intended beneficiaries. In
improperly used HUD funds to develop and               our opinion, this occurred because the Board
support its nonfederal entities. It did not            of Commissioners and the Authority’s
allocate all relevant salary costs to its affiliated   management did not have effective control
Housing Development Corporation,                       of Authority accounting operations.
contrary to its annual contributions contract.
As a result, from July 1999 to June 2004, the              We recommended that HUD take
Authority improperly paid salaries estimated           administrative action to ensure the Authority
at $320,000 from Federal funds for work its            complies with program requirements and
employees performed for this nonfederal                require the Authority to return any Indian
entity. We also estimated that in the future,          Housing Block Grant funds not used for
the Authority will be able to better use more          authorized purposes. (Audit Report: 2005-
than $46,000 annually by properly                      SE-1001)
accounting for and allocating the work its
employees perform for its nonfederal entities.         Corrective Action Verification
We recommended that HUD require the
Authority to recover more than $320,000                Review
from the Housing Development Corporation
for employee salary expenses not properly                   We performed a corrective action
allocated to the nonfederal entity or repay it         verification review of the actions the
from nonfederal funds. We also                         Baltimore, MD, Housing Authority of
recommended that the Authority develop a               Baltimore City had taken to implement key
reasonable method for allocating its future            recommendations cited in OIG Audit
cost to its nonfederal entities, thereby putting       Report 2001-PH-1003, issued March 28,
more than $46,000 to better use annually.              2001. As of September 22, 2004, HUD
(Audit Report: 2005-PH-1002)                           determined the Authority had fully
                                                       implemented final actions on all of our
     In Marysville, WA, we performed an                prior recommendations. Our overall
audit of the Tulalip Tribes Housing                    objective was to determine whether the
Authority’s block grant to determine whether           Authority implemented our key audit
the Authority established and operated its             recommendations and corrected the
program in accordance with HUD                         deficiencies we identified in our previous
requirements for financial management                  audit report.
systems.



HUD’s Public and Indian Housing Programs                                                               53
                                          The Authority had not yet                     PHA Pension Plan Forfeiture
                                    fully implemented all key OIG
                                    recommendations. This resulted in part              Policy
                                    because the severity of the problems in the
                                    Section 8 program required more time to                  The objective of this internal audit was
                                    correct than the Authority had originally           to determine the amount of funds that could
                                    anticipated. However, the delays the                be put to better use if HUD changes its policy
                                    Authority experienced in implementing its           and requires PHAs with private defined
                                    management information system adversely             contribution pension plans to return pension
                                    affected its ability to fully implement the other   plan forfeitures to the benefit of contributing
                                    recommendations. We found the Authority             Federal programs. HUD’s current policy
Public & Indian Housing Programs


                                    had not yet fully developed and implemented         allows housing authorities with defined
                                    all the financial system controls necessary to      contribution pension plans to reallocate
                                    ensure its books and records were maintained        forfeitures of separating employees to other
                                    in accordance with HUD requirements and             plan participants or to reduce employer
                                    adequate procedures were followed to fully          contributions or administrative costs. The
                                    budget and use its available Section 8              policy that permits authorities to allocate
                                    resources. Although HUD had closed these            forfeitures to other plan participants is
                                    recommendations, we found the Authority             inconsistent with the Office of Management
                                    was still developing and implementing               and Budget’s (OMB) cost principles for State,
                                    appropriate processes to address and resolve        local, and Indian Tribal Governments, OMB
                                    these remaining issues.                             Circular A-87. The cost principles require the
                                                                                        Federal Government to receive an equitable
                                         Based on our review, we reopened               share of any previously allowed pension costs
                                    recommendations that addressed the                  that reverts or inures to the governmental
                                    Authority’s need to improve its financial           unit. We believe that HUD could put about
                                    system controls and key components over its         $5,300,000 per year to better use if it requires
                                    administration of the Section 8 program. We         housing authorities to refund or credit
                                    also recommended that HUD immediately               pension plan forfeitures to the Federal
                                    recapture $25.1 million of the $38 million in       housing programs that incurred the original
                                    the Authority’s reserve account and require         pension costs.
                                    the Authority to repay or reimburse the
                                    program for more than $70,000 of ineligible              We recommended that the Office of
                                    expenses. (Audit Report: 2005-PH-1004)              Public and Indian Housing process a policy
                                                                                        revision and promptly distribute the policy
                                                                                        to the housing authorities. (Audit Report:
                                                                                        2005-FW-0001)




                            HUD’s Public and Indian Housing Programs                                                                 54
  Investigations                                              PHA Management and Program
                                                              Officials/Employees
       During this reporting period, the OIG
   opened 389 investigation cases and closed                        In Springfield, MA, a Federal grand
   253 cases in the public and Indian housing                 jury in Springfield, MA, returned a
   program area. Judicial action taken on                     superseding indictment in which Raymond
   these cases during the period included                     Asselin, Sr., and Arthur Sotirion (the former
   $79,673,692 in investigative recoveries,                   Executive Director and Deputy Executive
   $20,679,282 in funds put to better use,                    Director, Springfield Housing Authority)
   590 indictments/informations, 284                          were charged with four additional counts
   convictions/pleas/pretrial diversions, 887




                                                                                                              Public & Indian Housing Programs
                                                              of bribery and John Spano (vendor) was
   administrative actions, 9 civil actions, 15                charged with one additional count of
   personnel actions, and 1,419 arrests.                      bribery on January 11, 2005. Raymond
                                                              Asselin, Sr., was charged with two
        The results of our more significant                   additional counts of witness tampering;
   investigations are described below. Some                   Raymond Asselin, Sr., Raymond Asselin,
   of the investigations discussed in this report             Jr. (son), Maria Serrazina (daughter), James
   were conducted by OIG, while others were                   Asselin (son), and Peter Davis (vendor)
   conducted jointly with Federal, State, and                 were charged with five additional counts
   local law enforcement agencies.                            of obstruction of justice; Raymond Asselin
                                                              Sr., Janet Asselin (wife), Arthur Sotirion,
           Chart 3.3: PIH Recoveries                          and Paul Bannick (vendor) were each
                                                              charged with five counts of filing false
    Section 8                          Other                  income tax returns. A criminal forfeiture
      96%                               4%                    was also filed against the following
                                                              individuals: (1) Raymond Asselin, Sr., and
                                                              Janet Asselin against property located at
                                                              115 Mayfair Avenue, Springfield, MA;
                                                              property at 56 Stage Island Road,
Total Recoveries: $79,673,692
                                                              Chatham, MA (Cape Cod); a 2002 BMW;
                                                              a 23-foot Chaparral boat; and $290,650 in
                                                              U.S. currency seized during the execution
    Chart 3.4: PIH Funds Put to Better Use                    of Federal search warrants at the house of
                                       False                  Raymond Asselin, Sr., Janet Asselin, and
             Contract
                            Other
                                    Statements                Maria Serrazina; (2) Arthur Sotirion for
              Fraud                     7%
Embezzlement   10%           3%               Fugitive        property located at 811 Dickinson Street,
    10%                                    Felon Initiative   Springfield, MA; undeveloped property
                                                10%
                                                              located on Little Diamond Island, ME; and
                                                              a time-share located in Aruba; (3)
                                                              Christopher Asselin (son) and Merylina
                                                              Asselin (daughter-in-law) for property
                                             Non-HUD
                Section 8
                              PHA Fraud      Employee         located at 184 Bowles Park Ext.,
                  40%
                                 6%            14%            Springfield, MA; (4) James Asselin for
Total: $20,679,282                                            property located at 16 Dwight St.,
                                                              Springfield, MA; (5) Joseph Asselin (son)
                                                              and Melinda Asselin (daughter-in-law) for


   HUD’s Public and Indian Housing Programs                                                                   55
Public & Indian Housing Programs



                                    Copyright, 2004. The Republican - Springfield, MA. Reprinted with permission.


                                    property located at 518 Old Farm Road,                    restitution after she pled guilty to one count
                                    Amherst, MA; and (6) Maria Serrazina for                  of a two-count indictment in the U.S.
                                    property located at 140 Sallie Circle,                    District Court of Kansas, Topeka, KS.
                                    Ludlow, MA. All defendants appeared in                    Spangler was convicted for her intent to
                                    court on January 19, 2005 to plead not                    defraud in using one or more unauthorized
                                    guilty to the charges outlined in the                     access devices for using a U.S. Bank Visa
                                    superseding indictment.                                   business card, issued in the name of the
                                                                                              WHA, to obtain goods and services for her
                                         In Pittsburgh, PA, defendant Patti                   personal use. Spangler submitted a letter
                                    Braun, former accountant for the HUD-                     of resignation to the WHA Board on March
                                    funded Clarion County Housing Authority                   18, 2003, and immediately moved to
                                    (CCHA), was sentenced in Federal Court,                   Arizona and became employed at the
                                    Western District of Pennsylvania, based on                Maricopa County Housing Authority. The
                                    her previous admission of guilt to stealing               investigation revealed that the WHA was
                                    funds from the CCHA. Braun was ordered                    not receiving mail after Spangler moved to
                                    imprisoned for 18 months, to be followed                  Arizona. A check with the postmaster
                                    by 3 years probation. She was also ordered                revealed that Spangler had put a hold on
                                    to repay the CCHA $136,396. The                           the mail before her departure and was
                                    investigation revealed that over at least a               having the mail forwarded to her address
                                    10-year period, Braun embezzled funds by                  in Arizona. The credit card fraud was
                                    writing checks payable to herself, which                  discovered after the mail delivery to the
                                    she concealed by altering the electronic                  WHA had resumed. The WHA Board of
                                    check register to reflect that the checks had             Commissioners audited the financial
                                    been made payable to legitimate CCHA                      records and discovered that Spangler
                                    vendors.                                                  misused a WHA credit card issued in the
                                                                                              name of a former Executive Director and
                                         In Wamego, KS, Sheila L. Spangler, a                 two additional cards, the first under the
                                    former Executive Director of the Wamego                   name of a tenant in care of the WHA and
                                    Housing Authority (WHA), was sentenced                    second under Sheila Spangler in care of the
                                    to 6 months confinement and 60 months                     WHA. This misuse resulted in $33,000 in
                                    probation and ordered to pay $33,000 in                   losses.


                            HUD’s Public and Indian Housing Programs                                                                     56
     In Billings, MT, a Federal grand jury          Following their August 31 arrest, 10
for the District of Montana, returned a        employees of the Cuyahoga Metropolitan
four-count indictment charging Dwight          Housing Authority (CMHA), Cleveland,
Stewart, Wayne Other Medicine, and Billie      OH, were indicted for various State felony
Tall Bull with one count each of converting    charges in Cuyahoga County Common
property valued at $5,000 or more by           Pleas Court, Cleveland, OH. Lenard
falsifying or inflating travel expenses or     McClain, Supervisor, was indicted for theft
taking payroll advances. In addition, Crow     in the office, tampering with records, and
Tribal Housing Authority (CTHA) funds          bribery. Employees Gerald Ford, John
were used for personal purposes that           Tsolakis, and Ray Ellington were charged
included a trip to Disney World. The           in a conspiracy to commit theft in office




                                                                                                Public & Indian Housing Programs
indictment also indicated that the CTHA        and tampering with records. Employees
lost more than $10,000 as a result of each     Kevin Martin, James Jones, Darrel
of the defendants’ conduct and that each       Sampson, Alvin Roan, Keith Smith, and
defendant abused a position of trust. The      Leon David were also charged with felony
fourth count of the indictment charged         counts of tampering with records and
each of the defendants with embezzling,        misuse of a credit card. The investigation
stealing, and converting to their use or the   focused on payroll and overtime fraud,
use of another and willfully misapplying       specifically, being paid for working on
or allowing to be misapplied property          personal residences during regular work
belonging to the CTHA in violation of Title    hours and employees stealing CMHA
18 U.S.C. § 1163, Embezzlement and Theft       materials and using agency gas credit cards
from an Indian Tribal Organization.            for personal use, resulting in a total loss of
                                               approximately $20,000.
     In Newark, NJ, Miladys Gomez, a
former Assistant Administrator for the              In Orlando, FL, Federal Court, Middle
Perth Amboy Housing Authority,                 District of Florida, Courtney Escoffery,
appeared in United States District Court.      former Quality Assurance Director with the
Gomez pled guilty to four counts of theft      Orlando Housing Authority (OHA), was
of Section 8 funds (theft from programs        sentenced to 30 months incarceration and
receiving Federal funds). As Assistant         3 years supervised release and was ordered
Administrator for the Section 8 program        to pay restitution of $205,185 as a result of
for the Perth Amboy Housing Authority,         his guilty plea to one count of conspiracy
Gomez was responsible for the printing and     to embezzle funds.
issuing of housing subsidy checks to
landlords on behalf of Section 8 recipients.        The investigation disclosed that
She also secured and reviewed application      Escoffery and conspirators Randy Donawa
forms submitted by prospective                 and Kisha Stewart, former OHA
participants in the Section 8 program and      employees, used their positions to divert
updated computer records for the               approximately $424,853 from the OHA
program. Between April 1, 2000, and            Section 8 funds by changing landlord bank
January 23, 2004, Gomez used her access        routing codes in the OHA internal
to the checks to steal $407,603 in Section 8   computer system. The investigation
funds from the Perth Amboy Housing             revealed that Escoffery and Donawa used
Authority as well as using these checks for    stolen funds as seed money to start a
her own personal use.                          property management company and



HUD’s Public and Indian Housing Programs                                                        57
                                    purchased three condominiums they                         they were being wired to Davis’ personal
                                    intended to rent to Section 8 tenants.                    bank account. Previously indicted in the
                                                                                              Middle District of Florida were Randy
                                        Indicted in the Middle District of                    Donawa and Kisha Stewart.
                                    Florida on 42 counts of conspiracy to
                                    embezzle, embezzlement, theft concerning                      In Maquoketa, IA, defendant Miriam
                                    programs receiving Federal funds, and                     Brown, former Executive Director of the
                                    money laundering were Leslie Tourner,                     Maquoketa Housing Authority, was
                                    Brian Tourner, and Shawanna Glover. The                   charged in an information in Federal Court,
                                    Tourners and Glover were friends of                       Northern District of Iowa, with embezzling
                                    Stewart and Donawa, who diverted                          more than $50,000 from HUD. Defendant
Public & Indian Housing Programs


                                    approximately $219,668 in Federal funds                   Brown allegedly embezzled approximately
                                    into the Tourners’ and Glover’s bank                      $64,000 in a 3-year period by reimbursing
                                    accounts. Also indicted in the Middle                     herself for expenses that did not exist and
                                    District of Florida on eight counts of                    overpaying herself with unapproved bonus
                                    conspiracy to embezzle, embezzlement,                     and salary checks.
                                    theft concerning programs receiving
                                    Federal funds, and wire fraud was Samuel                       Marysol Morales, former Section 8
                                    Davis. Davis, the brother-in-law of                       Coordinator, Avon, MA, Housing
                                    Escoffery, conspired with Escoffery and                   Authority was indicted by a Federal grand
                                    Donawa to divert $86,000 in Section 8                     jury in U.S. District Court, Boston, MA, on
                                    funds from the OHA, which were                            three counts of bribery. Morales was
                                    purportedly being returned to the New                     arrested pursuant to a Federal arrest
                                    York Housing Authority when, in fact,                     warrant as a result of the indictment and




                                    Copyright, 2005. The Boston Globe - Boston, MA. Reprinted with permission.


                            HUD’s Public and Indian Housing Programs                                                                   58
was being held pending a detention               Ames, landlords of multiple market rent
hearing. These actions are the result of an      and Section 8 properties. The three civil
ongoing HUD-OIG investigation, which             administrative complaints were filed
revealed that Morales had solicited bribes       because the defendants repeatedly violated
from three Section 8 applicants ranging          The Lead Hazard Reduction Act by failing
from $2,600 to $6,000. It is also alleged that   to make required lead paint disclosures in
Morales issued more than 90 Section 8            at least 28 transactions, thereby preventing
vouchers that should not have been issued,       tenants from taking informed measures to
causing the housing authority to terminate       reduce or eliminate their exposure to lead-
more than 90 families from the Section 8         based paint. The following civil penalties
program. The 90 fraudulent Section 8             were proposed against the three landlords:




                                                                                                  Public & Indian Housing Programs
vouchers were valued at more than $1.3           Quinn $638,000, McDaniel $176,000, and
million, which caused the Avon Housing           Van Ames $132,000.
Authority to pay in excess of $50,000 per
month in housing assistance payments that             In Minneapolis, MN, the District of
it did not have. As a result of the              Minnesota, the U.S. Attorney’s Office, Civil
allegations, the Avon Housing Authority          Division, and David Ray Beaudet, landlord,
has also attached a lien against Morales’        reached a settlement, in which Beaudet
personal residence, located in Brockton,         agreed to pay $425,000. This followed an
MA, in the amount of $350,000, since she         investigation into allegations that the
had placed the property up for sale.             conditions of the lease for various females
Morales was fired from her job at the Avon       were based on their granting him sexual
Housing Authority on December 30, 2004.          favors. Beaudet owns 36 properties in the
                                                 St. Paul, MN area, more than half of which
     In Gary, IN, a criminal complaint was       are subsidized by Section 8 payments from
filed in the Superior Court of Lake County,      the St. Paul Housing Authority.
Crown Point, IN, against Yolanda Denise
Hughes, the Payroll Coordinator for the          Investigations Involving Public
Gary Housing Authority, for her role in a
scheme to embezzle funds from the                Officials
authority. According to the complaint,
Hughes was alleged to have used her                   In Boston, MA, Hans Fretthlor-
position in the Payroll Department to            Verduzco and Jesus Oritiz Durazo were
“pad” her paychecks over and above her           arrested at the Bunker Hill Public Housing
salary for approximately $45,000 during          Development in Boston, MA. Fretthlor-
the years 2003 and 2004. Moreover, the           Verduzco was charged with offering bribes
complaint alleged that Hughes used these         to a public official, cocaine trafficking in a
funds for the purchase of clothing, jewelry,     school zone, and conspiracy to violate drug
and a second vehicle.                            laws. Durazo was charged with cocaine
                                                 trafficking in a school zone and conspiracy
Violation of Tenant Rights                       to violate drug laws. Seized during this
                                                 arrest was one kilogram of cocaine. Also,
                                                 a State search warrant was executed at
    In Skowhegan, ME, three civil
                                                 Fretthlor-Verduzco’s apartment located in
administrative complaints were filed with
                                                 the Harbor Point Housing Development.
HUD’s Administrative Law Judge against
                                                 Twenty-six pounds of marijuana and
Colin Quinn, Stephen McDaniel, and Van
                                                 $4,300 in U.S. currency were seized during


HUD’s Public and Indian Housing Programs                                                          59
                                    the search. The arrests and indictment were    International, Inc., pled guilty to
                                    the result of an incident in January 2004      conspiracy to violate the Clean Air Act and
                                    when Hans A. Fretthlor-Verduzco                mail fraud. Griffin International provides
                                    approached two Special Police Officers         project design, project monitoring and air
                                    from the Harbor Point Housing                  monitoring to firms performing asbestos
                                    Development Public Safety Department           abatement. The charges arose from an
                                    who were paid with HUD Drug                    illegal agreement between Griffin
                                    Elimination Grants funds. Fretthlor-           International and Parker Environmental
                                    Verduzco offered cash bribes to the Special    Management Group. Griffin took
                                    Police Officers if they agreed to protect      fraudulent air monitoring samples and
                                    Fretthlor-Verduzco from other police while     permitted Parker Environmental to
Public & Indian Housing Programs


                                    Fretthlor-Verduzco sold cocaine and            perform illegal asbestos work practices
                                    marijuana in and around the Harbor Point       during an abatement project at the
                                    Housing Development, a Boston public           Plattsburgh Housing Authority. Griffin
                                    housing development. The two Special           International was sentenced to 3 years
                                    Police Officers informed HUD-OIG and the       probation and was ordered to pay a fine
                                    Massachusetts State Police of Fretthlor-       totaling $199,302.48 in U.S. District
                                    Verduzco’s bribe attempt, and an               Court, Northern District of New York.
                                    investigation was initiated.
                                                                                       Also, Felipe Escobar, Project
                                    Grand Theft/False Statements/                  Supervisor for Parker Environmental, was
                                                                                   sentenced to 9 months of home
                                    Conspiracy                                     confinement and 4 years of supervised
                                                                                   release and was ordered to pay restitution
                                        In Syracuse, NY, Andre Parker,             of $200,000 to the Plattsburgh Housing
                                    President and Owner of Parker                  Authority. He was sentenced based on his
                                    Environmental Management Group, Inc.,          plea to a one-count information for
                                    appeared in Federal Court, Northern            conspiring to violate the Clean Air Act and
                                    District of New York, and was sentenced        the Comprehensive Environmental
                                    to 48 months in prison. Parker                 Response, Compensation, and Liability
                                    Environmental Management Group, Inc.,          Act. Escobar illegally removed and
                                    was also sentenced to 2 years of probation.    disposed of asbestos-containing material
                                                                                   from buildings of the Plattsburgh Housing
                                         Parker and Parker Environmental           Authority.
                                    Management Group were found guilty of
                                    22 felony counts for conspiracy to violate          In Hamilton, OH, Geovanny Cuevas,
                                    the Clean Air Act, conspiracy to violate the   a former Butler Metropolitan Housing
                                    Superfund Act, mail fraud, and making          Authority (BMHA) tenant and employee,
                                    false claims. In 2001, Parker directed         was sentenced to 6 months imprisonment,
                                    employees of Parker Environmental              3 years probation, and court ordered
                                    Management Group to illegally remove           restitution in the amount of $1,000,
                                    asbestos from 31 buildings of the              following her conviction at a jury trial in
                                    Plattsburgh Housing Authority. Thereafter,     September 2004. During that trial, Cuevas
                                    Parker’s employees dumped hundreds             was found guilty of grand theft in the
                                    of bags of asbestos throughout the             Hamilton County Court of Common Pleas
                                    City of Plattsburgh. Previously, Griffin       for her role in receiving approximately



                            HUD’s Public and Indian Housing Programs                                                        60
$17,000 in overpaid housing subsidies                In Chicago, IL, the Circuit Court of
based on allegations that she maintained        Cook County, Barbara O Kennard, Section
a subsidized apartment in Brooklyn, NY,         8 tenant, pled guilty to a class two felony
while also occupying the unit in Ohio           following the information. The information
under the BMHA.                                 charged O Kennard of Hazel Crest, IL,
                                                with theft by deception in violation of
     In Oakland, CA, Shamia Nears, a            Illinois Compiled Statutes, chapter 720,
former Section 8 tenant with the Oakland        section 5/16-1(a)(2). On the same day, O
Housing Authority (OHA), and her                Kennard was sentenced to 30 months
mother, Doris White, were sentenced in the      probation, restitution in the amount of
State of California Superior Court for their    $40,150 payable at a rate of $200 per




                                                                                                Public & Indian Housing Programs
scheme to defraud the Alameda County            month, and court costs of $179.
Social Services, CalWORKS, Child Care
Links, and the OHA through false                     O Kennard accepted responsibility for
representations that Nears had three            the scheme, in which she occupied a newly
dependent children when she had none.           purchased home as a Section 8 tenant
In September 2004, Nears and White pled         despite the fact that she co-owned the
guilty to six felony counts of aid by           property with her sister who acted as the
misrepresentation, perjury, conspiracy to       landlord. Further, O Kennard listed her
commit a crime, and grand theft. In light       daughter as an unemployed family
of her conviction, Nears was sentenced to       member residing in the home when, in fact,
serve 16 months in prison and 5 years of        she did not reside in the home, was
parole and ordered to pay $123,361 in           employed, and received her own housing
restitution, of which $17,266 was due to        assistance out of De Kalb, IL. The total loss
the OHA. White, who was an abettor in           to HUD is $40,150.
this matter, received 30 days in county jail.
                                                     In Boston, MA, a civil complaint was
    In St. Louis, MO, Cedric Williams was       filed by the U.S. Attorney’s Office, District
sentenced in Federal Court to serve 12          of Massachusetts, under the False Claims
months in prison and ordered to pay             Act, against Delia J. Baez, a former public
$118,665 in restitution. Williams previously    housing tenant who had resided at the
pled guilty to conspiracy to commit wire        Boston Housing Authority (BHA)
fraud. Williams used his Section 8 residence    development known as Franklin Field. The
                                                complaint alleges that Baez obtained
to make credit card transactions using
                                                Federal financial assistance designed for
stolen credit card numbers. He
                                                the indigent through false claims as part
accomplished this by starting fictitious
                                                of the fraud.
businesses, opening business accounts, and
using a credit card reader to enter stolen           The complaint alleges that Baez
credit card numbers, which resulted in          applied for and received an apartment at
credits to his business accounts. In the same   Franklin Field, income assistance and foods
investigation, Mark Bateman was                 stamps from the Massachusetts Division of
sentenced to serve 18 months in prison and      Transitional Assistance, and Medicaid, all
ordered to pay $118,665 in restitution.         funded in whole or in part by the Federal
Bateman conspired with Williams to              Government. According to the complaint,
commit wire fraud, as described above.          Baez received more than $63,000 in such
                                                assistance. To obtain these benefits, Baez


HUD’s Public and Indian Housing Programs                                                        61
                                    represented on written applications and         $2,000 fine. Apana previously pled guilty
                                    certifications on numerous occasions that       to one count of conspiracy before Federal
                                    she had little income and that she had no       Magistrate Judge James Cohn (Southern
                                    assets when she had substantial assets,         District of Florida - Fort Lauderdale, FL).
                                    including commercial real estate in Jamaica     This sentencing was related to a 30-count
                                    Plain, MA (Mi Tierra Restaurant), and a         Federal grand jury indictment, which
                                    multifamily residence in Roslindale, MA.        charged Apana and seven coconspirators
                                                                                    with conspiring to steal Federal funds
                                        On August 13, 2002, the U.S. Customs        through the Pompano Beach Housing
                                    and Border Patrol service seized $62,552        Authority.
                                    from Baez at Logan Airport in Boston, MA,
Public & Indian Housing Programs


                                    while she was attempting to leave the                In the same case, in Ft. Lauderdale,
                                    United States by airplane. Baez admitted        FL, Debbie Nelson was sentenced to 60
                                    that she was the owner of the money. In         months supervised release and ordered to
                                    addition, Baez maintained a bank account        pay restitution in the amount of $24,855
                                    containing large sums of money and has          in addition to a $200 special assessment fee.
                                    admitted to receiving a substantial monthly     Nelson previously pled guilty to one count
                                    income. The civil complaint covers the          of conspiracy and one count of money
                                    period 2001 through 2004 and seeks treble       laundering before Federal Magistrate Judge
                                    damages and civil penalties.                    James Cohn (Southern District of Florida -
                                                                                    Fort Lauderdale, FL). This sentencing was
                                         In Farmington, UT, Henry Ross and          related to a two-count information that
                                    Theresa Holt, who are husband and wife,         charged Nelson and two coconspirators
                                    were sentenced by a Davis County Judge          with conspiring to steal Federal funds
                                    for Second District Court to each pay a fine    through the Pompano Beach Housing
                                    of $500, plus restitution amounting to          Authority. Also, in the same case, Nirmala
                                    $17,972. The judge ordered both                 Chandradat was sentenced to 36 months
                                    defendants to serve 36 months of probation      supervised release and ordered to pay
                                    after they each complete a specified period     restitution in the amount of $16,004 in
                                    of home detention. Ross was ordered to          addition to a $100 fine. Chandradat
                                    serve 90 days of home detention while his       previously pled guilty to one count of
                                    wife, Holt, was ordered to serve 45 days of     conspiracy. This sentencing was related to
                                    home detention. This sentencing was the         a 30-count Federal grand jury indictment,
                                    result of a previous guilty plea to one count   which charged Chandradat and seven
                                                                                    coconspirators with conspiring to steal
                                    of attempted communications fraud, a
                                                                                    Federal funds through the Pompano Beach
                                    third degree felony, resulting from their
                                                                                    Housing Authority.
                                    failure to report their true household
                                    income to the Davis County Housing
                                                                                         In Kensington, NH, Amy McPherson,
                                    Authority. This failure to report resulted      former Section 8 tenant, pled guilty to a
                                    in a $17,972 overpayment of Section 8           four-count information on February 28,
                                    subsidies on their behalf.                      2005, charging McPherson with making
                                                                                    false statements to the U.S. Government.
                                        In Ft. Lauderdale, FL, Arjunen Apana        The investigation disclosed that
                                    was sentenced to 36 months supervised           McPherson had ownership interest in the
                                    release and ordered to pay restitution in       Section 8 property for which she was
                                    the amount of $16,354 in addition to a          receiving her Section 8 rental subsidy. The


                            HUD’s Public and Indian Housing Programs                                                          62
first two counts of the information relate      community service. Waters and Flowers
to HUD, the third to the U.S. Department        accepted responsibility for a scheme, in
of Health and Human Services (HHS), and         which they occupied a newly purchased
the fourth to the U.S. Department of            home as co-occupants in spite of the fact
Agriculture (USDA). McPherson agreed to         they were both tenant and landlord. They
make restitution to the United States in the    used another coconspirator, Preston
amount of $98,854, but for the purposes of      Handcox, and his residence as a drop box
the criminal restitution, the amount            for the housing assistance payments.
ordered by the court should not exceed          Waters and Flowers would accept checks
$67,547. The $67,547 is based upon the          made out to Handcox from the housing
following loss amounts: $38,765 (HUD),          authority and deposit them in their joint




                                                                                                  Public & Indian Housing Programs
$5,756 (USDA), and $23,026 (HHS).               bank account. The total loss in this case is
                                                $48,000.
     In St. Louis, MO, Sharonda Jenkins
signed a pretrial diversion agreement in the         In the Bronx, NY, Karen Vidal was
U.S. District Court for Eastern Missouri in     arrested based upon a Federal arrest
which she admitted to making false              warrant that was issued by the U.S. District
statements to the St. Louis Housing             Court, Southern District of New York, for
Authority to receive excess rental              two counts of theft of government funds.
assistance payments. Jenkins had failed to      During this investigation, the Yonkers
report her income since 2002. Jenkins           Municipal Housing Authority observed
agreed to make restitution in the amount        that Section 8 checks for their tenant
of $15,863.                                     (Vidal) were being mailed to Vidal’s mother
                                                and not the Section 8 landlord. Starting in
     In San Juan, PR, defendant Eneida          October 2002 and continuing through
Soto-Rodriguez entered into an agreement        April 2004, Vidal received approximately
to reimburse the Department of Housing          $11,745 in Section 8 benefits. HUD-OIG
for the Municipality of San Juan $14,064.       determined that Vidal received her Section
During the years 1995 to 2000, Soto-            8 benefits through the 9/11 Victim’s
Rodriguez falsely stated no employment          Emergency Help and Housing, which was
income on her annual certifications to          established to assist individuals adversely
qualify for a Section 8 rent subsidy. Also in   affected by the 9/11 terrorist attacks. Vidal
this case defendant Jeannie Fuentes-            produced false documents to show that she
Carmona entered into an agreement to            lost her job due to the 9/11 terrorist attacks.
reimburse the Department of Housing for         The investigation determined that Vidal left
the Municipality of San Juan $19,910.           her employment before September 11,
During the years 1994 to 2001, Fuentes-         2001, making her ineligible for the Section
Carmona falsely stated no employment            8 vouchers that she received. Additionally,
income on her annual certifications to          the Social Security Administration (SSA)
qualify for a Section 8 rent subsidy.           OIG determined that Vidal fraudulently
                                                received approximately $28,235 in Social
     In the Circuit Court of Cook County,       Security disability benefits for her daughter.
Chicago, IL, Allison Waters, Section 8
landlord, and Patricia Flowers, Section 8            In Lucas County, Toledo, OH, Court
tenant, pled guilty to one felony count         of Common Pleas, Alfred Darah, Jr., and
following their January 2004 indictment.        Alice Faye Darah pled guilty to one count
They were each sentenced to 300 hours of        of attempted grand theft. Alfred Darah, a


HUD’s Public and Indian Housing Programs                                                          63
                                    Section 8 landlord, accepted responsibility      violating the California Penal Code. The
                                    for renting his subsidized unit to his mother    charges consisted of grand theft, welfare
                                    and failing to disclose her true relationship    fraud, and perjury. The complaint
                                    to him. He purportedly continued to collect      stemmed from an investigation, which
                                    housing assistance payments on the vacant        disclosed Bryant’s failure to report to the
                                    unit after she moved out. Finally, Darah         Housing Authority of Pittsburg her
                                    admitted to subleasing the unit and              boyfriend’s residency in the HUD-
                                    simultaneously collecting a Lucas County         subsidized unit and additional income
                                    Housing Authority payment and a market           Bryant derived from monies intended for
                                    rate rent check after his mother moved out.      a childcare provider. Bryant’s actions
                                    The approximate overpayment of behalf on         resulted in a loss of $162,381, of which
Public & Indian Housing Programs


                                    Alfred Darah is $7,100. Alice Darah              $46,000 was un-entitled housing benefits.
                                    accepted responsibility for falsely certifying
                                    to SSA from 1995 through 2004 that she           Identity Theft
                                    was separated from Alfred while they were
                                    occupying the same residence. The                    Defendant Jackie Morgan pled guilty
                                    approximate overpayment on behalf of             and was sentenced in Cuyahoga County,
                                    Alice Darah to SSA is $40,510.                   Cleveland, OH, Court of Common Pleas.
                                                                                     Morgan pled guilty to identity theft,
                                         In Norristown, PA, former Section 8         tampering with records, aggravated theft,
                                    tenant Anndria Smith Watkins pled guilty         possession of drugs, and trafficking in
                                    in State Superior Court to defrauding the        drugs. Her sentence was 66 months
                                    federally funded Section 8 rental assistance     incarceration and restitution totaling
                                    program, as administered by the                  $132,162.
                                    Montgomery County (PA) Housing
                                    Authority (MCHA), and also to defrauding              Morgan accepted responsibility for
                                    the Colonia School District through theft        receiving a public housing subsidy from the
                                    of services. A sentencing date has not been      New York City Housing Authority under
                                    determined. The investigation disclosed          the name Jackie Davis while receiving
                                    that from 1995 through 2002, the                 subsidy from the Cuyahoga Metropolitan
                                    defendant failed to disclose the residency       Housing Authority under the identity of
                                    and income of her husband on annual              Jackie Morgan. Further, Morgan admitted
                                    recertification forms she furnished to           obtaining a Section 8 rental voucher from
                                    MCHA and in so doing, obtained the               CMHA under the name Jackie Morgan
                                    benefit of approximately $39,000 in rental       while purchasing this same property under
                                    assistance to which the family was not           the name Elizabeth Spencer for $126,900
                                    entitled. Further, during this time, they        and acting as the landlord for housing
                                    purchased and moved into a home but              assistance payments.
                                    continued to send their three children                Morgan was originally arrested on
                                    outside of the proper school district in         August 1, 2003, at her Section 8 residence
                                    violation of State law, which amounted to        located at 4882 East 106th Street,
                                    $102,000 in theft of services.                   Cleveland, OH, under the Fugitive and
                                                                                     Felon Initiative. Morgan was arrested on
                                        In Martinez, CA, the Superior Court          an outstanding warrant for possession of
                                    of California, County of Contra Costa, an        drugs and/or preparation of drugs for sale,
                                    amended complaint was filed charging             and during the search, 100 pounds of
                                    Patricia Laverne Bryant with 25 counts of


                            HUD’s Public and Indian Housing Programs                                                          64
marijuana, $103,000 in cash, and three           public housing tenants and housing choice
vehicles were seized.                            voucher recipients with State wage data
                                                 reported by more than 22 States. HUD-OIG
     Lydia Irma Iniguez of La Puente, CA,        will supervise these matching projects and
a Section 8-assisted housing participant,        pursue any criminal cases identified from
was arrested and charged with obtaining          the results. Other Agency OIGs will work
aid by false statements. On September 27,        jointly with HUD-OIG on these potential
1998, Iniguez acquired title to a house          cases.
located in LaPuente, CA, using the name
Irma Cortez. Iniguez signed over her                 In addition, HUD-OIG initiated a data
ownership interest in the house to Claudia       comparison agreement with the National




                                                                                               Public & Indian Housing Programs
Garcia, (a separate and true individual).        Center for Missing and Exploited Children
Iniguez then transferred her Section 8           during this semiannual reporting period.
benefits to the house on November 11,            This data comparison is part of a new
1998, and told Los Angeles County                HUD-OIG national initiative to locate
Housing Authority personnel that her             missing children who are residing in HUD-
landlord was Garcia. In April of 2004,           funded housing.
Garcia granted the house back to Irma
Cortez. This was in violation of Iniguez’s            HUD-OIG also initiated a data
Section 8 housing assistance payment             comparison agreement during this
contract. Based on Iniguez’s false               semiannual reporting period with the U.S.
statements, the Authority made $52,392 in        Department of Homeland Security, Bureau
payments to Garcia.                              of Immigration and Customs Enforcement.
                                                 This data comparison initiative will locate
                                                 subsidized housing residents who failed to
The Office of Inspector General’s                depart the United States as ordered.
Enforcement Actions in Support of
                                                     HUD-OIG has a current data
the Rental Housing Integrity                     comparison agreement with the
Improvement Program                              Department of Justice, Criminal Justice
                                                 Information Services Division, and the U.S.
     In support of the HUD-OIG Rental            Marshal’s Service (USMS) in support of the
Assistance Fraud Initiative, HUD-OIG,            Fugitive Felon Program. This initiative
Office of Investigation, proactively initiated   attempts to identify fugitives receiving
additional computer matching agreements          HUD-funded rental assistance and target
during this semiannual reporting period.         them for arrest.
These new agreements will identify rental
assistance fraud by Federal employees and            In addition to these initiatives, HUD-
U.S. Postal Service employees. These two         OIG continues to explore and identify
groups of employees would not have been          proactive ways to identify fraud in HUD
captured in the HUD, Office of Public and        programs and assist Federal, State, and
Indian Housing, Rental Housing Integrity         local law enforcement.
Improvement Project (RHIIP) Upfront
Income Verification (UIV) computer                   In Miami, FL, on January 25, 2005, as
matching tool. UIV, now known as                 part of the Section 8 Initiative, HUD-OIG
Enterprise Income Verification, compares         Special Agents arrested six tenants and one
                                                 landlord on Federal housing fraud charges


HUD’s Public and Indian Housing Programs                                                       65
                                    stemming from a 9-month collaboration         OIG those employees, tenants, and
                                    with the United States Attorney’s Office,     landlords who are engaging in corruption
                                    Southern District of Florida, and three       and fraudulent activity involving the
                                    housing authorities. A Federal grand jury     Federal Section 8 subsidized housing
                                    separately indicted the defendants with       program.
                                    multiple counts of theft of federally
                                    subsidized housing funds and filing false          Throughout the State of Illinois, as
                                    statements to HUD. Collectively, the          part of “Operation Silver Fox,” on March
                                    defendants defrauded HUD of more than         21, 2005, 24 individuals with outstanding
                                    $139,000 in Section 8 housing subsidies.      felony warrants and 2 persons in
                                    The false statements provided by the six      possession of a controlled substance were
Public & Indian Housing Programs


                                    Section 8 subsidized tenants consisted of     arrested by agents from HUD-OIG, the
                                    concealing employment income,                 Great Lakes Regional Fugitive Task Force,
                                    concealing ownership of property,             and officers from the Rockford Police
                                    concealing ownership of businesses, and       Department and the Winnebago County
                                    undisclosed tenants. The seventh              Sheriff’s Office. The outstanding offenses
                                    defendant, a Section 8 landlord, sold the     include State of Illinois charges, involving
                                    property he rented under the program and      drugs, assault, weapons, and fraud. One
                                    continued to receive and negotiate subsidy    of those arrested was part of a recent
                                    checks for an 11-month period. One tenant     Bureau of Alcohol, Tobacco, and Firearms
                                    and the landlord have since pled guilty.      Federal indictment from the Northern
                                    This investigation and enforcement            District of Illinois. All of the arrests occurred
                                    operation resulted in a press conference in   in the city of Rockford at housing authority-
                                    which Inspector General Donohue and the       assisted units.
                                    United States Attorney addressed the
                                    importance of the nationwide effort to            More than 50 officers participated in
                                    eliminate fraud and corruption in Section     the early morning sweep, which
                                    8 subsidized housing and applauded the        concentrated on at least 15 of the Rockford
                                    efforts of the housing authorities that       Housing Authority’s developments. Each
                                    worked with OIG in this collaborative         of the individuals arrested was either a
                                    endeavor.                                     Rockford Housing Authority tenant or an
                                                                                  occupant of the unit. Among those items
                                         The U.S. Attorney’s Office, Public       seized were 100 rocks of crack cocaine.
                                    Corruption Section, indicted an employee
                                    of the Miami Dade Housing Agency for               Media coverage for the press
                                    defrauding the Section 8 subsidy program.     conference included three television
                                    Samuel Norris was charged with theft of       stations, two newspapers, and two radio
                                    government funds and making false             stations.
                                    statements to HUD. As a Supervisor in the
                                    Agency’s Leasing and Contracts Section for        In Worcester, MA, Inspector General
                                    more than 20 years, Norris certified that a   Kenneth Donohue attended a press
                                    third party was the legal owner of a          conference at the Worcester Housing
                                    property he owned and diverted $21,000        Authority (WHA) on October 28, 2004, to
                                    in Section 8 subsidy payments to himself.     highlight the continuing success of the
                                    The Miami Dade Housing Agency, the            Section 8/Fugitive Felon Initiative in
                                    largest housing authority in South Florida,   Worcester, MA, being conducted by the
                                    continues to be proactive in reporting to     WHA’s Department of Public Safety,


                            HUD’s Public and Indian Housing Programs                                                            66
Worcester Police Department (WPD),                      for eviction, and 8 removed from the
Massachusetts State Police (MSP), and                   program.
HUD-OIG.
                                                             In U.S. District Court at Chicago,
    On October 25, 2004, law enforcement                IL, in a parallel criminal/civil investigation
agents from the WPD, MSP, the Worcester                 known as “Operation EIGHT” (Enforcement
Housing Authority’s Department of Public                of Ineligible Grantees Housing Task Force),
Safety, and HUD-OIG conducted                           14 Section 8 tenants from the Chicago
reasonable suspicion inquiries at the                   Housing Authority (housing authority) were
Wellington Street Apartments, a PHA                     criminally charged for their participation in
development in Worcester, MA. Based on                  multiple schemes to defraud the housing




                                                                                                         Public & Indian Housing Programs
previous allegations of illegal residents               authority. These actions were the
living in the units, approximately 20                   culmination of a 3-year-long HUD-OIG
apartments were visited to determine the                proactive match between housing
validity of the allegations. On October 26,             authority tenants and employment
2004, law enforcement agents from the                   information from the Illinois Department
WPD, WHA, Department of Public Safety,                  of Employment Security. These individuals
and HUD-OIG obtained approximately 30                   were charged with making false
arrest warrants at Worcester, MA, Federal               statements and/or theft/embezzlement.
housing sites for outstanding State                     Among those schemes included in the
warrants as a continuation of its Fugitive              indictments were tenants having an
Felon Initiative. The Worcester Section 8/              ownership interest in the property they were
Fugitive Felon Initiative has resulted in               renting, a tenant collecting Section 8 and
more than 70 arrests; 11 have been referred             public assistance in both Wisconsin and




              Copyright, 2004. Chicago Sun Times - Chicago, IL. Reprinted with permission.



HUD’s Public and Indian Housing Programs                                                                 67
                                    Illinois, two tenants who vacated their        is fleeing to avoid prosecution for a felony,
                                    subsidized units while occupying FHA-          fleeing to avoid confinement for conviction
                                    insured residences, a tenant who cashed        of a felony, or violating a condition of
                                    housing assistance payments for her            probation or parole imposed for the
                                    deceased landlord, and tenants who failed      commission of a felony.
                                    to report substantial sums of income for a
                                    prolonged period of time.                           On September 25, 2002, the
                                                                                   Government Accountability Office (GAO)
                                        Among the individuals charged were         issued GAO Report No. 02-716, Welfare
                                    an employee of the Circuit Court of Cook       Reform: Implementation of Fugitive Felon
                                    County, two teachers from the Chicago          Provisions Should Be Strengthened. The GAO
Public & Indian Housing Programs


                                    Board of Education, and a former employee      report evaluated several agencies’ efforts
                                    of the Illinois Department of                  to implement various PRWORA provisions
                                    Transportation. On the same day, 12 of the     that related to fugitives receiving benefits
                                    14 individuals had civil complaints filed      from Federal assistance programs and
                                    against them for the following counts: false   critically noted that HUD had not
                                    claims, payment by mistake, and unjust         conducted a data match to identify
                                    enrichment. In summary, losses to the          fugitives receiving rental assistance. GAO
                                    housing authority exceeded $400,000            further determined that HUD had
                                    based on the alleged false statements in       effectively delegated its responsibilities to
                                    these cases. The names of those criminally     PHAs and that HUD had not monitored
                                    charged were as follows: Antoine Reed,         or evaluated the efforts of PHAs in this
                                    Michelle Lowe, Howard Wilson, Sovaya           regard.
                                    Chalmers, Tenille Davis, Johnnie Mae
                                    Willis, Bader Hafeez, Urena Woods,                  To assist HUD in its response to the
                                    Angela Gibbs, Rodon Bailey, Evelyn Griffin,    GAO report, OIG began a Fugitive Felon
                                    Charlette White, Juwana Foster, and            Initiative. The Fugitive Felon Initiative was
                                    Muhammad Abudullah.                            designed to identify fugitive felons residing
                                                                                   in federally funded assisted housing. OIG
                                    Fugitive Felon Initiative:                     recognized that, unlike some other Federal
                                                                                   agencies, neither HUD nor OIG is the body
                                    OIG Enforcement Action in                      that terminates the tenancy of a violator of
                                    Support of Rental                              the PRWORA statute. Rather, a third
                                                                                   party, generally PHA, manages the
                                    Assistance Voucher Fraud                       PRWORA violator’s tenancy. In addition,
                                                                                   OIG recognized that once the arrest of the
                                         Section 903 of the Personal               fugitive felon has occurred, the PRWORA
                                    Responsibility and Work Opportunity            fugitive provision making it a ground for
                                    Reconciliation Act of 1996 (PRWORA),           tenancy termination may be removed, as
                                    Pub. Law No. 104-193 (Aug. 22, 1996),          the subject is no longer a fugitive.
                                    amended 42 U.S.C. §§ 1437d(1)(9) and
                                    1437f(d)(1)(B)(v), makes being a fugitive           The OIG Fugitive Felon Initiative began
                                    felon a ground for the termination of          in FY 2003. Initially, the Fugitive Felon
                                    participation in federally funded assisted     Initiative used only USMS wanted person
                                    housing programs. A fugitive felon for the     data in an effort to identity fugitives. The
                                    purpose of this law is any federally funded    Office of Investigation identified a more far-
                                    assisted housing participant (tenant) who      reaching tool to implement this strategy by


                            HUD’s Public and Indian Housing Programs                                                          68
working with the Department of Justice’s             In Aurora, CO, HUD-OIG Agents and
Criminal Justice Information Service and        the Aurora Police Department conducted
matching its data in the National Criminal      a sweep, as part of the Fugitive Felon
Information Center for fugitive felons with     Initiative, at Weatherstone Apartments, a
HUD’s PIC and Tenant Rental Assistance          HUD Section 8 project-based housing
Certification System data on assisted living    development. The apprehension unit also
housing tenants.                                visited individually scattered Section 8
                                                voucher sites throughout Aurora.
     This data-matching is used by all          Weatherstone Apartments is located next
Investigation Regional Offices to assist with   door to a high school and, consequently, is
the OIG Section 8 Rental Assistance             a high priority for OIG. As a result of the




                                                                                               Public & Indian Housing Programs
Voucher Fraud Initiative in HUD-funded          sweep, Marcus Carter, Kencheze Ray,
public and multifamily housing to               Tyronne Peterson, Arlene Peterson,
apprehend fugitives residing in assisted        Jennifer Warn, Maria Herrera, Bridgette
housing. During this semiannual reporting       Hamilton, and Tammy Hill were
period, the Office of Investigation efforts     apprehended for having outstanding
in this initiative resulted in 824 fugitive     warrants. Donald Davis was arrested and
felon arrests.                                  charged with possession of drug
                                                paraphernalia and possession of marijuana
   The following cases reinforce the OIG        with intent to distribute. More than 91
commitment to the Fugitive Felon Initiative.    grams of marijuana was seized from Davis’
                                                apartment. Neisha Jones, Maria Herrera,
     In Boston, MA, on December 8, 2004,        Marcus Ramos, and Markitina Beverly
law enforcement agents from the Boston,         were issued municipal citations for various
MA, Police Department (BPD), BHA Police,        infractions of the law occurring during the
Massachusetts Department of Parole,             course of the felony sweep.
Massachusetts Department of Youth
Services, Massachusetts Bay Transit                  In Los Angeles, CA, pursuant to
Authority, and HUD-OIG, arrested 15             HUD-OIG’s National Fugitive Felon
individuals as part of an ongoing fugitive      Initiative, the Los Angeles HUD-OIG
felon initiative in the Metropolitan Boston     coordinated with the Los Angeles USMS
area. This particular fugitive felon sweep      Regional Fugitive Task Force in an attempt
focused on the BHA public housing               to effect 25 outstanding arrest warrants,
development known as Bromley Heath,             which were identified based on HUD-
located in the Jamaica Plain section of         OIG’s listing of wanted felons who were
Boston. Although the fugitive felon             simultaneously receiving Section 8 benefits.
initiative in Bromley Heath had been in the     This multiagency operation was successful
planning stages, following a meeting            in executing 13 of the 25 arrest warrants,
between the BPD Police Commissioner             all without incident. The 13 arrests made
Kathleen O’Toole and HUD-OIG, the               were pursuant to outstanding warrants for
initiative became a priority with BPD           various criminal violations including
following the rape of a 17-year-old female      felony fraud, possession of narcotics and
by 10 youths in the basement at Bromley         dangerous drugs, burglary, obstructing
Heath on November 29, 2004. Five of the         justice, assault with a deadly weapon,
ten suspects in this sexual assault were        counterfeiting, and welfare fraud. All
among the 15 that were apprehended in           individuals arrested were located at their
this initiative.                                respective subsidized residences within the


HUD’s Public and Indian Housing Programs                                                       69
                                    City of Los Angeles. Participating agencies           In furtherance of HUD’s National
                                    included the USMS, the Bureau of Alcohol,        Fugitive Felon Initiative, beginning in March
                                    Tobacco, and Firearms (ATF), the California      of 2005, HUD-OIG Special Agents
                                    State Parole Board, the Los Angeles Police       implemented the Louisiana National Fugitive
                                    Department (LAPD), the Orange County             Felon Initiative. Along with members of
                                    Sheriff’s Department (OCSD), and the             USMS, two sweeps have been conducted in
                                    Department of Children and Family Services       New Orleans, LA, resulting in five arrests
                                    (DCFS). Judicial actions will be monitored,      of individuals who are wanted either locally
                                    and the foregoing information will be            or nationally. These individuals will be
                                    referred to the Los Angeles Housing              referred for eviction through the Housing
                                    Authority for possible termination of benefits   Authority of New Orleans. This initiative is
Public & Indian Housing Programs


                                    from the rental assistance program.              ongoing and will be worked throughout the
                                    Additional coordination with the USMS            State of Louisiana in an effort to apprehend
                                    Regional Fugitive Task Force and the             wanted persons residing in public and Section
                                    aforementioned agencies is being                 8 housing. HUD-OIG, along with members
                                    conducted to pursue and execute the              of USMS, led this initiative.
                                    remaining 12 outstanding warrants and a
                                    number of additional warrants identified
                                    from the HUD-OIG’s National Fugitive
                                    Felon Initiative warrant matching list.




                            HUD’s Public and Indian Housing Programs                                                           70
      Chapter 4




HUD’s Multifamily Housing
       Programs
                                     I      n addition to multifamily
                                             housing developments with
                                U.S. Department of Housing and Urban
                                                                                                      Chart 4.2: Multifamily Housing
                                                                                                            Program Dollars

                                Development (HUD)-held or HUD-insured                    50,000,000

                                mortgages, the Department owns                           40,000,000
                                multifamily projects acquired through                    30,000,000
                                defaulted mortgages, subsidizes rents for                20,000,000
                                low-income households, finances the
                                                                                         10,000,000
                                construction or rehabilitation of rental
                                                                                                 0
                                housing, and provides support services for                                       External Reports
                                the elderly and handicapped.                                      Questioned Costs     Funds Put to Better Use


                                Audits
                                                                                        Section 232/Health Care Facility
                                    During this period, the Office of                   Reviews
Multifamily Housing Programs




                                Inspector General (OIG) issued 11 external
                                reports in the multifamily housing program                   We completed an audit of the
                                area. These reports disclosed nearly $30.4              Carmichael Rehabilitation Center in
                                million in questioned costs and more than               Carmichael, CA. We found that the owner
                                $3.9 million in recommendations that                    incorporated the project in its petition for
                                funds be put to better use.                             bankruptcy and then defaulted on the
                                                                                        project’s mortgage. In addition, the owner
                                     Over the past 6 months, we audited                 disbursed $3.7 million in project funds
                                health care facility operations, owner and              through ineligible cash distributions and
                                management agent operations, and one                    expenses. These activities resulted in
                                contract administrator. The results of our              increased risk to HUD, the assignment of
                                more significant audits are described below.            the mortgage note to HUD, and HUD’s
                                We have placed an emphasis, during this                 resulting loss of $323,000 on the sale of the
                                period and prior periods, on the Section 232            note. We recommended the recovery of the
                                program due to increased congressional                  loss incurred on the sale of the mortgage
                                interest.                                               note, appropriate administrative action,
                                  Chart 4.1: Multifamily Housing Program                and recovery of the net ineligible
                                             Reports Issued                             distributions in the amount of $3.7 million.
                                                                                        (Audit Report: 2005-LA-1801)
                                                                         11
                                                                                            We completed a review of the Canoga
                                                                                        Care Center, located in Canoga Park, CA,
                                                                                        to determine whether the project was
                                                                                        operated in accordance with the regulatory
                                                                                        agreements and to identify the reasons for
                                  External Reports                                      the mortgage loan default. We found that


                                The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                reports with management decisions reached during this semiannual period. Because there is a time lag
                                between report issuance and management decisions, the two totals will not agree.



                        HUD’s Multifamily Housing Programs                                                                                   72
GMAC Commercial Mortgage did not                default during this time. HUD incurred a
properly originate the loan, and the            loss of $1 million on the sale of the mortgage
improper loan origination substantially         note. We recommended that the owner
contributed to the mortgage default. We,        reimburse the insurance fund $518,000 for
therefore, recommended that GMAC                the inappropriate disposals and the
Commercial Mortgage be held accountable         Department pursue double damages
for the improper $6.7 million insured loan      remedies, pursue action under the Program
origination and the $3.3 million loss           Fraud Civil Remedies Act, impose civil
incurred by HUD when the insured note           money        penalties,       and      pursue
was sold. We also recommended civil             administrative sanctions against the
and/or administrative actions against the       owners. (Audit Report: 2005-CH-1005)
individual lender, owner, and operator
officials involved in the improper loan              In Bethany, OK, we audited the
origination. (Audit Report: 2005-LA-1804)       Heartland Health Care Center of Bethany,
                                                a HUD-insured nursing home, to
     We audited Lakewood Care Center, a         determine whether the Center complied




                                                                                                  Multifamily Housing Programs
skilled nursing facility in Milwaukee, WI.      with the regulatory agreement and HUD
The owner inappropriately disposed of $1        requirements when disbursing project
million in project assets while the project     funds. We found the Center officials used
was in a non-surplus-cash position and in       $2.3 million for ineligible costs, such as loan
default of its Federal Housing                  repayments and late fees, and could not
Administration (FHA)-insured loan.              support $4.5 million in expenditures.
During this time, the owner also                Further, Center officials did not provide
inappropriately loaned $612,000 of project      documentation to support the use of
funds to the identity-of-interest operator of   revenue amounting to nearly $12 million.
the project. We recommended the owner           This ultimately resulted in mortgage
reimburse the project’s reserve for             default and closure of the Center. We
replacement and/or HUD’s FHA insurance          recommended that the Center officials
fund $1 million for the inappropriate           reimburse HUD for the ineligible costs and
disposition of project assets. We also          take appropriate administrative actions.
recommended that HUD pursue double              (Audit Report: 2005-FW-1003)
damages remedies, impose civil money
penalties, and pursue administrative            Owner and Management Agent
sanctions against the owner and its
managing member. (Audit Report: 2005-           Operations
CH-1004)
                                                     In Farmington Hills, MI, we reviewed
     We audited Wood Hills Assisted             the records of RVA Properties, Inc., to
Living Facility in Kalamazoo, MI. We            determine whether it used project funds in
found the owner had inappropriately             compliance with the regulatory agreements
disposed of $518,000 in project assets          and HUD’s requirements. The owners
without obtaining HUD approval and in           and/or RVA Properties, Inc., management
violation of its regulatory agreement and       agent, inappropriately used $272,000 from
also inappropriately lent almost $13,000 of     four projects when the projects were in a non-
project funds to the identity-of-interest       surplus-cash position. The inappropriate
operator of the project. The project was in     expenses included $23,000 for ineligible
a non-surplus-cash position and/or in           expenses and $248,000 for unsupported


HUD’s Multifamily Housing Programs                                                                73
                                expenses. As a result, funds were not used        Further, Domicile did not abide by the 1995
                                efficiently and effectively, and fewer funds      settlement agreement for a previous HUD
                                were available for the projects’ normal           claim, involving project overcharges during
                                operations. We recommended the owners             1992 and 1993. Although Domicile paid
                                and/or management agent reimburse the             $272,113 under the agreement, it did not
                                appropriate reserve capital account for the       report and pay $49,262 for self-funded health
                                amount that cannot be supported from              insurance. Because of Domicile’s current
                                nonproject funds. We also recommended             diversions and failure to pay the previous
                                that HUD, in conjunction with HUD’s OIG,          settlement obligation, it deprived the
                                pursue double damages remedies and                properties of operating funds, reducing
                                administrative sanctions against the owners       HUD’s security interests and increasing
                                and/or management agent. (Audit Report:           HUD’s risks. We recommended that HUD
                                2005-CH-1801)                                     require Domicile and its owner to repay or
                                                                                  provide support for $2,290,291 in improper
                                    In Dallas, TX, we performed an audit          charges to the properties, reimburse the
                                survey at Highland Meadows Apartments,            Government $352,053 for our audit costs, and
Multifamily Housing Programs




                                a HUD-insured multifamily project. We             take administrative sanctions against the
                                concluded the owner (1) paid $68,000 to an        owner and Domicile. (Audit Report: 2005-
                                unapproved identity-of-interest management        FW-1002)
                                company, (2) took $45,000 in distributions
                                when the property was not in good repair               We completed a limited review of
                                and in a non-surplus-cash position, (3) paid      expenditures reported by Arlington Arms in
                                $10,000 to other identity-of-interest entities,   Jersey City, NJ, to determine whether
                                and (4) maintained the property in poor           expenditures complied with the project’s
                                condition. We recommended that the                regulatory agreement and other HUD
                                Department seek reimbursement from the            regulations. We found the project paid
                                owner for the $124,000 in ineligible              ineligible entity expenses of more than
                                disbursements and payments and impose             $10,000 and made an unallowable loan of
                                sanctions against the owner as appropriate.       $1,000 to the partners of the ownership
                                (Audit Report: 2005-FW-1801)                      entity. Consequently, we recommended that
                                                                                  HUD instruct the partnership to reimburse
                                     In San Antonio, TX, we completed an          the project for the amount of the ineligible
                                audit of Domicile Property Management,            expenditures and obtain written HUD
                                Inc. (Domicile). The Office of Investigation      approval before making any payments for
                                asked us to do the audit. Our objectives were     these fees in the future. (Audit Report: 2005-
                                to determine whether Domicile used HUD-           NY-1802)
                                assisted property funds in compliance with
                                the regulatory agreements and applicable
                                HUD requirements.
                                                                                  Contract Administrator Operations
                                     In violation of the properties’ regulatory       In Salem, OR, we audited Oregon
                                agreements, Domicile diverted property            Housing and Community Services, a contract
                                income totaling $771,103 to pay nonproject        administrator, as a followup to our recent
                                expenses and paid another $1,469,926 from         audit of Uptown Tower Apartments (Report
                                property accounts for which there was no          Number 2004-SE-1003, dated March 26,
                                documentation to show the payments were           2004). We found Oregon Housing did
                                for necessary and reasonable operating costs.     not ensure that $1.4 million of project


                        HUD’s Multifamily Housing Programs                                                                   74
funds distributed to owners conformed to
HUD requirements. Oregon Housing
inappropriately approved or allowed
unreasonable management fees, split
management fees, the revaluation of
commercial space, unreasonable interest
payments on commercial space, and
distributions from residual receipts. Funds
inappropriately paid to the owners or
management agents reduced the amount of
money available for deposit into the residual
receipts accounts. The funds in these accounts
should have been available for legitimate
project purposes with the unused balance
returning to HUD upon termination of the
subsidy contracts. We recommended that




                                                 Multifamily Housing Programs
Oregon Housing reimburse the projects a
total of $1.4 million for the fees and
payments it inappropriately authorized.
We also recommended that Oregon
Housing immediately reduce the excessive
management fees, stop allowing projects to
split management fees, and discontinue
allowing the project to pay owner
distributions from the residual receipts fund
when surplus cash is not sufficient. Oregon
Housing should also be required to
recalculate owner distributions, using the
original value of the commercial portion of
the project, and implement controls to ensure
that fees and distributions to owners and
management agents are reasonable. (Audit
Report: 2005-SE-1003)




HUD’s Multifamily Housing Programs               75
                                 Investigations                                        Insurance Fraud
                                      During this reporting period, the OIG                 In Chicago, IL, in the Northern District
                                  opened 78 investigation cases and closed             of Illinois, defendant Ralph Aulenta was
                                  81 cases in the multifamily housing                  sentenced before U.S. District Judge John
                                  program area. Judicial action taken on               Grady to serve 1 year and 8 months in a
                                  these cases during the period included               Federal penitentiary. Aulenta was also
                                  $2,489,543 in investigative recoveries,              ordered to pay $2,006,832 in restitution.
                                  $2,293,596 in funds put to better use, 61
                                  indictments/informations, 41 convictions/                 Aulenta was responsible for providing
                                  pleas/pretrial diversions, 61 administrative         insurance coverage to HUD-insured
                                  actions, 8 personnel actions, and 132                multifamily projects. Aulenta admitted he
                                  arrests.                                             was part of a scheme in which he overbilled
                                                                                       the insurance premiums provided to these
                                       Some of the investigations discussed in         multifamily projects. Aulenta admitted to
                                                                                       falsely inflating the premium amount and
Multifamily Housing Programs




                                  this report were conducted by OIG, while
                                  others were conducted jointly with Federal,          then later providing a kickback of a portion
                                  State, and local law enforcement agencies.           of the overpaid insurance premium to the
                                  The results of our more significant                  owner and manager of the HUD
                                  investigations are described below.                  multifamily projects.

                                                                                           In addition to the fraud against HUD,
                                      Chart 4.3: Multifamily Recoveries                Aulenta was responsible for overbilling
                                                                                       insurance premiums to the City of
                                   Section 8               Other          Skimming
                                     13%                    6%               81%       Rosemont and later receiving a kickback
                                                                                       from other coconspirators for his
                                                                                       participation in the scheme.

                                                                                       Conspiracy
                               Total Recoveries: $2,489,543
                                                                                           In Boston, MA, in U.S. District Court,
                                                                                       defendant Joseph O’Connor pled guilty to
                               Chart 4.4: Multifamily Funds Put to Better Use          one count of conspiracy. He was indicted
                                                                                       on September 22, 2004. Two additional
                                         Other             Embezzlement      False     defendants had been charged in this
                                                                           Statement
                                          9%                   9%
                                                                              15%
                                                                                       matter. Janet Gaibl and Joseph Cassidy
                                                                                       were indicted by a Federal grand jury on
                                                                                       November 19, 2003, both charged with one
                                                                                       count of conspiracy. Gaibl was also charged
                                                                                       with two counts of making false statements.
                                               Section 8                     HUD       Cassidy pled guilty and was sentenced on
                                                                            Employee
                                                 56%
                                                                              11%      September 2, 2004. Gaibl pled guilty on
                               Total: $2,293,596                                       June 23, 2004, but has yet to be sentenced.




                        HUD’s Multifamily Housing Programs                                                                       76
     The November 2003 indictment                       District Court. Donald Baldyga, Jr., owner
alleged that between 1988 and mid-2000,                 of the multifamily Family Living Adult
Gaibl and Cassidy, former employees of                  Care Center, located in Saco and
First Realty Management (FRM), combined                 Biddeford, ME, was charged on December
to cause false statements to be submitted               1, 2004, in a one-count Federal indictment
to HUD relating to a rent subsidy program               with equity skimming. The case involved a
at Cummins Towers, a HUD-insured                        defaulted mortgage totaling $2.9 million.
multifamily complex managed by FRM.                     The property was resold for $900,000,
Gaibl and Cassidy allegedly identified                  resulting in a loss to HUD of $2 million.
certain federally subsidized units at the               This was a significant indictment in that it
development for their own use or the use                involved equity skimming from a HUD-
of friends and then caused false statements             funded assisted living development from
to be made on related HUD forms and                     which the owner skimmed almost
supporting documents to be fabricated for               $400,000, causing the foreclosure and a
the purpose of obtaining subsidized units               significant loss to HUD. The facility had
for individuals who would not otherwise                 been in good financial and physical




                                                                                                       Multifamily Housing Programs
qualify. By their actions, Gaibl and Cassidy            condition before Baldyga took over the
caused a loss to HUD in excess of $140,000              project; however, he made only one
and also deprived qualified families of the             mortgage payment and used the fees he
use of the subject units. O’Connor was also             collected for personal use, causing the
a beneficiary of one of these Section 8 units,          elderly residents undue hardship. The State
from which he ran a cleaning company.                   ultimately shut down the facility and
                                                        relocated the residents. Sentencing is
Equity Skimming                                         scheduled for May 2005.

                                                            In Hot Springs, AR, in U.S. District
    In Portland, ME, defendant Donald
                                                        Court, Western District of Arkansas, de-
Baldyga, Jr., pled guilty to one count of
                                                        fendant Rodney Myers entered a plea of
multifamily equity skimming in U.S.




        Copyright, 2005. The Journal Tribune - York County, ME. Reprinted with permission.


HUD’s Multifamily Housing Programs                                                                     77
                                guilty to one count of bankruptcy fraud,      False Statements
                                one count of money laundering, and one
                                count of perjury. Rodney Myers was in-
                                dicted by a Federal grand jury in the West-        In Chicago, IL, a Circuit Court of Cook
                                ern District of Arkansas on 22 counts of      County grand jury indicted on multiple
                                equity skimming, bankruptcy fraud,            forgery counts the following individuals, who
                                money laundering, making false statements     were Section 8 tenants at 810 W. Grace, a
                                to HUD, perjury, and subornation of per-      100-percent HUD-subsidized building
                                jury. Myers is the former owner of a HUD-     located in Chicago: Arlene Adewole,
                                insured multifamily project, Burchwood        Hakeem Adewolej, Jones Mireku, Amma
                                Harbour Apartments (BHA) in Hot               Mireku, Abdul Mustapha, Bukonla
                                Springs, AR.                                  Mustapha, Simon Kent, Hakeem Durojaye,
                                                                              Afusat Durojaye, Muradali Bohjani, and
                                                                              Evaristo Torres. These charges are the
                                     From December 1998 to April 2000,
                                                                              culmination a 5-year investigation, which
                                while the HUD-insured mortgage was in
                                                                              focused on the building.
                                default and during the period of BHA’s
Multifamily Housing Programs




                                Chapter 11 bankruptcy proceeding, Myers
                                                                                   Among those schemes alleged in the
                                devised a scheme to defraud and diverted
                                                                              indictment were the failure to report W-2
                                more than $110,000 in project rents and
                                                                              income, self- reported income, savings,
                                other funds in violation of the regulatory
                                                                              checking and investment bank accounts,
                                agreement and the U.S. Bankruptcy
                                                                              rental income from properties that the
                                Court’s cash collateral order. After the
                                                                              tenants owned, Supplemental Security
                                bankruptcy was dismissed in April 2000
                                                                              Income payments, and taxicab medallions.
                                and while the HUD-insured mortgage was
                                                                              In addition to the false statements to HUD,
                                in default, Myers diverted more than
                                                                              these individuals purportedly made
                                $40,000 in project rents and other funds
                                                                              multiple false statements to the Social
                                from April to July of 2000 in violation of
                                                                              Security Administration, the U.S.
                                the regulatory agreement.
                                                                              Bankruptcy Court, and various local banks
                                                                              and lenders. In total, the above-mentioned
                                     Myers’ scheme involved diverting rent
                                                                              individuals are alleged to have caused in
                                checks to his personal bank accounts and
                                                                              excess of $270,000 in overpayment of HUD
                                writing BHA checks to several contractors
                                                                              Section 8 payments.
                                and either receiving cash kickbacks from
                                contractors or forging contractor
                                endorsements, purchasing cashier’s checks,    Theft and Embezzlement
                                and depositing the cashier’s checks to his
                                personal bank accounts. Myers used                In Louisville, KY, in the Western
                                inflated and phony invoices and bids for      District of Kentucky, Londy Rya Haycraft,
                                work not performed to conceal his             president, U.H.M. Management Services,
                                diversions. Myers’ sentencing has not been    was found guilty on 8 counts in a 10-count
                                scheduled. This investigation was referred    indictment. On June 18, 2003, a Federal
                                to OIG by the HUD Office of General           grand jury for the Western District of
                                Counsel in Fort Worth, TX.                    Kentucky indicted Haycraft for submitting
                                                                              false documentation to HUD and for
                                                                              embezzling, stealing, and obtaining by
                                                                              fraud and otherwise without authority for



                        HUD’s Multifamily Housing Programs                                                              78
his own use, more than $800,000 in funds        FHA insurance, and other fraudulent
belonging to Blanton House, a 20-story 256      activities. The false document mill was
unit facility subsidized by HUD. In             located in a HUD-insured apartment
addition, trial evidence demonstrated that      complex. So far, three of the five individuals
Haycraft wrote checks payable to personal       involved in the operation have pled guilty.
use, petty cash, credit cards, and casinos.
                                                     Defendant Edgar Manterola Simeon,
    In Charleston, WV, in Federal Court,        also known as Roberto Gomez, pled guilty
Southern District of West Virginia,             in the Northern District of Texas, Dallas
defendant Romona Taylor Williams, a             Division, for violations of fraud and misuse
property manager and former Executive           of identity documents, conspiracy, and
Director of a local nonprofit organization,     misuse of an SSN on one FHA loan. This
was sentenced for her admitted role in a        loan was valued at $93,500 with an estimated
scheme to defraud HUD and two State             loss to the Government of $26,000. Simeon
agencies. The defendant was ordered to be       was also a part of a false document
imprisoned for 6 months, to be followed         manufacturing operation that produced




                                                                                                 Multifamily Housing Programs
by 6 months supervised release, and was         numerous forms of identification for illegal
ordered to repay a total of $63,788 to HUD      aliens.
and the two other agencies.
                                                     In Stockton, CA, in the Superior Court
    The OIG investigation determined that       of California, County of San Joaquin,
Ms. Taylor Williams recruited her daughter      defendant Mark Southard, former
and a friend to apply for and receive           management agent for the Sea Breeze
Section 8 housing choice vouchers, which        Apartments, pled guilty to State felony
they then turned over to the defendant. The     charges of grand theft, embezzlement,
defendant used both vouchers to provide         crimes against an elder or dependent adult,
“free” housing in her apartment building        and “white collar” enhancement.
as an inducement or fringe benefit to           Southard is scheduled to be sentenced.
enable her to recruit skilled individuals for   Southard embezzled more than a million
her nonprofit agency.                           dollars in cash from a HUD mortgage-
                                                insured project. The scheme involved
     In Dallas, TX, in the Northern District    fraudulent contractor’s invoices and the
of Texas, Dallas Division, defendant Daniel     manipulation of rent rolls and rental
Manterola Muedano, also known as Daniel         income, and it is believed that a majority
Gonzalez Monzalvo, pled guilty for              of the money involved was cash.
violations of fraud and misuse of identity
documents, conspiracy, and misuse of a              In Fort Lauderdale, FL, in Federal
Social Security number (SSN). Muedano           Court, Southern District of Florida,
was part of a false document                    defendants Maha Elsaai and Ashraf Elsaai
manufacturing operation that produced           pled guilty to felony charges that they
numerous forms of identification for illegal    conspired to defraud HUD under the
aliens. These false documents included          Section 8 Rental Assistance Voucher
resident alien cards, Social Security cards,    Program. Maha Elsaai was sentenced to 14
Texas driver’s licenses, insurance cards,       months incarceration, to be followed by 36
vehicle inspection stickers, etc. These         months of supervised release. Ashraf Elsaai
documents were used to obtain                   was sentenced to 12 months incarceration,
employment, purchase homes that received        to be followed by 36 months supervised


HUD’s Multifamily Housing Programs                                                               79
                                release. The defendants were also ordered      investigation, which disclosed that Bradley
                                to make restitution to HUD in the amount       failed to provide the Crescent Park
                                of $41,383 and each was ordered to pay a       Apartments management with accurate
                                special assessment fee of $100. This           information regarding her income from
                                investigation found that since 1997 Maha       1995 through 2003. Bradley’s actions
                                and Ashraf Elsaai have falsified               resulted in a loss to HUD totaling more than
                                employment and income documents to             $25,000.
                                maintain rental assistance subsidies.
                                                                                    In Louisville, KY, in the Western
                                     In Pacoima, CA, pursuant to               District of Kentucky, defendant Alan King,
                                investigative leads provided by tenants and    Treasurer, Board of Directors, Colonial
                                property management staff, Los Angeles         Square Cooperative, Inc., pled guilty to an
                                HUD-OIG and the Immigration and                information. The information charged that
                                Customs Enforcement Agency conducted           for a 1-year period, King embezzled, stole,
                                a Rental Assistance Initiative operation at    and obtained by fraud property with a
                                the Pierce Park apartment complex. During      value in excess of $5,000 from Colonial
Multifamily Housing Programs




                                the course of the operation, three HUD-        Square Cooperative, Inc., which was
                                subsidized properties were visited to          receiving a capital improvement loan from
                                conduct followup investigations to             HUD. An independent audit of financial
                                determine whether the residents were in        statements for the Colonial Square
                                violation of Section 8 rules and regulations   Cooperative revealed possible theft of funds
                                and to execute outstanding warrants for        from the operating account. King
                                immigration violations.                        instructed property management staff to
                                                                               cosign blank checks or checks made
                                     Eliazar Plasencio was arrested based      payable to him for cash. King used the
                                on an outstanding Federal warrant for          project operating funds for personal
                                immigration violations that was initiated      benefit.
                                based on his prior conviction in the State
                                of California for the sale of narcotics. A          In Federal Court, in Roanoke, VA,
                                referral was also made to the Department       defendant Tonia Hicks, former Section 8
                                of Children and Family Services based on       tenant, was indicted on one count of theft
                                the fact that two children were sleeping on    of Federal funds. A joint investigation by
                                the floor of the unclean and unhealthy         OIG and the Christiansburg, VA, Police
                                residence.                                     Department was initiated based on a
                                                                               complaint to the HUD Hotline. The
                                    At the residence of Lilian Palencia,       investigation disclosed that Hicks married
                                several unauthorized tenants were              in June of 2001 and failed to report this to
                                encountered. One of the unauthorized           management. She then continued to omit
                                tenants, Albadia Pena, admitted that she       her husband’s residency and income on
                                was subletting the unit from Palencia.         official forms through May 2004, thereby
                                                                               receiving a benefit of approximately
                                    In Oakland, CA, in the U.S. District       $11,000 in rental assistance.
                                Court of Northern California, Oakland
                                Division, an information was filed charging        In Federal Court in Bronx, NY,
                                defendant Adrienne Bradley with four           defendant Jacqueline Grullon, a tenant at
                                counts of making false statements to HUD.      a Section 8 complex known as Andrews
                                The charges came as a result of an OIG         Plaza, Bronx, NY, was arrested, charged,


                        HUD’s Multifamily Housing Programs                                                              80
and remanded pending a $100,000 bond          Saneaux. Robert Grullon, brother of
signed by three responsible individuals and   Jacqueline and another intermediary, has
$7,500 in cash. Grullon was charged with      already pled guilty to his part in the
conspiracy to commit fraud, accepting         scheme.
bribes concerning programs receiving
Federal funds, and witness tampering.              In Palcom, KS, in the 17th District
Grullon is accused of accepting bribes as     Court of Kansas, defendant Steve Wood, a
an intermediary or middleman for the          rural housing multifamily Section 8 tenant,
Andrews Plaza project manager. The            pled guilty to criminal deprivation of
scheme involved prospective tenants being     property and was sentenced to serve 360
advised that if they wanted to move in,       days imprisonment and 24 months
they would need to pay a fee to Grullon, a    probation and was ordered to pay $8,708
tenant and known associate of Saneaux.        in restitution to HUD. Wood failed to
Evidence was also provided showing that       inform Embers Apartments that he had
Grullon was contacting witnesses before       purchased and moved to another residence
trial and threatening them to get them to     with his girlfriend. Interviews revealed that




                                                                                              Multifamily Housing Programs
either not talk to government officials or    Wood used the Embers Apartment unit for
not tell the truth. Grullon allegedly         storage. Wood received $8,708 in rental
accepted payments of up to $8,000 from        assistance to which he was not entitled.
several applicants and gave the money to




HUD’s Multifamily Housing Programs                                                            81
       Chapter 5




 HUD’s Community Planning
and Development Programs
                                                 T    he Office of Community                                       Chart 5.2: Community Planning
Community Planning & Development Programs
                                                       Planning and Development                                      and Development Dollars
                                            (CPD) seeks to develop viable
                                            communities by promoting integrated                      1,500,000

                                            approaches that provide decent housing,                  1,000,000
                                            as suitable living environments, and                       500,000
                                            expanded economic opportunities for                             0
                                            low- and moderate-income persons. The                                              External Reports

                                            primary means toward this end is the                                 Questioned Costs   Funds Put to Better Use
                                            development of partnerships among all
                                            levels of government and the private
                                            sector.
                                                                                                    Community Development Block
                                            Audits                                                  Grant Program
                                                During this reporting period, the Office                 We performed the fourth of our
                                            of Inspector General (OIG) issued four                  ongoing audits of the New York, NY,
                                            external audit reports in the CPD program               Lower Manhattan Development
                                            area. These reports disclosed nearly $1.2               Corporation’s (the auditee) administration
                                            million in questioned costs and more than               of the CDBG Disaster Recovery Assistance
                                            $850,000 in recommendations that funds                  funds. These funds were provided to the
                                            be put to better use.                                   State following the September 11, 2001,
                                                                                                    terrorist attacks on the World Trade Center
                                               The OIG audited the Community                        in New York City. The auditee received
                                            Development Block Grant (CDBG)                          more than $2.7 billion in CDBG Disaster
                                            programs and the Section 108 Loan                       Recovery Assistance funds from the U.S.
                                            Guarantee program.                                      Department of Housing and Urban
                                                                                                    Development (HUD) and disbursed more
                                                Chart 5.1: Community Planning and                   than $276 million between April 1 and
                                                  Development Reports Issued                        September 30, 2004, for activities related
                                                                                                    to the rebuilding of Lower Manhattan.
                                                                    4                               Our audit objectives were to determine
                                                                                                    whether the auditee disbursed CDBG
                                                                                                    Disaster Recovery Assistance funds to
                                                                                                    eligible grant applicants.

                                                                                                         Our review disclosed that the auditee
                                                  External Reports                                  disbursed more than $141,000 of its CDBG
                                                                                                    Disaster Recovery Assistance funds for
                                                                                                    ineligible administrative expenses under
                                                                                                    New York City’s Utility Restoration and


                                            The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                            this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                            reports with management decisions reached during this semiannual period. Because there is a time lag
                                            between report issuance and management decisions, the two totals will not agree.



                                    HUD’s Community Planning and Development Programs                                                                    84
                                                                                                   Community Planning & Development Programs
Infrastructure Rebuilding program. The              $774,000 for ineligible and $298,000 for
auditee’s subrecipient (its parent company)         unsupported disbursements and recover
drew down CDBG Disaster Recovery                    any remaining assets provided to the
Assistance funds from HUD without first             Museum. Further, the City should seek
submitting its invoices to the auditee for          appropriate administrative sanctions
review of the accuracy and eligibility of the       against parties involved in the deficiencies
costs being billed. We recommended that             described in the report. (Audit Report:
HUD instruct the auditee and/or its                 2005-FW-1005)
subrecipient to reimburse the Utility
Restoration and Infrastructure Rebuilding           Section 108 Loan Guarantee
program more than $141,000 in CDBG
Disaster Recovery Assistance funds that             Program
were drawn down for ineligible salary and
fringe benefits costs. (Audit Report: 2005-              As part of our audit of the City of New
NY-1003)                                            Orleans, LA, CDBG program, we audited
                                                    a Section 108 loan to the Louisiana Artists
     As part of our audit of the City of New        Guild to construct Louisiana Artworks. Both
Orleans, LA, CDBG program, we audited               the City and the Louisiana Artists Guild
its subrecipient, the New Orleans African           stated systems were in place to ensure that
American Museum. The objective of our               Louisiana Artworks would create sufficient
audit was to determine whether the                  jobs for the $7.1 million Section 108 loan.
Museum administered its CDBG program                While Louisiana Artworks expended the
funds in an economical and efficient                vast majority of the funds reviewed
manner and in accordance with the terms             properly, it overpaid the City’s attorney
of the grant agreements with the City and           more than $1,600 and could not support
applicable regulations and Federal laws.            more than $17,000 paid to the attorney or
                                                    $3,000 paid to a financial analyst. Both the
    Of five City-awarded grants, two                City and Louisiana Artworks agreed to
grants totaling $745,000 failed to meet             provide support or recover the amounts.
HUD requirements. For the remaining
three grants totaling more than $1 million,             We recommended that Louisiana
the Museum failed to document that it met           Artworks repay more than $1,600 in excess
one of HUD’s national objectives. Further,          charges for legal fees, repay the more than
the Museum did not exercise financial               $17,000 of unsupported funds paid to the
oversight or management for its five grants.        attorney and $3,000 paid to the financial
The Museum commingled funds, did not                analyst or provide adequate support, and
have adequate controls over procurement,            establish the necessary management
and failed to comply with Federal and State         controls. (Audit Report: 2005-FW-1001)
income tax requirements, resulting in more
than $50,000 in ineligible and $181,000 in
unsupported disbursements.

   We recommended that the
New Orleans Community Planning
Development Director require the City to
repay its CDBG program more than



HUD’s Community Planning and Development Programs                                                  85
                                            Investigations                                            Wire/Mail Fraud and Bribery/
Community Planning & Development Programs
                                                                                                      Payoffs
                                                 During this reporting period, OIG
                                            opened 25 investigative cases and closed                      A Federal jury in Federal District
                                            22 cases in the CPD program area. Judicial                Court, Springfield, MA, convicted four
                                            action taken on these cases during the                    former officials of the Massachusetts Career
                                            period included $7,137,802 in investigative               Development Institute (MCDI), a CDBG-
                                            recoveries; $1,309,036 in funds put to better             funded State organization, on February 28,
                                            use; 16 indictments/informations; 18                      2005, after a 5-week trial. All four
                                            convictions, pleas, and pretrial diversions;              defendants in this case were charged on
                                            23 administrative actions; 4 personnel                    September 2, 2004, in a 19-count
                                            actions; and 15 arrests.                                  superseding Federal indictment in
                                                                                                      Springfield, MA. This indictment had
                                                 Some of the investigations discussed in              previously been handed down by a Federal
                                            this report were conducted by OIG, while                  grand jury in January 2004. The indictment
                                            others were conducted jointly with Federal,               included the violations of conspiracy,
                                            State, and local law enforcement agencies.                program fraud, wire fraud, obstruction of
                                            The results of our more significant                       justice, making false statements,
                                            investigations are described below.                       threatening a witness, and aiding and
                                                                                                      abetting. The four defendants who were
                                                                                                      charged and convicted had been employed
                                                                                                      by MCDI, which provided educational and




                                            Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.




                                    HUD’s Community Planning and Development Programs                                                          86
                                                                                                   Community Planning & Development Programs
job-training programs for income-eligible           criminal complaint with mail fraud and
individuals in the Springfield area. The four       making a false statement to HUD. Young,
defendants were the former MCDI                     a rehabilitation specialist for the City of
Executive Director Gerald Phillips, former          Rochester, NY, was responsible for writing
Administrator Giuseppe Polimeni, former             specifications for the rehabilitation of
no-show MCDI employee Luisa                         privately owned housing within the City
Cardaropoli, and former MCDI Secretary              of Rochester. The homeowners must first
Jamie Dwyer. The investigation concerned            qualify for CPD Home Ownership Made
no-show employees.                                  Easy (HOME) funds. These grants range
                                                    between $10,000 and $30,000 per project,
     Joseph Barry, a Hudson County                  and the homeowner may qualify for more
developer of the Shipyard project in                than one type of grant. Young was charged
Hoboken, NJ, was sentenced in U.S. District         with receiving bribes from various
Court, Newark, NJ, to 20 months                     contractors during the years 2002 through
incarceration and ordered to pay $1 million         2004. Young steered the contracts to the
in restitution to HUD, the U.S. Department          contractors by telling the contractors the
of Transportation, and the Federal                  amount of the lowest bid. The contractor
Highway Administration within 2 weeks               would then bid a lower amount than the
and a $20,000 fine. Barry admitted paying           lowest bid to win the bid. The contractor
$115,000 in cash to Hudson County                   would pay Young between $300 and $500
Executive Robert Janiszewski as a reward            in cash, depending on the size of the
for his help in securing State and Federal          contract. Young was also charged with
grants for his project in Hoboken. Barry            submitting two final inspections that
surrendered for imprisonment on                     verified that all rehabilitation work had
December 2, 2004. On June 22, 2004,                 been completed on two HUD-subsidized
Joseph Barry pled guilty to mail fraud and          grants totaling $25,000. Young made false
bribery. Barry managed to secure HUD                statements in these final inspections when
grants and loan guarantees under the                he signed them and certified that the
Economic Development Initiative grant in            rehabilitation had been completed, when
the amount of $1 million, as well as a Section      it had not been completed.
108 loan guarantee for these projects in the
amount of $6.69 million. Barry was                      In Rochester, NY, in the Western
previously indicted on 16 counts. The               District of New York, Emmett Porter was
indictment detailed $8.8 million in Federal         sentenced to 2 years probation and a
and State loan grants that Barry and his            $1,000 fine. Porter was charged on October
enterprise, the Applied Companies,                  15, 2004, with one count of mail fraud.
secured through bribery. Barry maintained           Porter was a contractor in the City of
a “payoff sheet” of bribe amounts, dates,           Rochester who submitted numerous
and notations, indicating which                     fraudulent bids by mail to receive the
government loan or grant the payoff(s)              winning bids on large single-family
were connected to.                                  rehabilitation contracts. Porter is known to
                                                    have submitted three fraudulent bids for
     In Rochester, NY, Steven Young pled            approximately         $216,000.       Porter
guilty to one count of mail fraud. On               fraudulently prepared bids from other
November 30, 2004, Young was charged                Rochester contractors on their letterhead
in the Western District of New York by              without their knowledge. The City of



HUD’s Community Planning and Development Programs                                                  87
                                            Rochester rehabilitation program receives               It further charges that these three,
Community Planning & Development Programs
                                            $2 million per year in HUD CDBG and                along with Cleveland City Councilman
                                            HOME grant funds. In addition to HUD               Joseph Jones; Cleveland area lawyer and
                                            funding, the City of Rochester has received        businessman Ricardo Teamor, who served
                                            $12 million in funding from numerous               as legal counsel for the Cuyahoga
                                            other sources to rehabilitate housing in the       Metropolitan Housing Authority (CMHA);
                                            City of Rochester, which will be sold to           and Monique McGilbra, who headed the
                                            low-income families.                               Building Services Department for the City
                                                                                               of Houston, TX, committed numerous acts
                                            Conspiracy to Commit                               of extortion and deprived the public of the
                                                                                               honest services of its public officials, using
                                            Racketeering, Fraud, and Extortion                 the mails and telephones to further their
                                                                                               scheme. Examples of the extortion
                                                 In Cleveland, OH, the Northern                payments to public officials alleged and
                                            District of Ohio, a 45-count Federal grand         described in the indictment were as
                                            jury indictment was unsealed charging six          follows:
                                            defendants in a wide-ranging public
                                            corruption and fraud scheme, including                  Numerous cash payments that Gray
                                            charges of conspiracy to commit                         made to Onunwor that were the
                                            racketeering, extortion, and mail and wire              subject of Onunwor’s own trial and
                                            fraud in furtherance of the corrupt activity.           conviction in the summer of 2004;

                                                 The indictment charged Nate Gray of                Two football-related trips that Gray
                                            Cleveland, OH, an alleged coconspirator                 and Jividen provided to McGilbra,
                                            of the recently convicted East Cleveland                including a $4,500 weekend trip to the
                                            Mayor Emmanuel Onunwor, Joseph Jones,                   2002 NFL Super Bowl in New
                                            Ricardo Teamor, Monique McGilbra, Brent                 Orleans for McGilbra and her
                                            Jividen, and Gilbert Jackson with, among                boyfriend, who were entertained by
                                            other things, providing numerous things of              Jackson on their arrival;
                                            value, including money and luxury items,
                                            to public officials in return for official acts.        A $700 Louis Vuitton purse that
                                            The charges in the indictment span multiple             McGilbra selected for herself and Gray
                                            States and set forth in detail a wide range             purchased for her;
                                            of corrupt activity. The indictment charges
                                            that Nate Gray, who operated his business               A dinner costing nearly $1,000 that
                                            in a Shaker Square, OH, office; Brent                   Gray purchased for McGilbra and her
                                            Jividen, who worked in the Cleveland                    family in Miami Beach, FL, as well as
                                            office of a New Jersey company that                     limousine service; and
                                            pursued public contracts; and Gilbert
                                            Jackson, who is a senior vice president of              The $5,000 interest-free loan by Gray
                                            an international engineering firm,                      and Teamor to Jones that was the
                                            conspired to violate racketeering laws from             subject of Jones’ earlier indictment
                                            at least the mid-1990s to the present.                  and at least one other payment.




                                    HUD’s Community Planning and Development Programs                                                     88
                                                                                                          Community Planning & Development Programs
     In addition to the conspiracy, extortion             Disaster Recovery Assistance
and fraud charges, Gray is charged with
evading payment of more than $1.5 million                 Funds - State of New York
in back taxes due and owed the United
States during the same period as he ran his                    Wing K. Cheng of New York, NY,
corrupt racketeering enterprise described                 owner of Well Planned New York City Co.,
in the indictment. The taxes due are a result             Inc., a garment business located in Lower
of the determination of Gray’s tax liability              Manhattan, was sentenced in Federal
following his conviction for tax evasion for              Court to 2 years probation, a $5,000 fine,
the years 1982, 1983, and 1984 on or about                restitution of $26,250, and a special
December 13, 1990.                                        assessment of $100. Cheng previously pled
                                                          guilty in Federal Court to one count of theft
    Francis G. Keough III, Director of The                of government money in connection with
Friends of the Homeless, Springfield, MA,                 a scheme to defraud HUD and Empire
a HUD-funded long-term homeless shelter,                  State Development Corporation (ESDC) of
was arrested after a Federal indictment was               Federal grant money made available after
unsealed. Keough is charged with one                      the September 11, 2001, terrorist attacks to
count of extortion. The charge stems from                 provide assistance to certain businesses in
Keough extorting $29,000 from Frank                       Lower Manhattan. After the September 11
Ware, owner of The Ware Group, Inc., a                    terrorist attacks, the World Trade Center
construction contractor hired to do                       Small Firm Attraction and Retention Grant
renovations of the women’s shelter at 501                 program (SFARG) was established by
Worthington Street in Springfield on or                   ESDC to provide assistance to certain
about April 23, 1999, while Keough                        businesses in Lower Manhattan that were
was building a summer home in                             adversely impacted by the terrorist attacks.
Charlestown, RI.                                          The SFARG program is funded through a
                                                          $700 million appropriation from HUD.




Copyright, 2005. The Republican - Springfield, MA. Reprinted with permission.


HUD’s Community Planning and Development Programs                                                         89
                                                 In New York, NY, the Lower                The purported purpose of BCC was to offer
Community Planning & Development Programs
                                            Manhattan Development Corp. (LMDC)             support to women who were homeless and
                                            received $2.7 billion of CDBG funds from       in need of assistance, including substance
                                            HUD to coordinate the rebuilding and           abuse counseling, mental health treatment,
                                            revitalization of Lower Manhattan after the    and/or other types of recovery support
                                            September 11, 2001, terrorist attacks on the   services. LAHSA had paid BCC a total of
                                            World Trade Center. From these CDBG            $458,517 from the $1,050,000 grant before
                                            funds, LMDC created a grant program, the       it withdrew funding due to inaccurate
                                            goal of which was to retain and attract        information being reported by Brown.
                                            residents to Lower Manhattan. The Two-
                                            Year Residents Grant was created by                 In Cedar Rapids, IA, Federal Court,
                                            LMDC to provide rental assistance to           Joyce Ashcraft pled guilty to making false
                                            residents of Lower Manhattan who agreed        statements to HUD, identity theft, bank
                                            to stay in a specified area within Lower       fraud, and Social Security fraud. Ashcraft
                                            Manhattan for a minimum of 2 years. From       stipulated that she submitted false
                                            LMDC and HUD-OIG audit referrals,              documents to Cedar Rapids Housing
                                            HUD-OIG in New York/New Jersey                 Services to obtain a $24,660 housing
                                            arrested and convicted numerous people         rehabilitation grant. She also admitted to
                                            who fraudulently obtained the Two Year         using credit cards she obtained in other
                                            Residents Grant. Due to numerous grants        individuals’ names, making and
                                            disbursed by LMDC and many grantees            transacting counterfeit checks, embezzling
                                            fulfilling the 2-year requirement, LMDC        $10,000 from her husband’s Individual
                                            initiated an Amnesty Program, through          Retirement Account, and falsely obtaining
                                            which the grantees could return the grant      State medical assistance. Ashcraft admitted
                                            funds with no questions asked and              causing total losses of between $120,000
                                            assurance that they would not be               and $200,000.
                                            prosecuted. Since February 2004, HUD-
                                            OIG has been reporting the return of the       Embezzlement/Theft
                                            grant money received under the Amnesty
                                            Program. From August to December 2004,              In the Northern District of Ohio,
                                            $220,873 was returned and reported by          Cleveland, OH, Cecelia George, Charles
                                            LMDC.                                          Reed, Sr., Charles Reed, Jr., and Willie
                                                                                           George were sentenced following their
                                            False Statements                               earlier guilty pleas to conspiracy, relating
                                                                                           to the theft of government funds from East
                                                In Los Angeles, CA, Federal Court,         Cleveland Community Development
                                            Central District of California, Rolina Brown   Center. Charles Reed, Jr., was assessed
                                            was charged by a Federal grand jury in a       $100, Willie George was ordered to pay
                                            three-count felony indictment, including       $26,115 in restitution, Charles Reed, Sr.,
                                            one count of conspiracy, one count of          was ordered to pay $40,475 in restitution,
                                            making false statements, and one count of      and Cecilia George was ordered to pay
                                            making false claims. Brown, serving as         $101,659 in restitution.
                                            Chief Executive Officer for the Blue Collar
                                            Connection (BCC), had received a                  Cecilia George served as Community
                                            $1,050,000 grant from the Los Angeles          Development Director for the City of East
                                            Homeless Services Authority (LAHSA).           Cleveland from November of 2000 to


                                    HUD’s Community Planning and Development Programs                                               90
                                                                                                   Community Planning & Development Programs
December of 2001. While in that position,           and sentenced as a result of this
George and her three coconspirators                 investigation. James W. Asselin, the former
defrauded the citizens of the City of East          GSEF Executive Director, was ordered to
Cleveland and HUD by embezzling and                 serve 41 months confinement in Federal
otherwise stealing CDBG funds. Cecilia              prison and 3 years supervised release and
George steered federally funded contracts           to repay $723,553 in restitution to the
to “front companies” that were associated           Federal Government as well as a $300
with her family members and then                    special assessment fee; Cornell Lewis, a
funneled the money back through those               former GSEF Board member, was
                                                    sentenced to 6 months home confinement
companies to bank accounts under the
                                                    and 3 years probation and ordered to pay
control of the Reed and George families. In
                                                    a $5,000 fine, make restitution of $29,000,
addition, the Reed and George families
                                                    pay a $300 special assessment fee, and serve
falsified and forged documents to conceal
                                                    300 hours of community service; and
that they were benefiting from CDBG                 Salvatore Anzalotti, the former GSEF
funds.                                              Accountant, was sentenced to 6 months
                                                    home confinement, placed on additional 4
Investigations Involving Public                     years probation, and ordered to make
                                                    restitution of $68,000 and pay a $300
Officials                                           special assessment fee.

      In Springfield, MA, James Krzystofik,              In U.S. District Court at Chicago,
former Deputy Director, Greater                     Chicago, IL, Deborah Ahmad Bey, also
Springfield Entrepreneurial Fund (GSEF),            known as Deborah Dunn, was indicted on
a City of Springfield nonprofit                     seven counts of bankruptcy fraud. According
organization, was sentenced in U.S.                 to the indictment, Bey, a Chicago police
District Court, District of Massachusetts,          officer, and former owner of a HUD-
to 41 months confinement and 36 months              approved nonprofit organization called
of supervised release upon completion of            Developing Economical and Better Living,
sentence, ordered to pay a $300 special             Inc. (DEBL, Inc.), participated in the HUD
assessment fee, and ordered to make                 Bulk Sale program by purchasing multiple
restitution of $723,553. Krzystofik                 discounted properties with the commitment
previously pled guilty to conspiracy and            to rehabilitate and resell to median-level
other charges relating to the embezzlement          income families. However, Bey refinanced
and theft of more than $700,000 in funds            several of the discounted properties in her
received from the Small Business                    own name, causing her to receive significant
Administration (SBA) and U.S.                       profits. Bey filed multiple bankruptcy
Department of Commerce (DOC). GSEF                  petitions and allegedly failed to disclose
had also obtained $697,000 in Urban                 ownership of multiple properties and
Development Action Grant (UDAG) funds               significant amounts of cash from property
for its startup costs. It had been determined       sales, rental income, and additional
that much of the UDAG funds had been                employment. As a result, she was granted a
used to cover shortages in the books, which         financial discharge of more than $56,000 in
had to be presented to SBA and DOC                  debts and withheld more than $80,000 in
monthly. Kryzstofik was one of four public          unreported income to the U.S. Bankruptcy
officials working at GSEF to be convicted           Court.



HUD’s Community Planning and Development Programs                                                  91
                                                 In Los Angeles, CA, in Federal Court,
                                                                                             Conspiracy
Community Planning & Development Programs
                                            Central District of California, Albert
                                            Robles, former Treasurer and City
                                            Councilmember for the City of South Gate,             In Tampa, FL, defendant Dean Ryan,
                                            CA, and two business partners, Edward            a general contractor was sentenced in U.S.
                                            Espinoza and Michael Klistoff, were              District Court, Middle District of Florida,
                                            indicted on 39 counts of mail fraud, wire        to one count of conspiracy to defraud the
                                            fraud, money laundering, and theft or            U.S. Government and one count of paying
                                            bribery concerning programs receiving            a bribe to a public official. Because Ryan
                                            Federal funds. Robles used his political         cooperated and testified on behalf of the
                                            office and influence to funnel money from        Government, Ryan was sentenced to 6
                                            a variety of City projects to family, friends,   months house arrest and 5 years supervised
                                            and business partners during the years           probation that cannot be reduced and
                                            1998-2003. CBDG funds were used to fund          required to pay the City of Tampa $72,000
                                            illegal contracts Robles arranged with his       in restitution.
                                            business partners. It is estimated that Robles
                                            personally received $1.2 million in proceeds          Defendant Steve Labrake, former
                                            derived from these illegal contracts.            Director of Business and Community
                                                                                             Development for the City of Tampa, was
                                                 Erma Kendrick, former Executive             sentenced in U.S. District Court, Middle
                                            Director of Kern County Mental Health            District of Florida, on 30 counts including
                                            Association (KCMHA), Fresno, CA, and             conspiracy to defraud and commit offenses
                                            Edwina Jackson, former Assistant Executive       against the United States, wire fraud,
                                            Director of KCMHA, were indicted by a            receiving bribes as public officials, receiving
                                            Federal grand jury in the Eastern District of    gratuities, theft or bribery concerning
                                            California on one count each of theft and        programs receiving Federal funds, and
                                            conspiracy. KCMHA was the recipient of a         stealing public money. Labrake was
                                            HUD Supportive Housing Program grant             sentenced to 60 months incarceration in
                                            in the amount of $156,240. On May 16,            the custody of the Federal Bureau of Prisons
                                            2002, KCMHA received $70,230 as part of          and 36 months supervised probation and
                                            the grant for the purchase of a handicap-        ordered to pay the City of Tampa $142,000
                                            accessible van and to hire supporting staff.     in restitution.
                                            Erma Kendrick and Edwina Jackson
                                            diverted the $70,230 grant funds for a                Defendant Paulette Lynn McCarter
                                            purpose other than the intended use. The         (Labrake), former Senior Redevelopment
                                            $70,230 was used to pay for checks that          Counselor, City of Tampa, was sentenced
                                            were written by KCMHA as part of its             on 28 counts including conspiracy to
                                            participation as a “payee” in the Social         defraud and committing offenses against
                                            Security Administration “Payee” program.         the United States, wire fraud, receiving
                                            More than $36,000 of the grant funds were        gratuities, theft or bribery concerning
                                            paid to a storeowner who had entered into        programs receiving Federal funds, and
                                            an agreement with KCMHA to cash checks           stealing public money. McCarter (Labrake)
                                            of KCMHA “payee” clients. Many of the            was sentenced to 41 months incarceration
                                            checks cashed by the storeowner came back        in the custody of the Federal Bureau of
                                            to him with nonsufficient funds, and the         Prisons and 36 months supervised
                                            $36,000 was paid to him to cover those           probation and ordered to pay the City of
                                            checks.                                          Tampa $142,000 in restitution.


                                    HUD’s Community Planning and Development Programs                                                    92
                                                                                                   Community Planning & Development Programs
    Defendant Chester Luney, former                 build their home in exchange for 15 HUD-
Executive Director for Tampa Hillsborough           funded contracts with an additional $3,000
Action Plan (THAP), a nonprofit                     built into the contract for Ryan. Ryan was
organization, was sentenced on 19 counts,           required to pay thousands of dollars for
including conspiracy to defraud and                 Labrake’s and McCarter’s personal debts.
commit offenses against the United States,          Labrake directed Luney to pay Ryan
wire fraud, bribing a public official, giving       $30,000 from HUD funds in furtherance
a gratuity to a public official, theft or           of the scheme. Luney, through THAP,
bribery concerning programs receiving               received additional funds from the City of
Federal funds, and stealing public money.           Tampa by padding its property acquisition
Luney was sentenced to 33 months                    costs. Luney used HUD funds to pay
incarceration in the custody of the Federal         employees and supply costs to build
Bureau of Prisons and 36 months                     Labrake’s and McCarter’s home, valued at
supervised probation and ordered to pay             $670,000. As a result of this investigation,
the City of Tampa $142,000 in restitution.          the City of Tampa is repaying HUD $4.5
                                                    million for funds misappropriated under
    The investigation revealed that                 the direction of Labrake while serving as a
defendants Labrake, McCarter, Luney, and            City official. Additional funds are expected
Ryan conspired to defraud HUD for their             to be repaid to HUD based upon the sale
personal benefit using HOME and CDBG                of properties acquired under LaBrake that
funds. Labrake and McCarter had Ryan                were deemed ineligible acquisitions.




HUD’s Community Planning and Development Programs                                                  93
           Chapter 6




Other Significant HUD Audits and
  Investigations/OIG Hotline
Other Audits & Investigations/OIG Hotline
                                                 Audits                                                  Report on the U. S. Department
                                                                                                         of Housing and Urban
                                                     During this reporting period, the Office            Development ’s Fiscal Year 2004
                                                 of Inspector General (OIG) issued 10
                                                 reports: 9 internal audits and 1 external               Financial Statements
                                                 audit involving areas of U.S. Department
                                                 of Housing and Urban Development                            Our report on HUD’s fiscal year (FY)
                                                 (HUD) operations that do not fall under                 2004 financial statements is included in
                                                 major HUD programs reported in previous                 HUD’s FY 2004 Performance and
                                                 chapters.                                               Accountability Report. For FY 2004, The
                                                                                                         Office of Management and Budget (OMB)
                                                      OIG audited HUD and Government                     directed agencies to complete their
                                                 National Mortgage Association (Ginnie                   Performance and Accountability Reports and
                                                 Mae) financial statements; reported on                  submit them to the President, OMB, and the
                                                 KPMG, LLP’s audit of the Federal Housing                Congress by November 15, 2004, thereby
                                                 Administration’s (FHA) financial                        requiring that we complete our work by that
                                                 statements; and audited the travel card                 date.
                                                 program, the purchase card program, the
                                                 information security program, and                            We were unable to express an opinion
                                                 information systems. Our more significant               on HUD’s FY 2004 principal financial
                                                 audits are discussed below.                             statements for the following reasons:

                                                                                                                Final consolidated financial statements,
                                                   Chart 6.1: Other Audit Reports Issued                        reflecting all material proposed
                                                                                                                adjustments and related disclosures,
                                                            1                                                   were not presented to the OIG
                                                                                                                auditors in time to allow us to apply
                                                                                                                all the procedures necessary to meet
                                                                                            9                   government auditing standards and
                                                                                                                render an opinion in time to meet the
                                                           Internal Reports       External Reports
                                                                                                                OMB-required reporting date.

                                                          Chart 6.2: Other Audit Dollars                        We were unable to obtain sufficient
                                            750,000,000
                                                                                                                competent evidential matter in a timely
                                                                                                                manner to satisfy ourselves that HUD’s
                                            600,000,000
                                                                                                                obligation transactions and balances
                                            450,000,000                                                         were supported by appropriate source
                                            300,000,000                                                         documents. Department officials were
                                            150,000,000                                                         unable to retrieve documents support-
                                                     0                                                          ing significant project-based Section 8
                                                            Internal Reports         External Reports
                                                                                                                obligations in a timely manner. In
                                                      Questioned Costs         Funds Put to Better Use          addition, we experienced delays in

                                                 The chart cost figures in this chapter represent the actual monetary benefits for all reports issued during
                                                 this semiannual period. The monetary benefits shown in the Profile of Performance represent only those
                                                 reports with management decisions reached during this semiannual period. Because there is a time lag
                                                 between report issuance and management decisions, the two totals will not agree.


                                    Other Significant HUD Audits and Investigations/OIG Hotline                                                            96
                                                                                                         Other Audits & Investigations/OIG Hotliine
      obtaining underlying support for                  including the need to enhance FHA
      significant balances pertaining to the            information technology systems to more
      Section 236 interest reduction                    effectively support FHA’s business and
      payments.                                         budget processes; (2) improve oversight and
                                                        monitoring of subsidy calculations and
      We were unable to obtain sufficient               intermediaries’ program performance; and
      competent evidential matter in a timely           (3) improve FHA’s management review over
      manner to satisfy ourselves that Note             the credit reform estimation process.
      17 on Rental Housing Subsidy Payment              Reportable conditions in internal controls in
      Errors was supported by appropriate               FY 2004 related to the need to (1) improve
      source documents. Department                      quality control over performance measures
      officials were unable to complete the             data reliability; (2) strengthen controls over
      supporting studies or provide adequate            HUD’s computing environment; (3) improve
      supporting documentation in a timely              personnel security practices for access to the
      manner to allow us to apply all the               Department’s critical financial systems; (4)
      procedures necessary to meet                      improve processes for reviewing obligation
      government auditing standards.                    balances; (5) improve controls for developing
                                                        estimates of budget authority required for the
      Interim milestone dates associated with           Section 236 Interest Reduction Program; (6)
      the accounting firm of KPMG, LLP’s                more effectively manage controls over the
      audit of FHA’s financial statements               FHA systems’ portfolio; and (7) place
      were missed because of (1) the late               more emphasis on monitoring lender
      receipt of the Mutual Mortgage                    underwriting, continue to improve early
      Insurance Fund actuarial study, which             warning processes, and establish effective
      is critical to completion of audit work           loan portfolio risk assessment tools for
      relating to the Single Family Liability           single-family insured mortgages. In addition,
      for Loan Guarantees, and (2) material             our reportable condition on improving the
      errors found in the calculation and               processes for reviewing obligation balances
      reporting of the FHA Multifamily                  identified $708 million in monetary benefits,
      Liability for Loan Guarantees and Loan            which we reported as “funds to be put to
      Loss Reserve for its Mark-to-Market               better use.”
      loan portfolio risk category. Missing
      interim milestone dates with the FHA                   Most of these control weaknesses were
      audit contributed to the Department’s             reported in prior efforts to audit HUD’s
      missing agreed-upon milestone dates               financial statements and represent long-
      associated with consolidating FHA’s               standing problems. Our findings also
      financial statements with those of the            include the following instance of
      remainder of the Department.                      noncompliance with applicable laws,
                                                        regulations, and provisions of contracts
     In a separate report issued by OIG, we             and grant agreements that are required to
provided additional details concerning our              be reported under government auditing
audit of HUD’s FY 2004 Financial                        standards or OMB Bulletin No. 01-02. HUD
Statements. The report describes three                  did not substantially comply with the Federal
material weaknesses in internal controls                Financial Management Improvement Act. In
related to the need to (1) comply with Federal          this regard, HUD’s financial management
financial management system requirements,               systems did not substantially comply with



Other Significant HUD Audits and Investigations/OIG Hotline                                              97
Other Audits & Investigations/OIG Hotline
                                             (1) Federal Financial Management System              systems to more effectively support FHA’s
                                             requirements and (2) applicable accounting           business and budget processes, and (2)
                                             standards.                                           improve FHA’s management review over the
                                                                                                  credit reform estimation process. Reportable
                                                  The audit discusses each of these               conditions in internal controls in FY 2004
                                             conditions in detail, provides an assessment         related to the need to (1) more effectively
                                             of actions taken by HUD to mitigate them,            manage controls over the FHA systems’
                                             and makes recommendations for corrective             portfolio and (2) place more emphasis on
                                             actions. During the course of the audit, OIG         monitoring lender underwriting, continue to
                                             also identified several matters that were not        improve early warning processes, and
                                             material to the financial statements and were        establish effective loan portfolio risk
                                             separately communicated to HUD                       assessment tools for single-family insured
                                             management (Audit Report: 2005-FO-0003).             mortgages. The report also identifies
                                                                                                  one reportable instance of potential
                                                                                                  noncompliance with laws, regulations,
                                             Federal Housing Administration                       contracts, and grant agreements that KPMG
                                             Financial Statements Audit                           tested. During the course of the audit, KPMG
                                                                                                  also noted other internal control matters that
                                                                                                  are not material to the financial statements
                                                 We reported on the results of KPMG,              and are being separately communicated to
                                             LLP’s audit of FHA’s financial statements for        FHA management. (Audit Report: 2005-
                                             the years ending September 30, 2004 and              FO-0002)
                                             2003.

                                                  In KPMG’s opinion, the financial                Government National Mortgage
                                             statements present fairly, in all material           Association Financial Statements
                                             respects, FHA’s financial position as of
                                             September 30, 2004 and 2003, and its net
                                                                                                  Audit
                                             costs, changes in net position, budgetary
                                             resources, and reconciliation of net costs to             In accordance with the Government
                                             budgetary obligations for those years in             Corporation Control Act, as amended, we
                                             conformity with accounting principles                audited the Ginnie Mae financial statements.
                                             generally accepted in the United States of           This report presents the results of our audit
                                             America.                                             of Ginnie Mae’s principal financial statement
                                                                                                  for the year ending September 30, 2004. Also
                                                  The report identifies two material              provided are assessments of Ginnie Mae’s
                                             weakness and two reportable conditions on            internal controls and compliance with laws,
                                             internal control, discusses each of these            regulations, and provisions of contracts that
                                             conditions in detail, provides an assessment         could have a direct and material effect on its
                                             of actions taken by FHA to mitigate them,            financial statements. Our report includes a
                                             and makes recommendations for corrective             copy of Ginnie Mae’s principal financial
                                             actions. The material weaknesses in internal         statements for the years ending September
                                             controls in FY 2004 related to the need to (1)       30, 2004 and 2003. However, the objective
                                             comply with Federal financial management             of our audit was to express an opinion on
                                             system requirements, including the need to           the fair presentation of these financial
                                             enhance FHA information technology                   statements.




                                    Other Significant HUD Audits and Investigations/OIG Hotline                                              98
                                                                                                           Other Audits & Investigations/OIG Hotliine
     We found that Ginnie Mae’s financial               program and more equitably distribute the
statement is presented fairly, in all material          number of cardholders assigned to each
respects, in conformity with the U.S.                   administrative officer for monitoring. We also
generally accepted accounting principles.               recommended that HUD establish
Our consideration of internal control over              procedures to ensure that (i) travel card
financial reporting would not necessarily               accounts are canceled when employees
disclose all matters in the internal control over       separate from HUD and (ii) employees are
financial reporting that might be material
                                                        not issued more than one travel card. (Audit
weaknesses under standards issued by the
                                                        Report: 2005-DP-0002)
American Institute of Certified Public
Accountants. However, we noted no matters
involving the internal control and its                  Purchase Card Program Audit
operation that we considered to be material
weaknesses. We noted no matters material                    We audited HUD’s purchase card
to the financial statement that require                 program to determine whether actions taken
recommendations in this report. (Audit                  on the recommendations made in a 2003
Report: 2005-FO-0001)                                   audit report issued by the U.S. Government
                                                        Accountability Office (GAO) on HUD’s
Travel Card Program Audit                               purchase card program resulted in better
                                                        program management and were effective in
     We audited HUD’s travel card program               preventing or detecting inappropriate use.
to determine whether sufficient management
controls were implemented to effectively                       We found that the actions taken to
detect inappropriate transactions.                      resolve the issues reported in the 2003 GAO
                                                        audit report have resulted in significant
     HUD needs to improve management                    improvement in the overall management
controls over the travel card program’s                 of the purchase card program. HUD has
training and monitoring functions. Although             developed and put into operation several
we found that cardholders traveling on                  policies designed to improve card
official Government business generally used             transaction approval, review, monitoring,
the card in accordance with governing                   and training procedures. While these
policies, we estimated that 6.3 percent of the          actions have reduced the frequency of
transactions processed during the audit                 improper and questionable purchase card
period (January 2002 through September                  transactions reported in the 2003 report, we
2003) were improper in that they were for               still found instances of questionable activity.
personal use—purchases or cash advances                 We also found administrative weaknesses
not associated with official Government                 associated        with      documentation
travel. Additionally, cardholder accounts               maintenance, statement reconciliations,
were not always closed in a timely manner               delegations of authority, and the payment
when HUD employment was terminated and                  of sales tax.
when cardholders were issued a new travel
card.                                                       We recommended that HUD improve
                                                        controls over purchase card program
     We recommended that HUD improve                    administrative functions by making sure
its travel card training and monitoring                 monitoring procedures include detailed


Other Significant HUD Audits and Investigations/OIG Hotline                                               99
Other Audits & Investigations/OIG Hotline
                                             reviews of documentation maintenance,                Information Systems Review
                                             statement reconciliations, delegations of
                                             authority, and sales tax payments. (Audit
                                                                                                       We reviewed general and application
                                             Report: 2005-DP-0003)
                                                                                                  controls for selected information systems as
                                                                                                  part of the OIG’s audit of HUD’s financial
                                             Information Security Program                         statements for FY 2004. We found
                                             Evaluation                                           weaknesses and deficiencies in controls. The
                                                                                                  weaknesses and deficiencies in controls are
                                                                                                  related to HUD’s noncompliance with
                                                  The Federal Information Security
                                                                                                  (i) requirements for internal controls
                                             Management Act of 2002 (FISMA) requires
                                                                                                  established by OMB, (ii) guidance for
                                             the OIG to perform an annual independent             securing information systems issued by the
                                             evaluation of HUD’s information security             National Institute of Standards and
                                             program and practices. Our testing found             Technology (NIST), and (iii) HUD’s own
                                             weaknesses in network security that we               policies and procedures. We recommended
                                             reported to the Acting Director for                  that the Assistant Secretary for
                                             Information Technology Operations in a               Administration/Chief Information Officer
                                             memorandum, dated August 6, 2004. Other              ensure that OMB requirements, FISMA,
                                             weaknesses in information system security            NIST guidelines, and HUD’s own internal
                                             are reported in our audit report entitled FY         policies and procedures are implemented.
                                             2004 Review of Information Systems Controls          The Assistant and Deputy Assistant
                                             in Support of the Financial Statement Audit.         Secretary for Administration/Chief
                                             Generally, we reported that improvements             Information Officer concurred with all
                                             are needed in network security, contingency          applicable recommendations. (Audit Report:
                                             planning for information systems, and the            2005-DP-0001)
                                             agencywide information system security
                                             program. In our assessment, HUD has not
                                             documented and implemented an
                                             agencywide information security program in
                                             a timely manner as specified in section 3544(b)
                                             of FISMA and has not fully established the
                                             minimum set of controls provided in
                                             appendix III to Office of Management and
                                             Budget (OMB) Circular A-130, Security of
                                             Federal Automated Information Resources.
                                             However, HUD has taken steps to improve
                                             information system security and has made
                                             commendable efforts to improve its
                                             organization for an effective information
                                             system security program. (Audit Report:
                                             2005-DP-0801)




                                    Other Significant HUD Audits and Investigations/OIG Hotline                                            100
                                                                                                          Other Audits & Investigations/OIG Hotliine
                                                        purchased have property attached and
Investigations                                          some are performing loans. As of March
                                                        31, 2005, Ginnie Mae has written off losses
     During this reporting period, the OIG              of $488 thousand and has a remaining
opened 13 investigation cases and closed                whole loan asset of $24.5 million.
8 cases involving areas of HUD operations               Signatures would then be forged on the
that do not fall under specific program                 altered/counterfeit loan documents, and
categories. Judicial action taken on                    the subjects would use the fraudulent
these cases during the period included                  documents to warehouse lenders to draw
$186,618 in investigative recoveries,                   down on their lines of credit. The proceeds
seven indictments/informations, four                    were then wired into accounts controlled
convictions/pleas/pretrial diversions, nine             by the subjects and ultimately laundered.
administrative actions, six personnel                   The subjects laundered funds into the
actions, and seven arrests.                             Cayman Islands. They created fictitious title
                                                        companies, Ginnie Mae document
    Some of the investigations discussed                custodians, and Ginnie Mae security trade
in this report were conducted by OIG,                   tickets. FHA was victimized by the
while others were conducted jointly with                subject’s loan origination fraud schemes
Federal, State, and local law enforcement               and endorsed more than 10,000 loans, which
agencies. The results of our more significant           included thousands of loans not conforming
investigations are described below.                     to FHA underwriting guidelines. GreatStone
                                                        provided fraudulent audited annual
Conspiracy and Money Laundering                         financial statements to Ginnie Mae, which
                                                        concealed and failed to include accurate
                                                        financial information about the liabilities of
     In Tampa, FL, defendant William
                                                        GreatStone.
Jones was sentenced in U.S. District Court,
Middle District of Florida, to 108 months
incarceration and 24 months supervised                  Personnel Action
release and ordered to pay $77.9 million
in restitution. Jones previously pled guilty                 A HUD employee, a GS-12 construction
to one count of conspiracy to defraud the               analyst, in Houston, TX, was sentenced to
United States and two counts of making                  one year of confinement in a Texas
false statements to HUD. Jones was the                  Department of Corrections State jail. The
General Manager of GreatStone Mortgage                  employee pled guilty to two counts of felony
and coconspired with several other subjects             forgery in a District Court in Houston, TX ,
in defrauding FHA, Ginnie Mae, and                      and will serve the sentences concurrently. The
Warehouse Lenders, causing one of the                   guilty plea resulted from two indictments
largest schemes and financial losses                    handed down in September 2003.
involving HUD’s Streamline Refinance                         The investigation disclosed that the
program in HUD’s history.                               HUD employee passed two counterfeit
                                                        cashier’s checks in the amount of $10,000 each
     GreatStone packaged and pooled more                for the downpayment on a conventional
than $52 million worth of loans, which it               home loan. The employee indicated to
certified to Ginnie Mae met the FHA                     investigators that the checks were given to
criteria. Ginnie Mae has had to purchase                him as payment for architectural work
$38 million in loans that did not meet FHA              performed during nonduty hours for an
criteria from the portfolio. All of the loans           outside party.

Other Significant HUD Audits and Investigations/OIG Hotline                                              101
Other Audits & Investigations/OIG Hotline
                                                  Shortly before sentencing, the employee              In Baltimore, MD, Maryland Circuit
                                             was sent a memorandum by HUD which                   Court, Baltimore County, defendant Robert
                                             proposed his removal for engaging in conduct         Miller, who had previously pled guilty to
                                             unbecoming a Federal employee, citing the            various felony theft charges in connection
                                             felony forgery, committing a State                   with theft of funds from prospective
                                             misdemeanor by his fraudulent use of a false         purchasers of HUD and Department of
                                             “registered architect” stamp, engaging in            Veterans Affairs (VA) foreclosed
                                             prohibited outside architectural work for            properties, was sentenced to 12 years
                                             coworkers, and making false statements to            incarceration. Investigation by HUD-OIG
                                             investigators before admitting he altered a          and the Maryland State Attorney General
                                             college diploma to show he received a degree         determined that in 2001 and 2002, Miller
                                             in architecture.                                     at various times, falsely represented
                                                                                                  himself as a realtor, lawyer, mortgage
                                             Bid Rigging and Theft                                broker, or investor, inducing at least 17
                                                                                                  individuals to provide downpayments
                                                                                                  toward the purchase of a HUD- or VA-
                                                 In Philadelphia, PA, HUD real estate-
                                                                                                  owned property, when he had no fiduciary
                                             owned preservation and protection
                                                                                                  interest in any of the properties. Miller stole
                                             contractors John and Rita Mancinelli,
                                                                                                  at least $43,840 from these individuals and
                                             doing business as R.A. Property Services,
                                                                                                  used the money for his personal benefit.
                                             were sentenced in U.S. District Court,
                                             Eastern District of Pennsylvania, based on
                                             their previous admission of guilt to                 Child Exploitation
                                             involvement in a bid rigging scheme. John
                                             Mancinelli was sentenced to 6 months                       HUD-OIG Special Investigations
                                             incarceration, to be followed by 12 months           Division (SID), Washington, DC, conducted
                                             supervised release. Rita Mancinelli was              a joint investigation with the Commonwealth
                                             sentenced to 18 months of supervised                 of Pennsylvania, Office of the Attorney
                                             release. Further, they were ordered to pay           General, Bureau of Criminal Investigation
                                             $17,000 in restitution to HUD, which                 (BCI), Child Sexual Exploitation Unit, to
                                             represents the amount of money that HUD              identify and expose a HUD employee using
                                             was overcharged.                                     his HUD computer to send sexually explicit
                                                                                                  and pedophilic e-mails to an individual,
                                                 The investigation determined that,               whom the HUD employee believed was
                                             during the latter part of 1999, the                  the father of three minor children, who
                                             Mancinellis created and submitted false              would permit the employee to have sexual
                                             bidding documents on behalf of                       relations with the children. In fact, the
                                             nonexistent competitors to obtain HUD-               HUD employee was communicating with a
                                             funded property preservation work,                   BCI undercover agent.
                                             including cleanouts and winterization, in
                                             excess of $200,000. Since they were                      In an arrangement devised by SID and
                                             manipulating the bidding, there was no               BCI, HUD-OIG and SID Special Agents
                                             incentive to keep costs down, and it was             caught the HUD employee at his desk at
                                             eventually determined that they had                  the HUD Philadelphia Home Ownership
                                             overcharged HUD by at least $17,000. John            Center while in the act of attempting to
                                             Mancinelli had been previously convicted             download a file the employee believed
                                             for identical illegal activity in an OIG             contained a photograph of the children.
                                             investigation 7 years earlier.                       SID obtained an admission from the HUD

                                    Other Significant HUD Audits and Investigations/OIG Hotline                                              102
                                                              Other Audits & Investigations/OIG Hotliine
employee as to his involvement in the
sending of sexually explicit and pedophilic
e-mails from his HUD computer and
recovered corroborating forensic evidence.

     The HUD employee resigned after
pleading guilty to violation of Title 18,
Pennsylvania Consolidated Statutes,
Section 901/6318, Criminal Attempt/
Unlawful Contact with Minor, a felony. In
February 2005, the defendant was
sentenced to a term of imprisonment in the
custody of the Pennsylvania Department
of Corrections for a period of not less than
12 months and not to exceed 120 months,
to be followed by a term of probation of 10
years. The defendant was also required to
register as a sex offender. Before imposing
the sentence, the presiding judge described
the e-mails sent by the defendant from his
HUD computer as “the most disgusting
thing I’ve heard a human being say they
would do to children,” noting that the e-
mails “went from bad to worse to
disgusting to monstrous.” The judge
described the defendant as a “clear and
present danger to the children of the
Commonwealth of Pennsylvania.”

Assault
     In Boston, MA, Antonio Loura, former
Section 8 landlord, was indicted by a grand
jury in the District of Massachusetts,
Boston, MA. Loura was indicted on one
count of assault on a Federal officer. Loura
was indicted after he allegedly threatened
two HUD-OIG Special Agents with a knife
while the agents were interviewing Loura.




Other Significant HUD Audits and Investigations/OIG Hotline   103
Other Audits & Investigations/OIG Hotline
                                                                                                    headquarters to register a complaint about
                                             OIG Hotline                                            program operations. Every allegation
                                                                                                    received by the Hotline is logged into a
                                                  In August 2004, the OIG Hotline was               database and tracked.
                                             combined with a new fraud prevention
                                             initiative to form the Program Integrity                    Of the complaints received, 883 were
                                             Division (PID). The PID has a Director and             related to the mission of OIG and were
                                             seven full-time employees. The seven                   addressed as Hotline cases. Hotline cases
                                             employees concentrate on Hotline-related               are referred to OIG’s Offices of Audit and
                                             work, which includes taking allegations of             Investigation or to HUD program offices
                                             waste, fraud, abuse, or mismanagement in               for action and response. The following
                                             HUD or in HUD-funded programs from                     illustration shows the distribution of
                                             HUD employees, contractors, and the                    Hotline case referrals by percentage.
                                             public and coordinating reviews with
                                             internal audit and investigative units or                  The Hotline closed 657 cases this
                                             with HUD program offices. The Hotline is               reporting period. The closed Hotline cases
                                             operational 5 days a week, Monday                      included 99 substantiated allegations. The
                                             through Friday, from 10:00 a.m. to 4:30                substantiated allegations resulted in 13
                                             p.m., Eastern Time.                                    administrative sanctions against HUD
                                                                                                    employees for personnel violations or
                                                 During this reporting period, the                  investors for improprieties involved in the
                                             Hotline has received and processed 8,998               purchase of a home. The Department also
                                             complaints—76 percent received by                      took 86 corrective actions that resulted in
                                             telephone, 21 percent by mail, and 3 per-              $117,226 in recoveries of losses and
                                             cent by e-mail. The Hotline also inter-                $1,824,881 in HUD funding that could be
                                             viewed one individual who visited HUD                  put to better use.



                                                                         Chart 6.2: Hotline Cases Opened by Program

                                                                                                  Community
                                                                                Other HUD         Planning &
                                                                                  Offices         Development            Single Family
                                                   OIG Audit &
                                                                                   7%                 5%                   Housing
                                                   Investigation
                                                       14%                                                                   11%




                                                                                                                               Multifamily
                                                                                                                                Housing
                                                                                                                                 15%
                                                                                          Public and Indian
                                                                                              Housing
                                                                                                 48%




                                    Other Significant HUD Audits and Investigations/OIG Hotline                                              104
                                                                                                     Other Audits & Investigations/OIG Hotliine
                     Chart 6.3: Hotline Dollar Impact from HUD Program Offices


            1,200,000
                                                                            1,049,853
            1,000,000

              800,000

              600,000
                                   474,746
              400,000
                                                         300,282
              200,000
                                                  44,431              72,795
                               0
                     0

                           Recoveries $117,226          Funds Put to Better Use $1,824,881



    The recoveries included Section 8                   in which homebuyers submitted false
tenants, who must reimburse housing                     documentation to qualify to purchase
authorities for assistance to which they                homes financed by FHA loans. The
were not entitled, based on improper                    following chart illustrates the issue
reporting of income or household                        breakdown of the substantiated allegations
composition. Some of the funds that could               by percentage.
be put to better use were the result of cases

           Chart 6.4: Substantiated Cases by Type of Complaint Received by Hotline

                                                        Owner/Occupant
                                                                                  False
                                                          Violations
                                   Mismanagement                               Statements
                                                             7%
        Rental Fraud &                  7%                                         4%
         Improprieties
                                                                                        Employee
             72%
                                                                                        Misconduct
                                                                                            7%


                                                                                            Other
                                                                                             3%




Other Significant HUD Audits and Investigations/OIG Hotline                                          105
  Chapter 7




Outreach Efforts
                             T       o     foster     cooperative,
                                       informative, and mutually
                       beneficial relationships with agencies and
                                                                         Massachusetts Department of Revenue
                                                                         that will allow the WHA to match reported
                                                                         tenant income against the State wage data.
                       organizations whose intent is to assist in        The WHA is the first public housing
                       the accomplishment of the U.S. Department         authority in Massachusetts to be able to do
                       of Housing and Urban Development’s                income matching. The second was the
                       (HUD) mission, the Office of Inspector            success of the ongoing efforts of HUD-OIG,
                       General (OIG) participates in a number of         the WHA Public Safety Department, the
                       special outreach efforts. These efforts, as       Worcester Police Department (WPD), and
                       described below, are in addition to our           the Massachusetts State Police (MSP)
                       regular coordination with Federal, State,         Violent Fugitive Apprehension section to
                       and local law enforcement agencies; other         arrest fugitive felons living in either public
                       OIGs; and various congressional                   housing or Section 8 units. The operation
                       committees and subcommittees. During              has resulted in more than 50 arrests. The
                       these outreach efforts, we not only present       third was the continuing efforts of
                       the results of our audit and investigative        HUD-OIG, the WHA Public Safety
                       work and discuss our goals and objectives;        Department, and the WPD in addressing
                       we also provide information about OIG’s           the illegal/unauthorized residents living in
                       role and function.                                WHA public housing developments,
                                                                         resulting in their eviction or inclusion on
                            Inspector General (IG) Kenneth               the lease.
                       Donohue spoke at a press conference in
                       Worcester, MA, to an audience of 60                   Also speaking at the press conference
                       individuals from the local television             were U.S. Congressman James McGovern;
                       stations, newspapers, and radio stations          Raymond Mariano, Executive Director,
                       and residents of the Worcester Housing            WHA; Worcester Police Chief Gary
                       Authority (WHA) at the Great Brook                Gemme; and representatives from, the
                       Valley Public Housing Development. IG             Worcester County District Attorneys
                       Donohue announced three new HUD-OIG               Office and the WHA Board of
                       initiatives. The first was an agreement           Commissioners. All the speakers praised
                       signed between HUD-OIG, WHA, and the              the cooperation among the various
                                                                                  agencies. After the press
                                                                                  conference, IG Donohue
Outreach Efforts




                                                                                  presented the WPD Gang Unit
                                                                                  with a plaque to recognize its
                                                                                  “Dedication and Commitment to
                                                                                  the Children Living in Worcester
                                                                                  Public Housing Communities.”
                                                                                  IG Donohue visited the WPD
                                                                                  summer camp last summer and
                                                                                  wanted to officially recognize
                                                                                  their efforts.


                       Inspector General Kenneth Donohue addresses the
                       Worcester Housing Authority.




              Outreach Efforts                                                                                      108
                                                                 On the same day, IG Donohue
                                                            and ASAC Valdes met with Palm
                                                            Beach County Housing Authority
                                                            Executive Director (ED) Barry
                                                            Seaman to discuss additional
                                                            strategies to address tenant fraud in
                                                            Authority developments. ED
                                                            Seaman thanked IG Donohue for
                                                            OIG’s support in addressing Section
                                                            8 subsidized tenant fraud, and IG
                                                            Donohue pledged continual OIG
                                                            support through the Authority’s
                                                            Section 8 Fraud Initiative.
Inspector General Kenneth Donohue at the Worcester
police department summer camp.                               Special Agent In Charge (SAC)
                                                     Peter Emerzian, Regional Inspector
    Additionally, IG Donohue was the                 General for Audit (RIGA) John Dvorak,
guest speaker on a Worcester radio talk              and ASAC Maureen Nelting gave a
show WTAG 580 with Raymond Mariano                   presentation, “Tackling Fraud in Public
and Jordan Levy, the host of the show. IG            Housing,” to approximately 150 members
Donohue discussed the role of HUD-OIG                attending the midwinter conference of
and the success of HUD-OIG initiatives in            the New England Council of the
Worcester and throughout the country.                National Association of Housing and
                                                     Redevelopment Officials being held in
     IG Donohue, along with OIG                      Uncasville, CT. SAC Emerzian discussed
Assistant Special Agent in Charge (ASAC)             OIG’s upcoming Rental Subsidy Fraud
Ruth Valdes, met with the Palm Beach                 Initiatives, as well as the mission of the IG.
County, FL, Sheriff Ric Bradshaw and                 ASAC Nelting discussed tenant, landlord,
presented an appreciation plaque to Palm             and public housing authority employee
Beach County Sheriff’s Colonel Michael               fraud. RIGA Dvorak talked about the
Gauger, honoring him for his work as a               Office of Audit, management controls, and
Fraud Investigator at the Palm Beach                 Web sites that may be helpful.
County Housing Authority over the last
year. Colonel Gauger is a 33-year employee
of the Sheriff’s Office who worked recently
with HUD-OIG addressing Section 8
subsidized fraud as part of the Section 8
                                                     SAC Emerzian and ASAC Diane H.
                                                     DeChellis of HUD-OIG met with
                                                     Boston, MA, Police Department (BPD)
                                                     Superintendent Paul F. Joyce, Jr., and
                                                                                                      Outreach Efforts
Fraud Initiative. Colonel Gauger promised            Deputy Superintendent Paul A. Fitzgerald
continual support of OIG’s initiative                to discuss HUD-OIG’s authority and
through the Sheriff’s Office Community               mission, as well as to discuss the benefits
Policing program. IG Donohue addressed               of cooperation between HUD-OIG and the
press issues during the presentation from            BPD. During this meeting, discussions
the Palm Beach Post and the local Channel            included developing a Fugitive Felon
9 TV station, which provided positive                Initiative involving BPD, Boston
information relating to the national Section         Housing Authority (BHA) Police, MSP and
8 Fraud Initiative.                                  HUD-OIG in Federal housing sites in
                                                     Boston.


Outreach Efforts                                                                                      109
                            In Framingham, MA, SAC Emerzian            was well attended with more than 150
                       and ASAC DeChellis met with MSP Lt.             appraisers at the conference. SAC
                       Colonel John D. Kelly, Detective Captain        Emerzian provided an overview of the OIG
                       Brian X. Lilly, and Detective Captain           and presented a case study on a
                       Michael J. Saltzman to discuss HUD-OIG’s        single-family investigation involving
                       authority and mission, as well as to discuss    appraisers. RIGA Wolfe and ASAC
                       the benefits of cooperation between HUD-        Dechellis discussed the respective roles of
                       OIG and the MSP. During this meeting,           the Offices of Audit and Investigation.
                       discussions included developing a Fugitive      ASAC Nelting detailed the investigative
                       Felon Initiative in Federal housing sites in    methods and criminal schemes common in
                       the State of Massachusetts with the MSP,        single-family investigations. Ms. Shaffer
                       HUD-OIG, and local police departments in        provided guidance to program problems
                       Massachusetts.                                  encountered by the appraisers. At the
                                                                       conclusion of the presentation there was a
                           In Boston, MA, SAC Emerzian and             question and answer session with the OIG
                       ASAC DeChellis met with BPD                     staff and Ms. Shaffer. The highlight was at
                       Commissioner Kathleen O’Toole and               the end of the presentation when one of
                       Superintendent Paul F. Joyce, Jr., to discuss   the appraisers thanked HUD and our staff
                       OIG’s authority and mission, as well as to      for “helping prevent America’s
                       discuss the benefits of cooperation between     neighborhoods from becoming slums.”
                       OIG and the BPD. During this meeting,
                       discussions included developing a Fugitive           SAC Nadine Gurley made a
                       Felon Initiative involving BPD, BHA Police,     presentation in Columbia, SC, on single-
                       MSP, and OIG in Federal housing sites in        family fraud to the South Carolina
                       Boston, MA.                                     Appraisal Institute. SAC Gurley discussed
                                                                       fraud awareness regarding loan
                            In Boston, MA, SAC Emerzian invited        origination fraud and common schemes
                       Julie Shaffer, Director, Quality Assurance      used in committing mortgage fraud.
                       Division, to meet with the Boston Office of     Approximately 65 appraisers representing
                       Investigation in an effort to generate          all areas of South Carolina attended the
                       additional single-family investigations in      presentation.
                       Region 1. As a result, Ms. Shaffer discussed
                       single-family fraud trends in Region 1 and          In Uncasville, CT, SAC Emerzian,
Outreach Efforts




                       provided training on the availability and       RIGA John Dvorak, and ASAC Nelting
                       use of the computerized single-family           spoke at the New England Council of the
                       programs. Ms. Shaffer also answered             National Association of Housing and
                       program questions relating to ongoing           Redevelopment Official’s Conference on
                       single-family investigations in New             “Protecting Your Agency from Fraud.” The
                       England.                                        presentation briefly covered what
                                                                       constitutes fraud, highlighted several case
                           SAC Emerzian, ASACs Dechellis and           studies that were successfully prosecuted,
                       Nelting, Acting RIGA Heath Wolfe, and           and emphasized that in preventing fraud,
                       Director of HUD’s Quality Assurance             sound management controls are critical to
                       Division Julie Shaffer made a joint HUD         housing due to the nature of their activities
                       and OIG presentation to the Massachusetts       and the relatively large amount of HUD
                       Board of Real Estate Appraisers’ conference     funds handled. There were approximately
                       held in Dedham, MA. The presentation            160 persons who attended this conference.


              Outreach Efforts                                                                                   110
                                                                investigations in public housing
                                                                areas. ASAC Rosario and SA
                                                                Bonano provided Lt. Garcia with
                                                                a list of the fugitive felons wanted
                                                                by other local and Federal
                                                                authorities. An agreement was
                                                                made to work jointly on this
                                                                initiative. A few days later, with
                                                                the assistance of Lt. Garcia’s
                                                                group, OIG was able to arrest three
                                                                of the most wanted fugitive felons.

                                                                       In San Juan, PR, ASAC Noel
                                                                 Rosario and SA Bonano met with
SAC Emerzian presenting at the New England Council               the Commissioner of the Financial
of the National Association of Housing and Redevelop-   Institutions, Mr. Alfredo Padilla, and Mr.
ment Official’s Conference on “Protecting Your Agency
from Fraud.”                                            Aponte Asdrubal, Director of Enforcement
                                                        of the institution. During the meeting, there
                                                        was a discussion of the HUD-OIG mission
    ASAC Lori J. Chan and Special                       and authority and the need for joint efforts
Agents (SAs) Keith Fong and Eric Huhtala                between OIG and the Commission of
met with the Chief of Police for the                    Financial Institutions to combat the
Sacramento, CA, Police Department.                      existing fraud scheme on the single-family
During the meeting, they gave the Chief                 housing loan programs. The Commissioner
an overview of the functions of OIG and                 and the Director of Enforcement agreed to
informed him of various programs to                     provide help on this Mortgage Fraud
include Section 8 and Fugitive Felon. The               Initiative.
Chief invited them to attend his INFOTEC
meeting later that day where they gave                       As part of HUD-OIG’s outreach
the same presentation to all of the                     program, ASAC George Dobrovic and SA
Commanding staff of the Sacramento                      Patrick Jefferson provided a presentation
Police Department. Approximately 30                     on trends in mortgage fraud to the
individuals were in attendance to include               Mortgage Society of Ohio (MSO), held at
the Chief, his Deputy Chiefs, Captains,
Lieutenants, and some Sergeants. The
presenters received positive feedback, made
contacts, and exchanged business cards.
                                                        the Holiday Inn, Independence, OH. The
                                                        MSO is a nonprofit organization of financial
                                                        institutions, title companies, mortgage
                                                        companies, and credit reporting agencies,
                                                                                                        Outreach Efforts
                                                        which holds monthly meetings to provide
    In San Juan, PR, ASAC Noel Rosario                  its membership with topics of interest to
and SA Edwin Bonano met with Lt. Garcia,                improve customer service. The issue of OIG
Director of the Puerto Rico Police                      becoming a trusted resource and partner
Extraditions and Special Arrest Unit. The               in the barrier against FHA loan fraud was
main purpose of this meeting was to                     stressed, with the association president
explain and discuss OIG’s authority and                 requesting a return presentation in 2005.
the Fugitive Felon Initiative, which                    Approximately 40 people were in
involved the local police, and HUD-OIG                  attendance.



Outreach Efforts                                                                                        111
                            Region 6 ASAC Brad Geary provided             RIGA Joan Hobbs of the Pacific/
                       a presentation involving HUD and               Hawaii Region spoke before a crowd of
                       bankruptcy fraud to the U. S. Trustee’s        about 150 certified public accountants at
                       Office at the Department of Justice            their annual Western Region Real Estate
                       National Advocacy Center in Columbia,          Conference held at Indian Wells, CA.
                       SC. The session concentrated on the role       During the conference, Joan Hobbs
                       that HUD-OIG plays in investigating real       provided information on the mission of
                       estate schemes and how fraud and false         HUD-OIG and the results of the many
                       statements within the U.S. Bankruptcy          audits performed in the area of single-
                       Court play a role in these frauds.             family loan fraud.
                       Approximately 50 people were in
                       attendance.                                        Assistant Regional Inspector General
                                                                      for Audit (ARIGA) Cris O’Rourke and
                            In furtherance of the HUD’s National      RIGA John Dvorak from Region 1
                       Fugitive Felon Initiative, beginning in        spoke at the Massachusetts Section 8
                       March of 2005, HUD-OIG Special Agents          Administrators conference about the OIG
                       implemented the Louisiana National             mission. The topics included, the Inspector
                       Fugitive Felon Initiative. Along with          General Act, IG’s mission, what the IGs are
                       members of the United States Marshals          authorized to do, who oversees the IG,
                       Service (USMS), two sweeps have been           HUD management and employee
                       conducted in New Orleans, LA, in public        responsibilities, organizational structure of
                       housing and Section 8 programs, resulting      OIG, what the Office of Audit does, audit
                       in five arrests of individuals who are         plans and audit followup, and how OIG
                       wanted either locally or nationally. These     focuses on HUD’s top management
                       individuals will be referred for eviction      challenges. Approximately 100 people
                       through the Housing Authority of New           attended.
                       Orleans. This initiative is ongoing and will
                       be worked throughout the State of                   RIGA Ron Hosking served as a guest
                       Louisiana in an effort to eradicate wanted     speaker in the Performance Auditing class
                       persons from public housing and Section 8      at the University of Kansas in Lawrence,
                       programs. HUD-OIG, along with members          KS. Performance Auditing is a graduate
                       of USMS, led this initiative.                  level course designed to “introduce
                                                                      students to performance auditing and to
Outreach Efforts




                            Television court Judge Joe Brown was      explain the relevance of performance
                       in Indianapolis, IN, to accept honors from     auditing to broader issues in public
                       city officials and HUD-OIG for helping to      administration.” RIGA Hosking provided
                       bring attention to housing fraud. The          the students with information about the
                       Indianapolis, IN, Housing Agency               history and organization of the OIGs, how
                       presented Brown with a plaque after two        OIG plans and conducts its audits, how it
                       Indianapolis cousins (Rhonda Revere            issues and resolves its audit reports, and
                       Simmons and Pamela S. Hamler) appeared         how it evaluates and measures its
                       on his show and gave information that led      performance.
                       authorities to charge them and four others
                       with welfare fraud and theft.




              Outreach Efforts                                                                                  112
    In Houston, TX, Senior Auditor           efforts on the Section 8 program, and the
Angela Wilson of the Houston Office of       results of some completed housing
Audit spoke at the Public Housing            authority audits.
Authority Peer Group Meeting held on
January 19, 2004. Auditor Wilson gave a          Region 5 ARIGA Thomas Towers gave
presentation on OIG’s audit efforts to       a presentation on February 24, 2005, to
counteract rental assistance overpayments.   Michigan Brokers/Agents in HUD’s
The audience included more than 50           Detroit Field Office. The presentation
directors, staff members, and management     covered the mission and functions of both
agents of Houston area public housing        OIG and the Office of Audit. There were
authorities. Auditor Wilson shared           approximately 40 attendees who were
background information on OIG, why the       interested in buying and selling HUD
Inspector General is focusing its audit      properties.




                                                                                         Outreach Efforts


Outreach Efforts                                                                         113
        Chapter 8




Review of Policy Directives
                                       R          eviewing and making
                                                    recommendations on
                                 legislation, regulations, and policy issues is
                                                                                  determination on who will be prosecuted
                                                                                  under State law is reserved to State
                                                                                  authorities.
                                 a critical part of the Office of Inspector
                                 General’s (OIG) responsibilities under the            OIG has investigated many cases
                                 Inspector General Act. During this               involving tenants who falsely reported their
                                 6-month reporting period, the OIG                incomes. These investigations resulted in
                                 reviewed 117 policy notices. This                successful prosecutions or other remedial
                                 chapter highlights some of the OIG               actions. Currently, OIG has pending
                                 recommendations on these notices as well         investigations involving tenants who have
                                 as other policy directives.                      defrauded the Office of Public and Indian
                                                                                  Housing assistance programs. The draft
                                 Establishment of Amnesty Programs at             notice threatens to jeopardize current
                                                                                  investigations and to undermine the
                                 Public Housing Agencies Resulting                fairness of past convictions.
                                 from Income and Rent Determinations
                                                                                       The Office of Public and Indian
                                      The following information was               Housing has not issued the draft notice and
                                 included in the September 30, 2004               is reconsidering its provisions.
                                 Semiannual Report to Congress, and the
                                 U.S. Department of Housing and Urban
                                                                                  Proposed Rules
Review of Policy Directives




                                 Development (HUD) had not reached a
                                 final decision on our comments. The draft
                                 Public and Indian Housing 2004 Notice of         Followup on the Electronic Submission
                                 Funding Availability (NOFA) provides             of Applications for Grant and Other
                                 requirements to housing agencies that plan
                                 to offer tenants amnesty as a result of the
                                                                                  HUD Financial Assistance
                                 Upfront Income Verification System
                                                                                       The following information was
                                 detecting a difference between the tenants’
                                                                                  included in the September 30, 2004,
                                 claims of income and the income reported
                                                                                  Semiannual Report to Congress, and HUD
                                 by their employers or agencies providing
                                                                                  had not reached a final decision on our
                                 income assistance. The Department
                                                                                  comments. HUD issued a proposed rule to
                                 initiated the Upfront Income Verification
                                                                                  inform potential applicants for HUD
                                 System to reduce subsidy errors caused by
                                                                                  grants or other Federal financial assistance
                                 tenants who are underreporting or not
                                                                                  about how to submit their applications to
                                 reporting their income.
                                                                                  HUD electronically. We did not concur
                                                                                  with this rule originally because we found
                                      We did not concur with this draft
                                                                                  that the system was not being used to the
                                 notice because it inappropriately
                                                                                  extent predicted and the proposed rule
                                 empowers housing agencies to decide who
                                                                                  failed to ensure that the internal
                                 will be prosecuted. Title 28, U.S.C.,
                                                                                  mechanisms at HUD could accommodate
                                 paragraph 516, states that the Attorney
                                                                                  the grants.gov data inflow. The Office of
                                 General of the United States is responsible
                                                                                  Management and Budget (OMB) stated
                                 for deciding who will be prosecuted for a
                                                                                  that only 327 grants had been processed
                                 Federal offense. In the Tenth Amendment
                                                                                  since the system went online in March 2004
                                 to the United States Constitution, the
                                                                                  and it planned to receive 15,000 grant



                        Review of Policy Directives                                                                        116
applications in the first year. We found that   Conversion of Developments from
HUD had failed to test or record the            Public Stock: Methodology for
process of system-to-system interfaces to
ensure that data would flow directly into       Comparing Costs of Public Housing
HUD’s databases. Without the proper             and Tenant-Based Assistance
interface, HUD would not be able to use
grants.gov in an efficient and effective             The following information was
manner. HUD also did not obtain a risk          included in the September 30, 2004
assessment from system owners to mitigate       Semiannual Report to Congress and HUD
control weaknesses. This program is one         had not reached a final decision on our
of the 24 Federal cross-agency e-               comments. The United States Housing Act
government initiatives focused on               of 1937, as amended, mandates that when
improving access to services via the            a development in the low-income program
Internet. The vision for grants.gov is for it   costs more to operate than comparable
to be a simple, unified source for              units in the Section 8 Housing Choice
electronically applying for, funding, and       Voucher (Voucher) program, the units in
managing grant opportunities.                   the low-income program must be
                                                converted to the Section 8 Voucher
     We now concur with the proposed            program. To implement the statute, the
rule since HUD is working toward being          Office of Public and Indian Housing
in full compliance with the OMB                 circulated a draft rule on the conversion of




                                                                                               Review of Policy Directives
requirements. In conjunction with HUD’s         developments from the low-income
release of this year’s “SuperNOFA,” a           program: Methodology for Comparing
notice that makes available $2.26 billion in    Costs of Public Housing and Tenant-Based
funding through an unprecedented 53             Assistance.
grant opportunities. HUD’s Secretary
announced that all applicants will be in            HUD’s appropriations act for the last
compliance with grants.gov. For fiscal year     several years mandated that none of the
(FY) 2005, electronic submission is             funds made available through the act may
mandatory unless the applicant receives a       be used until a risk assessment is conducted
waiver from this regulatory requirement.        and any risks identified are appropriately
The only other exception is for those           mitigated. Further, departmental policy
applying for funding through HUD’s              provides that a rule may not be published
Continuum of Care homeless assistance           until the risk assessment has been
programs. The departmental Grants               completed. We did not concur with the
Management and Oversight Division has           issuance of the draft rule because the
observed initial favorable results based on     Department has not conducted a risk
the limited number of calls by potential        assessment on the conversion program as
applicants, compared to a year ago,             required by the appropriations act and
regarding the application process. HUD          HUD internal policy.
attributes the upfront planning for the
smooth transition from paper application            Section 9(g)(3) of the Quality Housing
to electronic.                                  and Work Responsibility Act limits the
                                                number of units being replaced by the
                                                housing agency to the number of units in
                                                the housing agency inventory on October



Review of Policy Directives                                                                    117
                                 1, 1999. We did not concur with the                 The Housing Act of 1937, as amended,
                                 proposed rule because HUD has not               allows housing agencies to develop units
                                 published the number of units in each           using capital funds and also limits the
                                 housing agency inventory on October 1,          replacement units to the number of units
                                 1999, as a control measure for preventing       in the housing agency inventory on
                                 housing agencies from constructing new          October 1, 1999. HUD has not circulated a
                                 units exceeding the amount allowed.             report identifying the number of units in
                                                                                 inventory on October 1, 1999, for each
                                      The Department’s draft rule does not       housing agency. We did not concur with
                                 preclude housing agencies from                  the proposed rule because HUD has not
                                 constructing new units to replace units         published the number of units in each
                                 converted from the low-income program           housing agency inventory on October 1,
                                 to the Section 8 Voucher program. Further,      1999, as a control measure to insure the
                                 we did not concur with this decision            housing agencies do not build more units
                                 because HUD’s draft rule did not mandate        than allowed under the statute.
                                 that the housing agency ensure operating
                                 costs for the newly constructed units do not         The Office of Public and Indian
                                 exceed those for comparable units in the        Housing is considering OIG’s comments.
                                 Section 8 Voucher program.                      The proposed rule has not been published
                                                                                 as of the close of this semiannual reporting
                                    The Office of Public and Indian              period.
Review of Policy Directives




                                 Housing is currently revising the draft rule.
                                                                                 FR-4712-01 Disposition of HUD-
                                 Public Housing Capital Fund                     Acquired Single Family Property-Good
                                                                                 Neighbor Next Door
                                     This proposed rule governs public
                                 housing agencies’ use of HUD-provided                The following information was
                                 funds for either the development of new         included in the September 30, 2004
                                 housing or the modernization of existing
                                                                                 Semiannual Report to Congress and HUD
                                 housing, as well as activities to improve
                                                                                 had not reached a final decision on our
                                 existing management. The proposed rule
                                                                                 comments. HUD proposed a rule to
                                 was circulated to implement the provision
                                                                                 expand the eligibility of the Officer Next
                                 in section 9 of the 1937 Housing Act, as
                                 amended. HUD’s appropriations act in FY         Door and Teacher Next Door programs
                                 2001 provided capital funds of $3 billion       (OND/TND) to tribal police officers,
                                 and about $2.5 billion in FYs 2002 through      firefighters, and emergency rescue workers
                                 2004 or approximately $10.5 billion since       under a “Good Neighbor Next Door” title.
                                 FY 2001.                                        The program gives a first offer to purchase
                                                                                 advantage and typically a 50-percent price
                                     HUD’s appropriation act in 2001 and         discount to these potential buyers of HUD
                                 every act since then contain a general          single-family properties that are located in
                                 provision mandating a risk assessment be        urban revitalization areas.
                                 conducted before the regulation is
                                 prepared. We did not concur with the               We commented that the proposed
                                 proposed rule because HUD had not               changes to the OND/TND program
                                 completed the required risk assessment.         appear to remain vulnerable to abuse and


                        Review of Policy Directives                                                                       118
may never achieve the stated purpose of          Federal laws relating to risk assessment.
reducing neighborhood crime rates and            The proposed rule is subject to this
urban blight. OND/TND program abuses             provision because development activities
were documented in a previous audit              must obtain environmental reviews and the
report (Audit Report No. 2001-AT- 0001)          statute for environmental reviews contains
and individual guilty pleadings to criminal      the risk assessment provision. The
convictions. As to achieving the program’s       Department has not conducted a risk
purpose, a recent HUD study of OND/              assessment.
TND in Rialto, CA, and Spokane, WA,
                                                      The Housing Act of 1937, as amended
concluded that there must be a sufficient
                                                 in section 9(g)(3), allows housing agencies
concentration of OND/TND properties in
                                                 to develop units using capital funds but
the revitalization zones to effectively reduce
                                                 limits the development of new units to the
crime rates. Many HUD properties sold
                                                 number of units in the housing agency
early in the program were not in the             inventory on October 1, 1999. HUD has not
targeted areas of greatest need and,             circulated a report identifying the number
therefore, contributed little to the             of units in inventory on October 1, 1999,
program’s goals. While program changes           for each housing agency, and HUD has not
have corrected this problem, HUD has not         established a control method to ensure the
demonstrated that a sufficient number of         housing agencies do not build more units
properties can be made available in the          than allowed under the statute.




                                                                                                  Review of Policy Directives
targeted areas nationwide to effect
measurable neighborhood change. Timely                The Housing Act of 1937, as amended
and sufficient property availability is a        in section 33 on the conversion of distressed
systemic flaw in the program design not          public housing to tenant-based assistance,
easily corrected, and, consequently,             mandated that the low-income program
expanding eligibility to other special           units that cost more to operate than
occupations is not warranted.                    comparable units in the Section 8 Voucher
                                                 program must be converted to the Section
    The Department was reviewing our             8 Voucher program. HUD’s proposed rule
comments at the end of the semiannual            does not provide controls to ensure
reporting period.                                compliance by the housing agencies.

Use of Housing Capital and Operating                  Nineteen projects were not subject to
                                                 existing controls because they were
Funds for Financing Activities                   approved by the Office of Policy, Programs,
                                                 and Legislative Initiatives before the
    OIG does not concur with the                 program was transferred to the Office of
proposed rule for the following reasons:         Public Housing Investments. The Office of
                                                 Public Housing Investments established an
     Public Law 108-199, section 411, as         improved control structure for processing
well as HUD’s appropriations acts for the        applications; however, due to the existing
last several years, mandated that none of        workload, the staff has not reevaluated the
the funds made available through the act         projects approved by Office of Policy,
may be used for any program, project, or         Programs, and Legislative Initiatives. OIG
activity when it is known that the program,      is concerned about the ratio of workload
project, or activity is not in compliance with   to staff capacity and the approval of


Review of Policy Directives                                                                      119
                                 projects not subject to the improved control   the authority provided to HUD in the
                                 measures.                                      statute by authorizing the pledging of
                                                                                funds.
                                      The Public and Indian Housing
                                 Information Center (PIC) system was               Our nonconcurrence with the
                                 evaluated in connection with the internal      proposed rule is under review by the
                                 audit. The PIC system does not contain a       Department.
                                 module for the bond program. OIG is
                                 concerned that there is not an adequate
                                 information system to control the workload     Mortgagee Letters
                                 flow and facilitate monitoring.
                                                                                Premium Pricing on FHA-Insured
                                     The proposed rule states that OMB          Mortgages
                                 determined this rule is a “significant
                                 regulatory action.” OMB issued new                  HUD drafted a mortgagee letter
                                 guidelines for regulatory analysis in          to allow premium pricing of Federal
                                 Circular A-4, effective January 1, 2005. The   Housing Administration (FHA)-insured
                                 proposed rule contains the statement of        mortgages to fund the homebuyer’s
                                 proposed need required by OMB Circular         required 3-percent cash investment or
                                 A-4; however, it does not contain an           downpayment. Premium pricing may be
                                 examination of alternative approaches, an      used currently to pay the homebuyer’s
Review of Policy Directives




                                 evaluation of the benefits and costs–          closing costs and prepaid expenses. HUD
                                 quantitative and qualitative–of the            believes that premium pricing will help
                                 proposed action, and the main alternatives     cash-short but otherwise credit-worthy
                                 as mandated by OMB Circular A-4.               borrowers buy their first homes.
                                      The proposed rule discusses pledging           We nonconcurred because the
                                 funds from the capital fund. The Housing       proposed mortgagee letter places no
                                 Act of 1937, as amended, provides in           obligation on the lender to use premium
                                 section 30 that the Secretary may authorize    pricing for the borrower’s benefit. Based on
                                 a public housing agency to mortgage or         recent mortgagee audits, premium pricing
                                 otherwise grant a security interest in any     was not producing the intended benefit.
                                 public housing project or other property of    Instead of helping FHA homebuyers pay
                                 the public housing agency. It is OIG’s         closing costs, lenders used the monies from
                                 understanding that pledging is associated      premium pricing to compensate the loan
                                 exclusively with capital assets because to     officers or earn higher profits.
                                 complete the pledging transaction, the
                                 investor must perfect the security                Our nonconcurrence with the
                                 instrument by having the local                 proposed rule is under review by the
                                 governmental entity publicly record on the     Department.
                                 face of the asset ownership document that
                                 the asset is pledged and this process can
                                 only be accomplished with a physical asset.
                                                                                Streamline (k) Limited Repair Program
                                 Future funding can be encumbered, as
                                 opposed to pledging, through various              HUD drafted a mortgagee letter to
                                 financial instruments. We did not concur       reduce documentation and control
                                 with the proposed rule because it exceeds      requirements governing the 203(k)


                        Review of Policy Directives                                                                      120
Rehabilitation Home Mortgage Insurance             We commented that relaxing controls
program, an acknowledged higher risk           could expose first-time purchasers with
FHA insurance program. The Streamline          no or limited experience in home
(k) allows special treatment of purchased      improvement projects to unreliable
properties that qualify for eligible repairs   contractors     and     unsatisfactory
between $5,000 and $15,000. Under the          workmanship. We also questioned as
standard 203(k) program, lenders and           excessive a proposed $500 supplemental
borrowers rely primarily on consultants to     loan origination fee to be paid by the
ensure contractor work quality and timely      borrower.
completion. However, the Streamline (k)
eliminates the consultant. Borrowers must          Our comments on the proposed rule
develop a work plan, estimate costs,           are under review by the Department.
identify the vendor or contractor, and
inspect the work.




                                                                                         Review of Policy Directives


Review of Policy Directives                                                              121
   Chapter 9




Audit Resolution
                            I     n the audit resolution process,
                                      Office of Inspector General
                       (OIG) and U.S. Department of Housing
                                                                           As a result of the FY 2004 financial
                                                                      audit process, we reported HUD’s need to
                                                                      comply with Federal Financial
                       and Urban Development (HUD)                    Management System requirements,
                       management agree upon the needed               including the need to enhance the Federal
                       actions and timeframes for resolving audit     Housing Administration’s (FHA)
                       recommendations. Through this process,         information technology systems to more
                       we hope to achieve measurable                  effectively support FHA’s business and
                       improvements in HUD programs and               budget processes and improve FHA’s
                       operations. The overall responsibility for     management review of the credit reform
                       assuring that the agreed-upon changes are      estimation process. While there has been
                       implemented rests with HUD managers.           progress, material weaknesses continue
                       This chapter describes significant pending     with respect to the need to (1) complete
                       issues on which resolution action has been     improvements to financial systems and (2)
                       delayed. It also contains a status report on   improve oversight and monitoring of
                       HUD’s implementation of the Federal            subsidy calculations and intermediaries’
                       Financial Management Improvement Act           program performance. Corrective action
                       of 1996.                                       plans to resolve these issues have continued
                                                                      to change, with final action targeted by the
                           We are proud to note that for the          end of calendar year 2006.
                       eighth consecutive semiannual period,
                       there are no outstanding management            Audits of FHA ’s FY 1991 through
                       decisions on audit recommendations over        2004 Financial Statements
                       6 months old to be reported to Congress.
                       In addition to this chapter on audit
                       resolution, see appendix 2, table A, “Audit         First Issued March 27, 1992. FHA has
                       Reports Issued Before Start of Period with     prepared financial statements for 14 years
                       No Management Decision at March 31,            under the Chief Financial Officers Act,
                       2005,” and table B, “Significant Audit         beginning with FY 1991. The audit of
                       Reports Described in Previous Semiannual       FHA’s FY 2004 financial statements
                       Reports in Which Final Action Had Not          discussed FHA’s need to improve its review
                       Been Completed as of March 31, 2005.”          of the credit reform estimation process as
Audit Resolution




                                                                      a material weakness. The finding revealed
                                                                      that FHA management did not adequately
                       Delayed Actions                                review the underlying data supporting the
                                                                      assumptions in the estimation cash flow or
                                                                      functionality models. This resulted in
                       Audits of HUD ’s FY 1991 through               material errors in the FHA mark to market
                       2004 Financial Statements                      loan loss reserve and the liability for loan
                                                                      guarantee claim projections and
                            First Issued June 30, 1992. HUD has       calculations. The audit continues to
                       been preparing consolidated financial          recognize that FHA needs to (1) improve
                       statements under the requirements of the       its information technology (primarily
                       Chief Financial Officers Act for 14 years,     accounting and financial management
                       beginning with fiscal year (FY) 1991.          systems) to more effectively support FHA’s
                       Various internal control weaknesses have       business and budget processes and (2)
                       been reported in these audits.                 continue to improve early warning and loss


              Audit Resolution                                                                                 124
prevention for single-family insured            risk of losing almost all of the $5.8 million
mortgages through more emphasis on              originally committed to fund the project.
monitoring lender underwriting and more         Further, the City was considering a road
effective use of loan portfolio risk            construction project that may have
assessment tools. A weakness reported           prevented the HACMB from constructing
since the FY 1992 financial statement audit     the center on the planned site or recovering
relates to the need for FHA to more             its full investment in the site. The HACMB’s
effectively manage controls over its            failure to complete the project deprived the
information systems’ general and                City’s low-income community of needed
application level security controls. FHA’s      housing and social services.
latest action plan continues to report
progress toward resolving these remaining            The audit recommended that the
long-standing issues, with final actions        HACMB immediately complete the
targeted over the next 1 to 3 years.            planned sale of the existing site for its fair
                                                market value and use the proceeds to
Significant Revised                             reimburse the Section 8 and bond
                                                construction funds in proportion to the
Management Decisions                            share of costs paid from each fund. In
                                                February 2001, the Office of Housing agreed
                                                to require the HACMB to obtain an
    Section 5(a)(11) of the Inspector
                                                appraisal of the site that is acceptable to
General Act, as amended, requires that
                                                HUD and to provide a copy of the recorded
OIG report information concerning the
                                                deed conveying the site to a bona fide
reasons for any significant revised
                                                purchaser for the full value. The HACMB
management decisions made during the
                                                was also to provide a copy of the closing
reporting period. During the current
                                                statement, showing the sale price and
reporting period, there were significant
                                                support for distribution of the proceeds to
revised management decisions on four
                                                the Section 8 and bond construction funds.
audits.
                                                At that time, HUD expected that the sale
                                                of the site would occur by February 2002,
Housing Authority of the City of                with full implementation of solutions by
Miami Beach, Section 8 and Public               March 2002.



                                                                                                 Audit Resolution
Housing Programs
                                                    In January 2005, following several
                                                target completion date extensions, HUD
     Is sued October 20, 2000. Due to           requested a revised management decision.
inadequate planning and management of           HUD believes that, under the current
human and financial resources, the              administration, the HACMB will be
Housing Authority of the City of Miami          successful with its development plans.
Beach (HACMB) wasted more than $2               Therefore, HUD officials recommended a
million in a failed effort to provide housing   revised management decision to no longer
and social services. The HACMB had not          require the sale of the site (appraised at
broken ground or developed final plans to       more than $2 million). HUD, however, will
fund, construct, and operate a women and        require the HACMB to use a portion of the
children’s housing and resource center. The     development loan to reimburse the Section
center had been delayed for more than 5         8 program for the $980,000 used to
years, and the HACMB had lost or was at


Audit Resolution                                                                                 125
                       purchase the land. A nonprofit arm of the     agreed with the revised management
                       HACMB will be established to develop the      decision. While OIG did not obtain recovery
                       site, and the site will remain under the      of the $220,000 identified as ineligible and
                       ownership of the HACMB. OIG agreed            unsupported, we recorded the $1,005,578
                       with the revised management decision,         in sale proceeds as funds to be put to better
                       and final action was taken on March 31,       use. (Report No. 2003-FW-1801)
                       2005. (Report No. 2001-AT-1001)
                                                                     Section 8 Housing Program,
                       Wood Hollow Place Apartments,                 Kankakee County Housing Program
                       Texas City, TX
                                                                          Issued November 26, 2003. An audit of
                            Issued November 18, 2002. Our audit      the Kankakee County Housing Authority’s
                       memorandum found the management               (Authority) Section 8 housing program
                       agent of Wood Hollow Apartments, Texas        found that the Authority’s management
                       City, TX, had improperly paid advances,       controls over its program were very weak.
                       loans, and other fees totaling more than      The Authority lacked adequate procedures
                       $220,000. The improper payments               and controls over housing quality
                       occurred because the project experienced      standards and administrative processes.
                       cash flow problems and the management         The Authority’s Section 8 units contained
                       agent did not follow the regulatory           health and safety violations. We found a
                       agreement and other HUD regulations. The      total of 873 housing quality standards
                       improper payments weakened the project’s      violations in 47 of the 50 units inspected.
                       financial condition and put the project at    The Authority failed to properly enforce its
                       the risk of default.                          ordinance governing the licensing of
                                                                     housing units occupied by persons other
                            The audit recommended that HUD           than the owners. Further, the Authority did
                       require the management agent to cease         not maintain adequate controls over its use
                       making improper distributions and repay       of Section 8 funds. We recommended that
                       the ineligible and unsupported amounts.       HUD’s Acting Director, Recovery and
                       In December 2002, HUD multifamily             Prevention Corps, Cleveland Field Office,
                       housing officials agreed that the             assure that the Authority implements
Audit Resolution




                       management agent should repay the             procedures and controls to correct the
                       ineligible and unsupported funds and          weaknesses cited in this report.
                       began action to seek civil recovery of the    Additionally, we recommended that the
                       funds. In August 2004, HUD informed OIG       Acting Director (1) take administrative
                       that recovery of the funds was not possible   actions against the Authority’s former
                       and civil and criminal avenues for recovery   Executive Directors and its Board of
                       had been exhausted. However, to protect       Commissioners for failing to administer the
                       its interests, HUD foreclosed on the          Authority according to Federal, City of
                       property and took actions to sanction         Kankakee, and its own requirements; (2)
                       responsible parties. In October 2004, HUD     provide training and technical assistance
                       notified OIG that the note had been sold      to the Authority’s staff and its Board of
                       on September 15, 2004, for $1,005,578. On     Commissioners regarding their duties and
                       January 6, 2005, HUD revised the              responsibilities; and (3) issue a notice of
                       management decision and corrective            default to the Authority as permitted by
                       actions to allow the alternative actions      section 15 of the consolidated annual
                       taken to satisfy the recommendations. OIG     contributions contract. OIG believed that

              Audit Resolution                                                                                 126
HUD’s default notice would help ensure          Spanish Village Community Development
that the Authority used its $2.2 million in     Corporation (SVCDC), Houston, TX, found
Section 8 program funds appropriately.          that SVCDC had not completed HUD-
                                                funded renovations on the Spanish Village
    In March 2004, HUD’s Acting                 Apartments in more than 4 years after it
Director, Recovery and Prevention Corps,        was required to by agreements between
agreed to implement the following               HUD and SVCDC. The upfront grant
corrective actions:                             agreement, sales contract, and special
                                                warranty deed required SVCDC to
      Issue a notice of substantial default     complete the renovations by September
      of the Authority’s consolidated           1998. Due to the lack of administrative
      annual contributions contract.            capacity to carry out the requirements,
                                                SVCDC only completed the first phase of
      Require the Authority to contract         the renovations, and these renovations did
      out administration of its Section         not meet HUD standards. As a result,
      8 program to an alternate                 residents of the property continued to live
      management entity for a period of         in substandard conditions. On March 12,
      2 years.                                  2003, the Fort Worth HUD office declared
                                                a default under the upfront grant
     At that time, HUD expected that the        agreement and gave SVCDC the option to
Authority would be able to obtain an            either (1) sell the property to a nonprofit
alternate management entity. However,           entity with the capacity and experience to
after two unsuccessful attempts, the            complete the rehabilitation and assign the
Authority was unable to find an entity to       remaining grant funds to that entity within
administer its program.                         60 days or (2) deed the property back to
                                                HUD as required by the special warrant
     In January 2005, HUD revised the           deed.
management decision and corrective
actions, and we agreed to the revisions.            The audit recommended that the
HUD will not issue a notice of substantial      Director of Multifamily Housing Property
default and will allow the Authority to         Disposition continue with the remedial
continue to administer its program for 1        action he started by establishing an



                                                                                              Audit Resolution
year. HUD agreed to evaluate the                acceptable plan of action if SVCDC did not
Authority’s program by December 31,             comply with HUD’s options as stated in
2005, to determine whether the Authority        the default letter of March 12, 2003.
should continue to administer its program.
(Report No. 2004-CH-1001)                            On August 27, 2003, the Director,
                                                Multifamily Housing Division, stated that
Citizen’s Complaint Upfront Grant and           he had referred the matter to the Regional
HOME Loan Spanish Village Community             Office of General Counsel (OGC) to
                                                attempt to acquire title to the property
Development Corporation, Houston,               through the courts. If the SVCDC could
TX                                              transfer the property to a new ownership
                                                entity acceptable to HUD before the matter
     Issued April 28, 2003. In response to a    was referred to the Department of Justice
citizen’s complaint, our audit of the upfront   for affirmative litigation, he would cancel
grant and HOME loan provided to the             his request and allow assignment of the


Audit Resolution                                                                              127
                       remaining upfront grant funds to the new       United States Veterans Initiative,
                       entity to rehabilitate the property. He said   Inc. - Supportive Housing Program
                       the Regional OGC would make a litigation
                       referral to Headquarters OGC by December
                                                                      Grantee
                       31, 2003, and OGC would review the
                       referral, consult with the Assistant                Issued September 27, 2004. U.S.
                       Secretary for Housing, and decide by           Veterans Initiative, Inc., a Supportive
                       March 31, 2004, as to whether the matter       Housing Program grantee based in
                       would be referred to the Department of         Inglewood, CA, did not meet cash-
                       Justice for litigation.                        matching fund requirements for $7.2
                                                                      million in Supportive Housing Program
                            On February 7, 2005, the Director,        funds expended. Our recommendations for
                       Multifamily Housing Division, revised the      addressing the deficiencies included
                       management decision and deobligated the        requiring U.S. Veterans Initiative and/or
                       remaining grant funds of almost $1.5           its continuums, the Los Angeles Homeless
                       million. He said the project will continue     Services Authority (LAHSA) and the City
                       to provide affordable housing, but the         of Long Beach, to repay HUD from
                       Department does not wish to pursue legal       nonfederal funds for the Supportive
                       action to reacquire the project because of     Housing Program grant expenditures that
                       the potential increased cost burden to the     did not have the required matching funds.
                       Government. Also, the legal action would
                       impede future repairs to the complex and            In an effort to reach a management
                       probably result in more deterioration.         decision on this report, we agreed that the
                       Therefore, HUD requested this finding be       Office of Community Planning and
                       closed. We agreed with the revised             Development (CPD) could seek guidance
                       management decision. Despite numerous          and clarification from other Federal
                       attempts, neither the SVCDC nor any of         agencies involved, HUD’s OGC, and the
                       the proposed owners provided                   Office of Management and Budget (OMB).
                       documentation to support the assignment        The issues revolve around (1) a
                       of the upfront grant funds. (Report No.        determination of what constitutes
                       2003-FW-1004)                                  matching funds under the Supportive
                                                                      Housing Program; (2) what level of support
Audit Resolution




                                                                      is needed from the grantee, and whether
                       Significant Management                         failure to meet matching requirements
                                                                      invokes the Debt Collection Act; and (3)
                       Decision with Which OIG                        what action HUD will take if it is
                       Disagrees                                      determined that the grantee has not
                                                                      fulfilled the requirements of the grant
                                                                      agreement. We worked with CPD and
                           Section 5(a)(12) of the Inspector          agreed that it could seek clarification from
                       General Act, as amended, requires that         other Federal agencies that are supplying
                       OIG report information concerning any          matching funds as to whether their funds
                       significant management decision with           can be used as the match. Further, we
                       which it is in disagreement. During the        agreed that CPD would seek guidance
                       current reporting period, there was one        from HUD-OGC on questions relating to
                       significant management decision with           what constitutes matching funds under the
                       which we disagreed.                            Supportive Housing Program and defining


              Audit Resolution                                                                                 128
what level of support is required by the           may compromise a claim of the Gov-
grantee.                                           ernment of not more than $100,000
                                                   (excluding interest) or such higher
     OIG and CPD could not agree as to             amount as the Attorney General
whether OMB is the appropriate agency              may from time to time prescribe that
to determine whether a failure to comply           has not been referred to another
with the matching requirements constitutes         executive or legislative agency for
a Federal debt. A precondition to the              further collection action, except that
application of the Debt Collection Act is          only the Comptroller General may
the existence of a “debt” or “claim,” which        compromise a claim arising out of
for purposes of the Debt Collection Act,           an exception the Comptroller Gen-
                                                   eral makes in the account of an ac-
    …means any amount of funds or                  countable official…. [31 U.S.C. §
    property that has been determined by           3711(a)(2)]
    an appropriate official of the Federal
    Government to be owed to the United           Regarding the latter authority to
    States by a person, organization, or      compromise “debts” and “claims” in
    entity other than another Federal         excess of $100,000, the Debt Collection
    agency. A claim includes, without         Act is not explicit, but—with respect to
    limitation...the unpaid share of any      HUD debts—it appears to reserve that
    non-Federal partner in a program          authority to OMB. [see 31 U.S.C. §
    involving a Federal payment and a         3702(a)(4)].
    matching, or cost-sharing, payment by
    the non-Federal partner.... [31 U.S.C.         OIG believed that either CPD must
    § 3701(b)(1)(E)]                          seek guidance from OMB or HUD-OGC
                                              must coordinate with OMB on this
     Thus, pertinent to this matter, a        matter. If OMB or HUD-OGC with
“debt” or a “claim” has two aspects: (1)      OMB’s concurrence determines the
a determination by a Federal official with    failure to provide the excess match is a debt,
appropriate jurisdiction, and (2) that        then, pursuant to statute, CPD should
there is an unpaid share of a matching        attempt to collect the debt and defer to
or cost-sharing obligation by a nonfederal    OMB’s instructions if the debt exceeds



                                                                                               Audit Resolution
entity.                                       $100,000. CPD did not agree to seek
                                              guidance from or to coordinate the issue with
    If the Debt Collection Act is             OMB.
applicable, then two main obligations
control Federal agency action, as follows:         On March 30, 2005, OIG referred the
                                              disagreement to the Deputy Secretary. On
     The head of an executive, judicial, or   April 4, 2005, the Deputy Secretary made a
legislative agency—                           final decision on the actions for which an
                                              agreement could not be made. The Deputy
      shall try to collect a claim of the     Secretary concluded that the failure to
      United States Government for            provide a budgeted match over the statutory
      money or property arising out of the    requirement is not a debt to HUD under 31
      activities of, or referred to, the      U.S.C. § 3701(b)(1).
      agency; [31 U.S.C. § 3711(a)(1)]



Audit Resolution                                                                               129
                           We disagree with this determination and      determined that 38 of its systems were not in
                       stand by our conclusion that HUD should          substantial compliance with FFMIA. At the
                       seek guidance from OMB to determine              end of FY 2004, the Department continued
                       whether the matching funds are subject to        to report that 4 of its 46 financial
                       provisions of the Debt Collection Act. (Report   management systems were not in substantial
                       No. 2004-LA-1008).                               compliance with FFMIA. Our supplemental
                                                                        report regarding HUD’s FY 2004 financial
                       Federal Financial Management                     statements cites additional financial
                                                                        management system weaknesses, addressing
                       Improvement Act of 1996                          how HUD’s financial management systems
                                                                        remain substantially noncompliant with
                           The Federal Management Improvement           Federal financial management requirements.
                       Act of 1996 (FFMIA) requires that HUD            We also cited weaknesses regarding HUD/
                       implement a remediation plan that will bring     FHA’s limited ability to effectively monitor
                       financial systems into compliance with           budget execution related to certain funds
                       Federal Financial Management System              control processes. With the implementation
                       requirements within 3 years or obtain OMB        of the FHA Subsidiary System, the
                       concurrence if more time is needed. FFMIA        Department became substantially compliant
                       requires us to report in our semiannual          with the FFMIA Standard General Ledger
                       reports to the Congress instances and reasons    provision. The FHA Subsidiary General
                       when an agency has not met the intermediate      Ledger Project is a multiphase project to be
                       target dates established in its mediation plan   completed by FY 2007.
                       required by FFMIA. In April 1998, HUD
Audit Resolution




              Audit Resolution                                                                                    130
    Appendix 1




Audit Reports Issued
                          Internal Reports
                          10 Audit Reports
                          Administration (2 Reports)
                          2005-DP-0001             Fiscal Year 2004 Review of Information Systems Controls in
                                                   Support of the Financial Statements Audit, 10/19/2004.
                          2005-DP-0003             Control Over HUD’s Purchase Card Program Needs Improvement
                                                   To Ensure Documentation and Monitoring Requirements are Met,
                                                   02/02/2005.
                          Chief Financial Officer (3 Reports)
                          2005-DP-0002             Control Over HUD’s Travel Card Program Needs Improvement,
                                                   12/01/2004.
                          2005-DP-0004             HUD’s Compliance with Joint Financial Management
                                                   Improvement Program Core Financial System Management and
                                                   General Ledger Management Requirements, 03/04/2005.
                          2005-FO-0003             Additional Details to Supplement Our Report on HUD’s Fiscal
                                                   Year 2004 Financial Statements, 11/15/2004. Better Use:
                                                   $708,000,000.
                          Federal Housing Oversight (1 Report)
                          2005-KC-0001             The Office of Federal Housing Oversight is Comparable to Other
                                                   Federal Financial Regulators in Its Allocation of Resources and
                                                   Staffing, 03/16/2005.
                          Government National MortgageAssociation (1 Report)
Audit Reports Issued




                          2005-FO-0001             Audit of the Government National Mortgage Associations Fiscal
                                                   Year 2004 Financial Statements, 11/12/2004.
                          Housing (2 Reports)
                          2005-FO-0002             Audit of the Federal Housing Administration’s Financial
                                                   Statements for Fiscal Year 2003-2004, 11/15/2004.
                          2005-PH-0001             Criteria Governing Local Government Participation in HUD’s
                                                   Single Family Property Disposition Discount Sales Program,
                                                   03/29/2005.
                          Public and Indian Housing (1 Report)
                          2005-FW-0001             Housing Authority Employee Pension Plan Forfeiture, Public and
                                                   Indian Housing, 10/08/2004. Better Use: $5,300,000.

                          Audit-Related Memorandums*
                          Chief Financial Officer (1 Report)
                          2005-DP-0801             Annual Evaluation of HUD’s Information Security Program,
                                                   10/01/2004
                          * The memorandum format is used to communicate the results of reviews not performed in accordance
                          with generally accepted government auditing standards, to close out assignments with no findings and
                          recommendations, to respond to requests for information, to report on the results of a survey, to report
                          results, or to report the results of civil actions or settlements.

                 Audit Reports Issued                                                                                                132
External Reports
48 Audit Reports
Community Planning and Development (4 Reports)
2005-CH-1008           City of Decatur, IL, Neighborhood Renewal Program, 03/30/2005.
2005-FW-1001           City of New Orleans, LA, Section 108 Program, Louisiana ArtWorks,
                       11/05/2004. Questioned: $22,382; Unsupported: $17,723.
2005-FW-1005           The New Orleans African-American Museum, New Orleans, LA,
                       02/25/2005. Questioned: $1,073,044; Unsupported: $298,434;
                       Better Use: $859,684.
2005-NY-1003           Lower Manhattan Development Corporation, Community
                       Development Block Grant Disaster Assistance Funds, New York, NY,
                       03/23/2005. Questioned: $141,347.
Housing (24 Reports)
2005-AT-1003           American Mortgage Express Corporation d.b.a. American
                       Residential Mortgage Corporation, Mt Laurel, NJ, 11/18/2004.
                       Questioned: $103,794; Better Use: $307,544.
2005-AT-1005           Pan American Financial Corporation, Nonsupervised Direct
                       Endorsement Lender, Guaynabo, PR, 01/27/2005. Questioned:
                       $209,889; Better Use: $1,391,208.
2005-AT-1007           Interstate Financial Mortgage Group Corporation, Nonsupervised
                       Direct Endorsement Lender, Miami, FL, 03/15/2005. Questioned:
                       $147,817; Better Use: $1,057,905.
2005-AT-1008           Trust America Mortgage, Inc., Nonsupervised Direct Endorsement




                                                                                           Audit Reports Issued
                       Lender, Cape Coral, FL, 03/25/2005. Questioned: $130,504; Better
                       Use: $977,709.
2005-CH-1001           Prestige Mortgage Group, Inc., Nonsupervised Loan Correspondent,
                       Springfield, OH, 10/27/2004. Questioned: $13,543; Unsupported:
                       $13,543; Better Use: $1,890,739.
2005-CH-1002           Washington Mutual Bank, Underwriting of Federal Housing
                       Administration-Insured Loans, Downers Grove, IL, 11/29/2004.
                       Questioned: $456,164; Unsupported: $393,801.
2005-CH-1004           Lakewood Care Center, Multifamily Equity Skimming, Milwaukee,
                       WI, 12/22/2004. Questioned: $1,021,056.
2005-CH-1005           Wood Hills Assisted Living Facility, Multifamily Equity Skimming,
                       Kalamazoo, MI, 01/12/2005. Questioned: $518,633.
2005-CH-1006           Flagstar Bank FSB, Supervised Direct Endorsement Lender, Troy,
                       MI, 03/07/2005. Better Use: $251,103.
2005-CH-1007           RBC Mortgage Company, Nonsupervised Mortgagee, Houston,
                       TX, 03/29/2005. Questioned: $50,576; Unsupported: $24,510;
                       Better Use: $16,282,212.
2005-DE-1001           First Source Financial USA, HUD Approved Nonsupervised Loan
                       Correspondent, Midvale, UT, 10/13/2004. Questioned: $410,188;
                       Better Use: $2,205,329.

Audit Reports Issued                                                                       133
                          2005-FW-1002      Domicile Property Management, Inc., Multifamily Management
                                            Agent, San Antonio, TX, 11/19/2004. Questioned: $2,290,291;
                                            Unsupported: $1,469,926; Better Use: $352,053.
                          2005-FW-1003      Heartland Health Care Center of Bethany, OK, 12/10/2004.
                                            Questioned: $18,728,748; Unsupported: $16,418,588.
                          2005-FW-1004      American Property Financial, Nonsupervised Loan Correspondent,
                                            San Antonio, TX, 01/28/2005. Questioned: $175,970; Unsupported:
                                            $10,812; Better Use: $3,300,991.
                          2005-KC-1001      Karim Enterprises, DBA Prime Mortgage, St. Charles, MO,
                                            10/04/2004. Better Use: $376,102.
                          2005-KC-1003      Leader Mortgage Company, Lenexa, KS, 01/25/2005. Questioned:
                                            $3,896; Better Use: $911,738.
                          2005-LA-1803      Wachovia Mortgage Corporation, Direct Endorsement Mortgagee,
                                            Scottsdale, AZ, 11/22/2004. Questioned: $150,264; Unsupported:
                                            $112,092; Better Use: $2,331,795.
                          2005-NY-1002      First United Mortgage Company, Inc., Nonsupervised Mortgagee,
                                            Cranford, NJ, 12/28/2004. Questioned: $6,277; Unsupported:
                                            $2,504; Better Use: $2,482,438.
                          2005-PH-1003      The Town of Clifton, VA’s Participation in the Single Family
                                            Property Disposition Discount Sales Program, 12/21/2004.
                                            Questioned: $355,470; Unsupported: $242,965.
                          2005-PH-1005      Fleet National Bank, Mortgagee Review, Philadelphia, PA,
                                            01/20/2005. Better Use: $659,049.
                          2005-PH-1006      Mortgagee Review of the Peoples National Bank Branch Office,
Audit Reports Issued




                                            Towson, MD, 02/16/2005. Better Use: $2,369,959.
                          2005-SE-1002      National City Mortgage, Federal Way, WA, Branch, 12/16/2004.
                                            Questioned: $5,506; Better Use: $235,660.
                          2005-SE-1003      Oregon Housing and Community Services, Salem, OR, 02/09/2005.
                                            Questioned: $3,375,047; Unsupported: $1,982,052; Better Use:
                                            $286,318.
                          2005-SE-1004      Wells Fargo Bank, NA, Fife, WA, Branch, Supervised Mortgagee
                                            Loan Underwriting, 03/24/2005. Questioned: $667,181;
                                            Unsupported: $600,726; Better Use: $882,319.
                          Public and Indian Housing (20 Reports)
                          2005-AT-1001      The Housing Authority of the City of Carrollton, GA, 11/01/2004.
                                            Questioned: $1,242,264; Unsupported: $1,183,839; Better Use:
                                            $1,489,819.
                          2005-AT-1002      The Housing Authority of the City of Charleston, SC, 11/15/2004.
                                            Questioned: $15,637,414; Unsupported: $15,637,414; Better Use:
                                            $400,000.
                          2005-AT-1004      The Housing Authority of the City of Durham, NC, 11/19/2004.
                                            Questioned: $7,808,748; Unsupported: $953,477; Better Use:
                                            $8,287,142.


                 Audit Reports Issued                                                                      134
2005-AT-1006           The Jefferson County Housing Authority, Birmingham, AL,
                       02/24/2005. Questioned: $3,757,802; Unsupported: $3,361,785;
                       Better Use: $771,076.
2005-BO-1001           Waterbury, CT, Housing Authority, Audit of Selected Programs,
                       10/13/2004. Questioned: $1,526,890; Unsupported: $850,049;
                       Better Use: $2,512,565.
2005-CH-1003           Royal Oak Township Housing Commission, Public Housing
                       Program, Ferndale, MI, 11/29/2004. Questioned: $416,076; Better
                       Use: $435,372.
2005-DE-1002           Boulder County Housing Authority, Boulder, CO, 03/09/2005.
                       Questioned: $556,923; Unsupported: $123,784.
2005-FW-1006           Housing Authority of the City of Houston’s Contractor, Houston,
                       TX, 03/25/2005. Questioned: $1,154,142; Unsupported:
                       $1,140,915; Better Use: $1,180,720.
2005-FW-1007           Housing Authority of the City of Houston’s Contractor, Houston,
                       TX, 03/29/2005. Better Use: $26,132,380.
2005-KC-1002           The Housing Authority of St. Louis County, St. Louis, MO,
                       11/15/2004.
2005-LA-1001           The Housing Authority of the County of San Joaquin, Stockton, CA,
                       11/18/2004. Questioned: $518,559; Unsupported: $4,201; Better
                       Use: $2,980,328.
2005-LA-1002           The Housing Authority of Maricopa County, Mixed-Finance
                       Development Activities, Phoenix, AZ, 03/14/2005. Questioned:
                       $7,723,035; Unsupported: $6,470,775.




                                                                                            Audit Reports Issued
2005-LA-1805           The Housing Authority of the City of Los Angeles, CA, Resident
                       Management Corporations/Resident Advisory Councils,
                       01/21/2005. Questioned: $1,785,450; Unsupported: $894,592.
2005-NY-1001           Glens Falls, NY, Housing Authority, Low-Rent Public Housing and
                       Section 8 Housing Choice Voucher Programs, 11/10/2004.
                       Questioned: $384,085; Unsupported: $384,085; Better Use: $745,352.
2005-PH-1001           Lehigh County Housing Authority, Emmaus, PA, 10/15/2004.
                       Questioned: $93,834; Better Use: $3,079,345.
2005-PH-1002           The Huntington, WV, Housing Authority, 12/02/2004. Questioned:
                       $320,524; Better Use: $46,371.
2005-PH-1004           Corrective Action Verification Review of the Housing Authority of
                       Baltimore City, MD, Section 8 Certificate and Voucher Programs,
                       Audit Report Number 2001-PH-1003, 12/21/2004. Questioned:
                       $70,430; Better Use: $30,610,264.
2005-PH-1007           Lehigh County Housing Authority, Emmaus, PA, 03/09/2005.
                       Questioned: $4,755,323; Unsupported: $4,028,698; Better Use:
                       $1,585,107.
2005-PH-1008           The Housing Authority of the City of Pittsburgh, PA, Moving to
                       Work Demonstration Program, 03/24/2005. Better Use: 102,600,000.


Audit Reports Issued                                                                        135
                          2005-SE-1001             Tulalip Tribes Housing Authority, Marysville, WA, 10/21/2004.
                                                   Questioned: $5,178,314; Unsupported: $5,178,314.

                          Audit-Related Memorandums*
                          General Counsel (1 Report)
                          2005-CH-1802             Program Fraud Civil Remedies Act, AIM Financial, Inc., Kentwood,
                                                   MI, 03/31/2005. Questioned: $35,000.
                          Housing (6 Reports)
                          2005-BO-1002             Massachusetts Housing Finance Agency, Multifamily Property
                                                   Demonstration Disposition Program, Boston, MA, 01/19/2005.
                          2005-CH-1801             RVA Properties Inc., Multifamily Equity Skimming, Farmington
                                                   Hills, MI, 12/22/2004. Questioned: $271,940; Unsupported:
                                                   $248,701.
                          2005-FW-1801             Highland Meadows Apartments, FHA 112-11106, Dallas, TX,
                                                   11/02/2004. Questioned: $124,426.
                          2005-LA-1801             The Carmichael, CA, Rehabilitation Center, Federal Housing
                                                   Administration Project Number 136-43061, 11/04/2004.
                                                   Questioned: $4,093,215.
                          2005-LA-1804             Canoga Care Center, Canoga Park, CA, 01/03/2005. Better Use:
                                                   $3,321,917.
                          2005-NY-1802             Arlington Arms, Multifamily Project No. 031-35237, Jersey City,
                                                   NJ, 01/21/2005. Questioned: $11,799.
                          Public and Indian Housing (2 Reports)
Audit Reports Issued




                          2005-LA-1802             The Housing Authority of the City of Los Angeles, CA, Nonprofit
                                                   Organizations, 11/05/2004.
                          2005-NY-1801             City of Niagra Falls, NY, Section 8 Housing Choice Voucher
                                                   Program, 12/14/2004.




                          * The memorandum format is used to communicate the results of reviews not performed in accordance
                          with generally accepted government auditing standards, to close out assignments with no findings and
                          recommendations, to respond to requests for information, to report on the results of a survey, to report
                          results, or to report the results of civil actions or settlements.



                 Audit Reports Issued                                                                                                136
Appendix 2




  Tables
                                               Table A
                         Audit Reports Issued Prior to Start of Period with No
                                 Management Decision at 03/31/2005
                     * Significant Audit Reports Described in Previous Semiannual Reports

              Report Number & Title          Reason for Lack of              Issue Date/Target
                                             Management Decision             for Management
                                                                             Decision




                                          Nothing to Report
Tables




     Tables                                                                                  138
                                        Table B
    Significant Audit Reports Described in Previous Semiannual Reports Where Final
                    Action Had Not Been Completed as of 03/31/2005
 Report                 Report Title              Issue     Decision      Final
 Number                                           Date      Date          Action

 1997-CH-1010    Major Mortgage Corporation,     09/17/1997 01/06/1998 06/01/2005
                 Section 203(K) Rehabilitation
                 Home Mortgage Insurance
                 Program, Livonia, MI
 1999-FO-0003    HUD Fiscal Year 1998 Financial 03/29/1999 09/30/1999 Note 1
                 Statements
 2000-FO-0002    Federal Housing Administration, 02/29/2000 08/09/2000 12/31/2005
                 Audit of FY 1999 Financial
                 Statements
 2000-FO-0003    Attempt to Audit the FY 1999    03/01/2000 09/29/2000 Note 1
                 Financial Statements, HUD
 2000-KC-0002    Housing Subsidy Payments        09/29/2000 02/21/2001 09/30/2005
 2001-SF-1802    Audit of HUD Earthquake Loan 02/08/2001 06/14/2001 Note 1
                 Program (HELP) Funds,
                 Woodland Hills, CA
 2001-FO-0002    Federal Housing Administration, 03/01/2001 07/24/2001 12/21/2006
                 Audit of Fiscal Year 2000
                 Financial Statements
 2001-FO-0003    Audit of HUD Fiscal Year 2000 03/01/2001 07/18/2001 Note 2
                 Financial Statements
 2001-SF-1803    Supportive Housing Program      03/23/2001 07/24/2001 Note 1
                 Grant, Los Angeles, CA
 2001-CH-1007    Detroit, MI, Housing        05/16/2001 09/13/2001 06/30/2011
                 Commission, Hope VI Program
 2001-PH-0803    Philadelphia, PA,             06/14/2001 06/14/2001 10/11/2005
                 Homeownership Center, Single
                 Family Disposition Activities
 2001-AT-0001    Nationwide Audit Results on   06/29/2001 01/29/2002 02/15/2006
                 the Officer/Teacher Next Door
                 Program
 2002-SF-0001    Nonprofit Participation, HUD    11/05/2001 08/30/2002 Note 1
                                                                                     Tables

                 Single Family Program
 2002-CH-1801    Housing Authority of the City   01/29/2002 05/18/2002 05/15/2005
                 of Evansville, IN



Tables                                                                               139
      Report                Report Title               Issue     Decision      Final
      Number                                           Date      Date          Action

      2002-FO-0002   Federal Housing Administration, 02/22/2002 05/30/2002 12/31/2006
                     Audit of FY 2001 and 2000
                     Financial Statements
      2002-NY-0001   Nationwide Audit Asset Control 02/25/2002 06/17/2002 Note 2
                     Area Program, Single Family
                     Housing
      2002-FO-0003   HUD, Audit of Fiscal Years      02/27/2002 08/16/2002 Note 1
                     2001 and 2000 Financial
                     Statements
      2002-PH-1001   Williamsport, PA, Community     03/19/2002 08/27/2002 11/15/2005
                     Development Block Grant and
                     Home Investment Partnership
                     Programs
      2002-BO-1001   City of Worcester, MA, CDBG     03/27/2002 08/29/2002 07/01/2005
                     Program
      2002-BO-1003   Newport, RI, Resident           04/30/2002 09/16/2002 01/15/2008
                     Council, Inc.
      2002-AT-1002   City of Tupelo, MS, Housing     07/03/2002 10/31/2002 04/30/2010
                     Authority Housing Programs
                     Operations
      2002-KC-0002   Nationwide Survey of HUD’s      07/31/2002 11/22/2002 Note 2
                     Office of Housing Section 232
                     Nursing Home Program
      2002-AT-1808   Homeless and Housing Coalition 09/20/2002 03/31/2003 Note 2
                     of Kentucky, Inc., Frankfort, KY,
                     Outreach and Training Assistance
                     Grant
      2002-NY-1005   The Legal Aid Society, New York, 09/23/2002 03/31/2003 Note 2
                     NY, Outreach and Training
                     Assistance Grant and Public
                     Entity Grant
      2002-DE-1005   Crossroads Urban Center, Salt   09/25/2002 03/31/2003 Note 2
                     Lake City, UT, Outreach and
                     Training Assistance Grants
      2002-DE-1002   Affordable Housing and          09/30/2002 03/31/2003 Note 2
                     Homeless Alliance, Honolulu, HI,
                     Outreach and Training Assistance
Tables




                     Grant and Intermediary Outreach
                     and Training Assistance Grant




     Tables                                                                             140
 Report                Report Title                Issue      Decision     Final
 Number                                            Date       Date         Action

 2002-FW-1003   New Mexico Public Interest       09/30/2002 03/31/2003 Note 2
                Education Fund, Albuquerque,
                NM, Outreach and Training
                Assistance Grant and Public
                Entity Grant
 2002-PH-1002   Virginia Poverty Law Center,     09/30/2002   03/31/2003 Note 2
                Richmond, VA, Outreach and
                Training Assistance Grant
 2002-PH-1003   Delaware Housing Coalition,      09/30/2002   03/31/2003 Note 2
                Dover, DE, Outreach and
                Training Assistance Grant and
                Intermediary Outreach and
                Training Assistance Grant
 2002-PH-1004   Tenants’ Action Group of       09/30/2002     03/31/2003 Note 2
                Philadelphia, PA, Outreach and
                Training Assistance Grant
 2002-PH-1006   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003 Note 2
                Baltimore, MD, Outreach and
                Training Assistance Grant
                Number FFOT0020MD
 2002-PH-1007   Legal Aid Bureau, Inc.,          09/30/2002   03/31/2003 Note 2
                Baltimore, MD, Outreach and
                Training Assistance Grant
                Number FFOT98012MD
 2002-SF-1006   Legal Aid Society of Honolulu,   09/30/2002   03/31/2003 Note 2
                HI, Outreach and Training
                Assistance Grant
 2003-DE-1001   Sicangu Wicoti Awanyakepe        10/08/2002   02/28/2003 07/31/2005
                Corp, Rosebud, SD, Indian
                Housing Block Grant Program
 2003-AT-1801   South Carolina Regional          10/09/2002   02/06/2003 10/31/2005
                Housing Authority No. 3,
                Barnwell, SC
 2003-CH-1003 Tenants United for Housing,        10/29/2002   03/31/2003 Note 2
              Inc., Chicago, IL, Outreach
              and Training Assistance Grants
 2003-SE-1001   Community Alliance of Tenants, 10/31/2002     03/31/2003 Note 2
                Portland, OR, Outreach and
                                                                                    Tables

                Training Assistance Grant




Tables                                                                              141
      Report                 Report Title                Issue     Decision     Final
      Number                                             Date      Date         Action

      2003-KC-1801   University Forest Nursing Care 11/14/2002 02/24/2003     Note 1
                     Center, University City, MO
      2003-SE-1002   Tenants Union, Seattle, WA,   12/02/2002 03/31/2003      Note 2
                     Outreach and Training Assistance
                     Grant and Intermediary Training
                     Assistance Grant
      2003-AT-1001   Northwestern Regional Housing 01/09/2003 06/02/2003      01/09/2006
                     Authority Public Housing
                     Programs, Boone, NC
      2003-FO-0002   Federal Housing Administration 01/21/2003 05/22/2003     12/31/2006
                     Audit of Fiscal Year 2002 and
                     2001 Financial Statements
      2003-PH-1002   Philadelphia, PA, Housing        01/27/2003 06/11/2003   04/30/2005
                     Authority, Contracting and
                     Purchasing Activity
      2003-FO-0004   Audit of HUD’s Financial         01/31/2003 05/22/2003   10/31/2005
                     Statements Fiscal Years 2002
                     and 2001
      2003-NY-1001   Marion Scott Real Estate, Inc., 02/12/2003 06/13/2003    Note 2
                     Management Agent, New York,
                     NY
      2003-FW-1001 Housing Authority of the City 02/21/2003 06/20/2003        12/31/2005
                   of Morgan City, LA, Low-Rent
                   Program
      2003-KC-1803   Richmond Terrace Retirement 03/24/2003 06/19/2003 10/01/2005
                     Center, Richmond Heights, MO
      2003-NY-1003   Empire State Development      03/25/2003 07/16/2003 Note 2
                     Corporation, New York, NY,
                     CDBG Disaster Assistance Funds
      2003-CH-1014 Coshocton, OH, Metropolitan        03/28/2003 07/28/2003 04/30/2047
                   Housing Authority, Public
                   Housing Program
      2003-DE-0001   HUD Office of Multifamily        03/31/2003 03/31/2003 Note 2
                     Housing Assistance
                     Restructuring’s Oversight of
                     the Sec 514 Program Activities
      2003-FW-1004 Spanish Village Community    04/28/2003 08/18/2003 Note 2
Tables




                   Development Corporation,
                   Houston, TX, Upfront Grant &
                   HOME Loan



     Tables                                                                              142
 Report               Report Title               Issue       Decision     Final
 Number                                          Date        Date         Action

 2003-CH-0001 HUD’s Oversight of              05/07/2003 09/11/2003 09/30/2005
              Empowerment Zone Program
 2003-BO-1003   City Of Bridgeport, CT, Home 05/16/2003 09/16/2003 07/31/2005
                Investment Partnership Program
 2003-CH-1017 Housing Continuum, Inc.,        06/13/2003 10/10/2003 Note 2
              Homebuyers Assistance
              Program, Geneva, IL
 2003-KC-0001   Survey of HUD’s Administration 06/24/2003 07/10/2003 Note 2
                of Section 3 of the HUD Act
                of 1968
 2003-AO-0002 HUD Training Academy             07/15/2003 10/24/2003 Note 2
 2003-BO-1004   Brockton, MA, Housing           07/17/2003 10/16/2003    04/30/2005
                Authority, Portability Features
                of the Section 8 Housing Choice
                Voucher Program
 2003-CH-1018   Chicago, IL, Housing           07/18/2003 01/14/2004     12/31/2005
                Authority, Outsourced Property
                Management Contracts Review
 2003-NY-1005   Empire State Development       09/30/2003 01/28/2004     03/31/2007
                Corporation, New York, NY,
                CDBG Disaster Assistance Funds
 2004-KC-1001   East Meyer Community          11/24/2003 03/29/2004      11/30/2005
                Association, Use of HUD Grant
                Funds, Kansas City, MO
 2004-FO-0001   Federal Housing                11/25/2003   02/25/2004   Note 2
                Administration Audit of Fiscal
                Year 2003 and 2002 Financial
                Statements
 2004-CH-1001   Kankakee, IL, County Housing 11/26/2003     03/24/2004   12/31/2005
                Authority, Section 8 Housing
                Program
 2004-CH-1002   Waukesha County CDBG and 11/26/2003         04/29/2004   06/30/2005
                HOME Investment Partnership
                Programs, Waukesha, WI
 2004-PH-0001   Procedures for Filing Uniform 11/26/2003    04/14/2004   04/14/2005
                Commercial Code Continuation
                Statements
                                                                                   Tables

 2004-DP-0001   Fiscal Year 2003 Review of   12/01/2003     05/28/2004   06/30/2005
                Information Systems Controls
                in Support of the Financial
                Statements Audit

Tables                                                                             143
      Report                 Report Title             Issue       Decision     Final
      Number                                          Date        Date         Action

      2004-BO-1004   Danbury, CT, Housing          12/05/2003   04/05/2004   12/01/2008
                     Authority, Capital Fund
                     Program
      2004-BO-1005   Springfield, MA, Housing      12/10/2003   04/23/2004   02/28/2007
                     Authority
      2004-DE-0001   Nationwide Review of          12/15/2003   04/13/2004   04/15/2005
                     Indemnification for Claims on
                     Single-Family Insured Loans
      2004-FO-0003   HUD Audit of Fiscal Year      12/19/2003   07/20/2004   09/30/2005
                     2003 and 2002 Financial
                     Financial Statements
      2004-SE-1002   Scheller-Hess-Yoder and      01/09/2004    05/05/2004   05/31/2005
                     Associates, Nonsupervised
                     Loan Correspondent, Portland, OR
      2004-AT-0001   Public Housing Authority      01/13/2004   05/20/2004   05/13/2005
                     Development Activities
      2004-AT-1001   Housing Authority of          01/15/2004   05/14/2004   12/31/2006
                     the City of Cuthbert, GA,
                     Administration of Housing
                     Development Activities
      2004-BO-0006   Portability Features of the   01/15/2004   05/14/2004   04/30/2005
                     Section 8 Housing Choice
                     Voucher Program
      2004-PH-1002   Allegheny County Housing       01/16/2004 05/14/2004 05/14/2005
                     Authority, Public Housing Drug
                     Elimination Grant Program,
                     Pittsburgh, PA
      2004-FW-1001   City of Little Rock, AR,     01/26/2004 05/25/2004 05/19/2005
                     Housing Authority, Procurement
                     and Asset Control
      2004-AO-0001   Award and Administration of 02/06/2004 06/30/2004 07/01/2005
                     Lead-Based Paint Hazard
                     Reduction Grants
      2004-BO-1006   Nuestra Casa: Project         02/18/2004 05/24/2004 05/24/2005
                     Management Operations,
                     Boston, MA
      2004-DP-0002   Application Control Review of 02/25/2004 07/14/2004     03/31/2006
Tables




                     the Tenant Rental Assistance
                     Certification System




     Tables                                                                             144
 Report                Report Title              Issue      Decision     Final
 Number                                          Date       Date         Action

 2004-FW-1002 Jester Trails Apartment,         02/26/2004 05/18/2004   05/16/2005
              Multifamily Project,
              Houston, TX
 2004-KC-1002 Timberlake Care Center, Use      03/10/2004 07/08/2004   07/08/2005
              of Project Funds, Kansas
              City, MO
 2004-DE-1002 Treehouse Mortgage, LLC,         03/11/2004 07/07/2004   10/31/2005
              Nonsupervised Loan
              Correspondent, Denver, CO
 2004-FW-1003 City of New Orleans, LA,         03/15/2004 09/07/2004 05/13/2005
              Section 108 Loan Program,
              Jazzland Theme Park
 2004-PH-0003 HUD’s Oversight of the           03/17/2004 08/16/2004 08/16/2005
              Philadelphia, PA, Housing
              Authority’s Moving to Work
              Program
 2004-LA-1001 Keystone Mortgage and           03/24/2004    06/25/2004 09/15/2005
              Investment Company,
              Nonsupervised Loan
              Correspondent, Phoenix, AZ
 2004-NY-1001 Empire State Development       03/25/2004     06/30/2004 05/31/2005
              Corporation, CDBG Disaster
              Assistance Funds, New York, NY
 2004-PH-1004 Carbondale Nursing Home,         03/25/2004   07/23/2004 07/22/2005
              Section 232 Project
              Operations, Carbondale, PA
 2004-PH-1005 Petersburg, VA, Redevelopment 03/25/2004      06/01/2004 04/01/2005
              and Housing Authority,
              Nonfederal Entities
 2004-FW-1004 Housing Authority of the City   03/26/2004    07/23/2004 10/15/2009
              of Corpus Christi, TX,
              Financial Management of
              HUD Programs
 2004-SE-1003   Uptown Towers Apartments,     03/26/2004    06/10/2004 05/01/2005
                Portland, OR
 2004-AT-1006 Puerto Rico Public Housing      04/22/2004    07/12/2004 07/11/2005
              Administration, San Juan, PR
                                                                                  Tables

 2004-FW-1006 San Antonio, TX, Housing        04/26/2004    12/08/2004 07/31/2005
              Authority, HOPE VI Program




Tables                                                                            145
      Report                 Report Title             Issue       Decision    Final
      Number                                          Date        Date        Action

      2004-AT-1007 Housing Authority of the City   04/28/2004     07/01/2004 04/28/2005
                   of Asheville, NC
      2004-LA-1003 Homewide Lending Corporation, 05/19/2004       09/01/2004 09/30/2005
                   Nonsupervised Mortgagee,
                   Los Angeles, CA
      2004-AT-1009 Housing Authority of the City   05/20/2004     09/13/2004 09/13/2005
                   of Northport, AL
      2004-SE-1004   Seattle, WA, Housing Authority, 05/21/2004   09/20/2004 12/31/2005
                     Moving to Work Demonstration
                     Program
      2004-PH-1007 City of McKeesport, PA,    05/28/2004          09/24/2004 03/31/2009
                   CommunityDevelopment Block
                   Grant Program
      2004-PH-1008 Safe Haven Outreach Ministry, 06/30/2004       08/31/2004 04/22/2005
                   Incorporated, Washington, DC
      2004-CH-1005 Connexions Enterprise, Inc.,    06/17/2004     09/21/2004 09/08/2005
                   Supportive Housing Program,
                   Chicago, IL
      2004-FW-0001 Management Controls over     06/18/2004        10/14/2004 10/27/2005
                   Grantee and Subgrantee
                   Capacity, Community Planning
                   and Development, Washington, DC
      2004-DE-1003 Housing Authority of the City  06/22/2004      10/20/2004 10/31/2005
                   of Greeley, CO, and Weld County
                   Housing Authority Tenant Selection
                   and Continued Occupancy Activities
      2004-FW-1007 City of New Orleans, LA,        06/22/2004     09/20/2004 04/30/2005
                   Desire Community Housing
                   Corporation
      2004-CH-1006 Housing Authority of the City   06/23/2004     08/26/2004 06/30/2008
                   of Evansville, IN, Housing
                   Assistance Payment Savings
                   Refunding Agreements
      2004-PH-1009 First Funding, Incorporated,    06/29/2004     10/25/2004 10/31/2005
                   Nonsupervised Loan
                   Correspondent, Largo, MD
      2004-LA-1005 Guild Mortgage Company DBA, 07/09/2004         11/06/2004 12/31/2005
Tables




                   Residential Mortgage Bankers,
                   San Diego, CA




     Tables                                                                            146
 Report                 Report Title             Issue     Decision     Final
 Number                                          Date      Date         Action

 2004-AT-0002 Effectiveness of the            07/12/2004   12/13/2004 12/31/2005
              Departmental Enforcement
              Center
 2004-KC-1003 Wells Fargo Home Mortgage,      07/16/2004   03/25/2005 01/31/2006
              Nonsupervised Direct
              Endorsement Lender,
              Des Moines, IA
 2004-AT-1011 Opelika, AL, Housing Authority, 07/23/2004   07/23/2004 04/30/2005
              Public Housing Programs
 2004-KC-1004 Gershman Investment             07/28/2004   11/12/2004 11/30/2005
              Corporation, Nonsupervised
              Direct Endorsement Lender,
              Clayton, MO
 2004-AT-1012 Housing Authority of the City   08/02/2004   11/29/2004 12/31/2020
              of Durham, NC
 2004-PH-1010 Lambeth Apartments, Section    08/04/2004    10/02/2004 08/01/2005
              236/Section 8, Multifamily
              Housing Review, Pittsburgh, PA
 2004-KC-1005 The City’s Housing Program and 08/11/2004    08/17/2004 10/31/2005
              The Role of the Housing and
              Economic Development Finance
              Agency, Kansas City, MO
 2004-AT-1013 Housing Authority of the City   08/19/2004   12/15/2004 11/30/2005
              of Lakeland, FL
 2004-SE-1006   Apreva, Inc., Nonsupervised   08/19/2004   01/11/2005 07/31/2006
                Mortgagee, Bellevue, WA
 2004-CH-1008 Cornerstone Mortgage Group,     09/10/2004   01/05/2005 01/31/2006
              Limited Nonsupervised Loan
              Correspondent, Inverness, IL
 2004-PH-1012 Mortgage America Bankers, LLC, 09/10/2004    01/06/2005 09/30/2006
              Nonsupervised Loan
              Correspondent, Kensington, MD
 2004-FW-1008 United Properties Management, 09/14/2004     01/13/2005 11/30/2005
              Inc., Multifamily Management
              Agent, Little Rock, AR
 2004-NY-1004 Lower Manhattan Development 09/15/2004       01/12/2005 06/30/2005
              Corporation, Community
                                                                                   Tables

              Development Block Grant Disaster
              Assistance Funds, New York, NY




Tables                                                                           147
      Report                   Report Title             Issue        Decision        Final
      Number                                            Date         Date            Action

      2004-NY-1804 Buffalo, NY, Municipal Housing 09/15/2004        01/04/2005 12/10/2005
                   Authority, Micro Loan Program
      2004-FW-1009 Mays Property Management, Inc., 09/17/2004       02/23/2005 06/30/2005
                   Multifamily Management Agent,
                   Little Rock, AR
      2004-LA-1007 Housing Authority of Maricopa    09/22/2004      01/14/2005 01/20/2006
                   County, Phoenix, AZ
      2004-CH-1009 Decatur Mortgage Company,       09/23/2004       02/24/2005 12/09/2005
                   LLC, Nonsupervised Loan
                   Correspondent, Indianapolis, IN
      2004-LA-1008 United States Veterans Initiative, 09/27/2004    03/31/2005 01/04/2006
                   Inc., Inglewood, CA
      2004-NY-1005 Jersey City, NJ, Housing         09/27/2004      12/17/2004 04/29/2005
                   Authority, Section 8 Contract
                   Administrator
      2004-DE-1004 New Freedom Mortgage              09/29/2004     01/28/2005 06/30/2005
                   Corporation, Single Family Direct
                   Endorsement Mortgagee, Salt Lake
                   City, UT
      2004-FW-1010 Housing Authority of the City of 09/29/2004      12/17/2004 10/31/2005
                   Houston, TX, Housing Choice
                   Voucher Subsidy Standards
      2004-KC-0001 The Office of Federal Housing    09/30/2004      01/27/2005 09/01/2005
                   Oversight Exceeds its 60 Percent
                   Statutory Requirement, but Has
                   Cost Weaknesses in its Controls
                   Over Allocating Costs for that
                   Requirement



      AUDITS EXCLUDED:                               NOTES:
      26 audits under repayment plans                 1 Management did not meet the
                                                     target date. Target date is over 1
                                                     year old.
      27 audits under formal judicial review,        2 Management did not meet the
      investigation, or legislative solution         target date. Target date is under 1
Tables




                                                     year old.




     Tables                                                                                   148
                                              Table C
                       Inspector General Issued Report with Questioned and
                                 Unsupported Costs at 03/31/2005
                                                     (Thousands)
 Reports                                        Number of               Questioned                 Unsupported
                                                Audit Reports           Costs                      Costs

 A1       For which no management                      28                  62,366                      16,236
          decision had been made by the
          commencement of the reporting
          period
 A2       For which litigation, legislation,           10                  15,915                      5,066
          or investigation was pending at
          the commencement of the
          reporting period
 A3       For which additional costs were              -                   1,604                       473
          added to reports in beginning
          inventory
 A4       For which costs were added to                1                   861                         0
          noncost reports
 B1       Which were issued during the                 45                  87,524                      62,048
          reporting period
 B2       Which were reopened during the               0                   0                           0
          reporting period

                  Subtotals (A + B)                    84                  168,270                     83,823

 C        For which a management                       46 1                119,367                     55,844
          decision was made during the
          reporting period
          (1) Dollar value of disallowed costs
                Due HUD                                23 2                66,273                      21,939
                Due program participants               27                  43,355                      26,951
          (2) Dollar value of costs not                143                 9,738                       6,954
              disallowed
 D        For which management decision                16                  20,700                      8,794
          had been made not to determine
          costs until completion of litigation,
          legislation, or investigation
 E        For which no management                      22                  28,204                      19,184
          decision had been made by                    <55>4               <28,105>4                   <19,180> 4
          the end of the reporting period

 1
     29 audit reports also contain recommendations with funds to be put to better use.
 2
     6 audit reports also contain recommendations with funds due program participants.
                                                                                                                    Tables

 3
     12 audit reports also contain recommendations with funds agreed to by management.
 4
     The figures in brackets represent data at the recommendation level as compared to the report level. See
      Explanations of Tables C and D.




Tables                                                                                                              149
                                               Table D
                 Inspector General Issued Report with Recommendations That Funds Be
                                   Put to Better Use at 03/31/2005
                                                          (Thousands)
      Reports                                                                Number of                  Dollar Value
                                                                             Audit Reports

      A1       For which no management decision had been                            19                              468,753
               made by the commencement of the reporting
               period
      A2       For which litigation, legislation, or investigation                  5                                14,126
               was pending at the commencement of the
               reporting period
      A3       For which additional costs were added to reports                     -                                 1,982
               in beginning inventory
      A4       For which costs were added to noncost reports                        0                                     0
      B1       Which were issued during the reporting period                        38                              938,890
      B2       Which were reopened during the reporting period                      0                                     0

                                             Subtotals (A + B)                      62                         1,423,751

      C        For which a management decision was made                             35 1                       1,207,900
               during the reporting period
               (1) Dollar value of recommendations that were
                    agreed to by management
                         Due HUD                                                    19 2                       1,142,390
                         Due program participants                                   17                            59,342
               (2) Dollar value of recommendations that were                        43                             6,167
                     not agreed to by management
      D        For which management decision had been made                          7                                17,438
               not to determine costs until completion of
               litigation, legislation, or investigation
      E        For which no management decision had been                            20                          198,412
               made by the end of the reporting period                              <31>4                     <198,412>4

      1
          29 audit reports also contain recommendations with questioned costs.
      2
          1 audit report also contains recommendations with funds due program participants.
      3
          4 audit reports also contain recommendations with funds agreed to by management.
      4
          The figures in brackets represent data at the recommendation level as compared to the report level. See
          Explanations of Tables C and D.
Tables




     Tables                                                                                                              150
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and
agency heads to report cost data on management decisions and final actions on audit
reports. The current method of reporting at the “report” level rather than at the individual
audit “recommendation” level results in misleading reporting of cost data. Under the
Act, an audit “report” does not have a management decision or final action until all
questioned cost items or other recommendations have a management decision or final
action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve
and complete action on audit recommendations. For example, certain cost items or
recommendations could have a management decision and repayment (final action) in a
short period of time. Other cost items or nonmonetary recommendation issues in the
same audit report may be more complex, requiring a longer period of time for
management’s decision or final action. Although management may have taken timely
action on all but one of many recommendations in an audit report, the current “all or
nothing” reporting format does recognize of their efforts.

     The closing inventory for items with no management decision on tables C and D
(line E) reflects figures at the report level as well as the recommendation level.




                                                                                               Tables


Tables                                                                                         151
                        HUD OIG Operations Telephone Listing
                                Office of Audit
                                Headquarters Office of Audit, Washington, DC   202-708-0364

                                Region I, Boston, MA                           617-994-8380
                                      Hartford, CT                             860-240-4800

                                Region II, New York, NY                        212-264-4174
                                      Albany, NY                               518-464-4200
                                      Buffalo, NY                              716-551-5755
                                      Newark, NJ                               973-622-7900

                                Region III, Philadelphia, PA                   215-656-3401
                                      Baltimore, MD                            410-962-2520
                                      Pittsburgh, PA                           412-644-6372
                                      Richmond, VA                             804-771-2100

                                Region IV, Atlanta, GA                         404-331-3369
                                      Birmingham, AL                           205-731-2630
Operations Telephone Listing




                                      Miami, FL                                305-536-5387
                                      Greensboro, NC                           336-547-4001
                                      Jacksonville, FL                         904-232-1226
                                      Knoxville, TN                            865-545-4369
                                      San Juan, PR                             787-765-5202

                                Region V, Chicago, IL                          312-353-6236
                                      Columbus, OH                             614-469-5737
                                      Detroit, MI                              313-226-6190

                                Region VI, Fort Worth, TX                      817-978-9309
                                      Houston, TX                              713-718-3199
                                      New Orleans, LA                          504-589-7267
                                      Oklahoma City, OK                        405-609-8606
                                      San Antonio, TX                          210-475-6895

                                Region VII, Kansas City, KS                    913-551-5870
                                      St. Louis, MO                            314-539-6339
                                      Denver, CO                               303-672-5452

                                Region IX, Los Angeles, CA                     213-894-8016
                                      Phoenix, AZ                              602-379-7250
                                      San Francisco, CA                        415-489-6400

                                Region X, Seattle, WA                          206-220-5360


                        HUD OIG Operations Telephone Listing                             152
Office of Investigation
Headquarters Office of Investigation, Washington, DC   202-708-0390

Region I, Boston, MA                                   617-994-8450
      Manchester, NH                                   603-666-7988
      Meriden, CT                                      203-639-2810

Region II, New York, NY                                212-264-8062
      Buffalo, NY                                      716-551-5755
      Newark, NJ                                       973-622-7900

Region III, Philadelphia, PA                           215-656-3410
      Baltimore, MD                                    410-962-4502
      Pittsburgh, PA                                   412-644-6598
      Richmond, VA                                     804-771-2100

Region IV, Atlanta, GA                                 404-331-3359
      Miami, FL                                        305-536-3087
      Greensboro, NC                                   336-547-4000
      Jacksonville, FL                                 904-232-1226
      Memphis, TN                                      901-544-0644




                                                                      Operations Telephone Listing
      Nashville, TN                                    615-736-7000
      San Juan, PR                                     787-766-5868
      Tampa, FL                                        813-228-2026

Region V, Chicago, IL                                  312-353-4196
      Cleveland, OH                                    216-522-4421
      Columbus, OH                                     614-469-6677
      Detroit, MI                                      313-226-6280
      Indianapolis, IN                                 317-226-5427
      Minneapolis-St. Paul, MN                         612-370-3106

Region VI, Arlington, TX                               817-652-6980
      Houston, TX                                      713-718-3197
      Little Rock, AR                                  501-324-5409
      New Orleans, LA                                  504-589-6847
      Oklahoma City, OK                                405-609-8601
      San Antonio, TX                                  210-475-6894

Region VII, Kansas City, KS                            913-551-5866
      St. Louis, MO                                    314-539-6559
      Denver, CO                                       303-672-5350
      Billings, MT                                     406-247-4080
      Salt Lake City, UT                               801-524-6090




HUD OIG Operations Telephone Listing                                  153
                                Region IX, Los Angeles, CA     213-894-0219
                                      San Francisco, CA        415-489-6683
                                      Phoenix, AZ              602-379-7255
                                      Sacramento, CA           916-498-5220
                                      Las Vegas, NV            702-366-2144
                                      Seattle, WA              206-220-5380
Operations Telephone Listing




                        HUD OIG Operations Telephone Listing             154
 Report fraud, waste, and mismanagement
   in HUD programs and operations by:


Calling the OIG Hotline:     1-800-347-3735

Faxing the OIG Hotline:      202-708-4829

Sending written information to:
    Department of Housing and Urban Development
    Inspector General Hotline (GFI)
    451 7th Street, SW
    Washington, DC 20410

Emailing the OIG Hotline: hotline@hudoig.gov

Internet:
http://www.hud.gov/complaints/fraud_waste.cfm




       All information is confidential,
      and you may remain anonymous.
Semiannual Report to Congress
  Semiannual Report to Congress
  as of March 31, 2005

  www.hud.gov/offices/oig




  No. 53    HUD-2005-13-OIG




  Office of Inspector General
